<html>
<title> - ``THE FOUR FAMINES'': ROOT CAUSES AND A MULTILATERAL ACTION PLAN</title>
<body><pre>[Senate Hearing 115-699]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 115-699

        INSERT TITLE HERE``THE FOUR FAMINES'': ROOT CAUSES AND
                       A MULTILATERAL ACTION PLAN

=======================================================================
                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON MULTILATERAL
                       INTERNATIONAL DEVELOPMENT,
                     MULTILATERAL INSTITUTIONS, AND
                    INTERNATIONAL ECONOMIC, ENERGY,
                        AND ENVIRONMENTAL POLICY

                                 OF THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JULY 18, 2017

                               __________

       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
                         http://www.govinfo.gov
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-062 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



           SUBCOMMITTEE ON MULTILATERAL INTERNATIONAL        
            DEVELOPMENT, MULTILATERAL INSTITUTIONS,        
              AND INTERNATIONAL ECONOMIC, ENERGY,        
                    AND ENVIRONMENTAL POLICY        

                 TODD YOUNG, Indiana, Chairman        
JEFF FLAKE, Arizona                  JEFF MERKLEY, Oregon
CORY GARDNER, Colorado               TOM UDALL, New Mexico
JOHN BARRASSO, Wyoming               CORY A. BOOKER, New Jersey
ROB PORTMAN, Ohio                    BOB MENENDEZ, New Jersey

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Young, Hon. Todd, U.S. Senator from Indiana......................     1


Merkley, Hon. Jeff, U.S. Senator from Oregon.....................     3


Nims, Hon. Matthew, Acting Director, Office of Food for Peace, 
  United States Agency for International Development, Washington, 
  DC.............................................................     5

    Prepared statement...........................................     7


Beasley, Hon. David, Executive Director, World Food Programme, 
  Society Hill, SC...............................................    18

    Prepared statement...........................................    20


Forsyth, Justin, Deputy Executive Director For Partnerships, 
  United Nations, Children's Fund, New York, NY..................    26

    Prepared statement...........................................    28


Stillhart, Dominik, Director of Operations, International 
  Committee of the Red Cross, Geneva, Switzerland................    44

    Prepared statement...........................................    45


Mahla, Deepmala, Ph.D., South Sudan Director, Mercy Corps, Juba, 
  South Sudan....................................................    50

    Prepared statement...........................................    52


Schwartz, Eric, President, Refugees International, Washington, DC    60

    Prepared statement...........................................    61


              Additional Material Submitted for the Record

World Food Programme Letter, Submitted for the Record by Senator 
  Young..........................................................    75


Saudi-led coalition blocks U.N. aid staff flight carrying 
  journalists to Yemen, Reuters, July 18, 2017...................    76


                             (iii)        

 
                 ``THE FOUR FAMINES'': ROOT CAUSES AND 
                       A MULTILATERAL ACTION PLAN

                              ----------                              


                         TUESDAY, JULY 18, 2017

                               U.S. Senate,
        Subcommittee on Multilateral International 
           Development, Multilateral Institutions, 
               and International Economic, Energy, 
                          and Environmental Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Todd Young, 
chairman of the subcommittee, presiding.
    Present: Senators Young [presiding] and Merkley.

             OPENING STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young.  The Subcommittee on Multilateral 
International Development, Multilateral Institutions, and 
International Economic, Energy, and Environmental Policy will 
come to order.
    I want to thank the ranking member. I have really enjoyed 
working with you on this and other issues, Senator Merkley. I 
am grateful for our bipartisan cooperation, and thanks for your 
partnership on this hearing.
    Together, we decided to title today's hearing, ``The Four 
Famines: Root Causes and a Multilateral Action Plan.'' We chose 
this title very deliberately. We certainly want to receive an 
update regarding the humanitarian crises in Nigeria, Somalia, 
Sudan, and Yemen. We want to have as clear of an understanding 
as possible on what is really happening in each of these four 
countries. But receiving an update and obtaining a better 
understanding of these crises is, frankly, not enough. There 
are plenty of meetings, conferences, dialogue, hearings in this 
town that can provide such an update.
    Based on an understanding of the root causes, I, for one, 
am most interested in identifying and catalyzing additional 
specific actions that other governments, NGOs, and multilateral 
institutions can take, actions they can take without delay, to 
help prevent millions from dying of starvation in these four 
countries.
    Before I preview the witnesses and participants joining us 
today, I would like to briefly comment on these posters you see 
around the room. These are from the four famine countries. We 
hear the statistics regarding these crises, and sometimes we 
can fall into a dispassionate, clinical, or intellectual 
discussion, lacking a sense of urgency, and forgetting we are 
talking about real men, real women, real children who are in 
dire need of our help.
    I realize these pictures may be disturbing to some. They 
are certainly deeply troubling to me. But I think it is 
important to have these posters here today, because they remind 
us we are talking about real people who need urgent help. Can 
you imagine how you would feel if your mother, your father, 
your sister, your brother was one of these children?
    Today, we have an impressive group of leaders and experts 
joining us to help identify additional steps we can take to 
help. Today's hearing will be divided into three panels.
    The first panelist is Mr. Matthew Nims, the acting director 
of the Office of Food for Peace at the United States Agency for 
International Development.
    Mr. Nims, thanks so much for joining here us today. We look 
forward to your testimony.
    As a quick preview, the second panel will consist of two 
distinguished leaders from multilateral entities that play an 
indispensable role in alleviating suffering in these and other 
humanitarian crises. They will include the Honorable David 
Beasley, executive director of the World Food Programme, and 
Mr. Justin Forsyth, deputy executive director for partnerships 
at the United Nations Children's Fund.
    In our third and final panel, we will be joined by three 
individuals, Mr. Dominik Stillhart, the director of operations 
for the International Committee of the Red Cross; Dr. Deepmala 
Mahla, South Sudan director for Mercy Corps; and the Honorable 
Eric Schwartz, president of Refugees International.
    Given this extraordinary group of leaders and experts with 
real-world experience, I am, of course, eager to get started. 
But before we do so, I would like to offer a few brief comments 
to frame our hearing today.
    Today, the world confronts what many view as the worst 
humanitarian crisis since World War II. The numbers are 
absolutely staggering.
    As Executive Director Beasley says in his prepared 
statement, about 20 million people are at risk of severe hunger 
or starvation in the four countries, with nearly 6 million 
children in these countries malnourished; 1.4 million people, 
like the children depicted on these posters, are in severe 
condition.
    What makes these numbers and these images around the room 
especially heartbreaking is the fact that these four crises, to 
varying degrees, are manmade. They are preventable, exacerbated 
by armed conflict and deliberate restrictions on the 
humanitarian access.
    Today, in these countries, we are seeing attacks on 
humanitarian personnel and insufficient global responses to the 
funding needs for these crises. We are also seeing far too many 
manmade impediments to the delivery of humanitarian assistance.
    Now, the international community must speak with one clear 
and unambiguous voice. Combatants must end attacks on 
humanitarian personnel and facilities. Governments should fully 
fulfill their moral obligations to help financially. And 
countries should stop using food and medicine as weapons, 
weapons of war to gain political advantage or leverage.
    Deliberately attacking humanitarian personnel and 
facilities, and impeding humanitarian relief to areas not under 
combatant control, are clear violations of customary 
international law. They are morally reprehensible, and they 
must stop.
    That is why I introduced bipartisan S. Res. 114 with 
Senator Cardin back in April. This resolution called for an 
urgent and comprehensive international diplomatic effort to 
address manmade obstacles in Nigeria, Somalia, South Sudan, and 
Yemen that are preventing humanitarian aid from being delivered 
to millions of people who desperately need it. I am pleased 
that the Senate Foreign Relations Committee passed a version of 
this resolution, and I am most hopeful that the full Senate 
will pass it soon.
    I hope this hearing will give each of us a clearer idea of 
what can and what must be specifically done to help those at 
risk of starvation in each of these four countries.
    So with those thoughts in mind, I would now like to call on 
Ranking Member Merkley for his opening remarks.
    Senator Merkley?

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you very much, Mr. Chairman, 
particularly for your deep, genuine, persistent interest and 
engagement on such an important issue.
    And we certainly are deeply pleased to have six such 
incredible international experts to give us insight on the 
challenges that we face, eradicating hunger and malnutrition is 
a great challenge.
    An appalling number, almost 800 million people across the 
world, do not have enough food to eat every day. More than 20 
million people face starvation in the four countries we are 
focusing on: Nigeria, Somalia, South Sudan, and Yemen.
    Taken individually, the numbers are staggering. Taken 
together, it is heartbreaking.
    In these four countries, with so many children, severely, 
acutely malnourished, it is not just a moral outrage. It is a 
disaster for those alive today and all those who would build a 
country for the future. Severe malnutrition in the first 5 
years of life can stunt both the brain and the physical 
development, creating long-term disruptions in human capital.
    It is no wonder, then, that international aid officials say 
they are facing one of the most severe humanitarian disasters 
since World War II.
    While each country and situation is unique, each and every 
one of these famines has manmade contributions. It is, 
therefore, essential that the hearing today address not only 
the root causes that drive the suffering but also the 
multilateral actions the international community can take to 
address it.
    In each of these countries, some combination of weak 
governance coupled with unprecedented drought and conflict have 
brought famine-like conditions. Conflicts severely restrict the 
delivery of food aid. Whether it is the fight against extremist 
groups in Nigeria and Somalia, the civil conflicts in South 
Sudan and Yemen, the effect is the same. Conflict prevents the 
delivery of food assistance at the scale necessary to meet the 
need, especially if the warring parties attempt to use 
starvation as a weapon. And I think the chairman spoke directly 
and powerfully to that issue.
    Climate disruption also plays a role. Severe drought in 
Somalia is a key driver. Beyond Somalia, climate disruption is 
contributing to droughts and food shortages that are spurring 
refugee movement and stressing weak governments. As our planet 
continues to warm, the potential for new famines only gets 
worse.
    And famine is not just about food. It is about water. 
Sometimes, it is the lack of clean water and proper hygiene 
that create deadly scenarios where diseases like cholera 
spread. The problem gets even worse in refugee camps. Cholera 
is on the rise in East Africa with thousands of cases in 
Somalia and South Sudan in recent years.
    Over the long term, it is critically important to address 
the conflicts in climate disruption that are driving famine and 
will continue to do so. And in the near term, it is imperative 
that we do everything possible to help those suffering from 
these four famines.
    The United States has been a leading provider, often the 
leading provider, of international disaster relief. This is 
something Americans should take great pride in.
    While I support the administration's commitment to provide 
$639 million in aid to these four countries, I am concerned 
that the proposed sharp cuts in funding for USAID, the State 
Department, the United Nations, and foreign assistance more 
broadly will have a negative impact.
    I understand the administration is considering moving the 
Bureau of Population, Refugees, and Migration away from the 
Department of State and into the Department of Homeland 
Security. At a time when refugees are on the rise globally, 
including as a result of these famines we are discussing, we 
should only be redoubling our efforts to support refugees and 
vulnerable populations by keeping refugee assistance and 
resettlement under the direction of the State Department's 
Bureau of Population, Refugees, and Migration.
    It is essential that the U.S. commit American resources and 
lead the world's effort to address not only these existing 
crises, but the ones to come as well--to prepare for them, to 
be ready for them, to contribute to the prevention.
    Emergency funding is critical, but it is not enough. We 
also have to invest in development and diplomacy, and 
intergovernmental cooperation.
    I am especially appreciative of all the work done by 
organizations represented here today--USAID, the World Food 
Programme, UNICEF, the Red Cross, Refugees International, Mercy 
Corps--Mercy Corps headquartered in Oregon, I am proud to 
note--and all the work that they are tirelessly engaged in to 
address these issues.
    And I am pleased that our USAID representative, Matthew 
Nims, is from the Food for Peace Office, which was zeroed out 
in the President's budget. But earlier today, the Ag 
Subcommittee of Appropriations, in a bipartisan fashion, made 
sure that this program is funded. Therefore, you will have a 
job. [Laughter.]
    Senator Merkley. And a very important job it is.
    Thank you to all of our witnesses for their willingness to 
join with us today. Thank you for your work. Thank you for 
sharing your expertise.
    Senator Young.  It is great to have you here, Mr. Nims. 
Your full written statement will be included in the record, so 
I welcome you to summarize that statement in 5 minutes, if that 
is possible, sir.

STATEMENT OF HON. MATTHEW NIMS, ACTING DIRECTOR, OFFICE OF FOOD 
FOR PEACE, UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Mr. Nims. Thank you, Chairman Young and Ranking Member 
Merkley, very much for the invitation to come speak with you 
today about, just as you described in your opening statements, 
this unprecedented food security crisis the world is facing.
    We are grateful, from the USAID side, from the Food for 
Peace side, and I think I speak for a lot of the other members 
that are going to be talking, we are very grateful for your 
continued support to the humanitarian efforts in bringing 
attention to the struggles of the world's most vulnerable 
people.
    I think we have all seen the headlines about the potential 
for famine in the four countries, about the massive levels of 
food insecurity globally. The USAID-funded Famine Early Warning 
Systems Network, or FEWS NET, has indicated an unprecedented 81 
million people across 45 countries will be in need of emergency 
food assistance this year, largely due to persistent conflict, 
severe drought, and economic instability.
    Across South Sudan, Somalia, Nigeria, and Yemen, a combined 
20 million people are at risk of severe hunger or starvation. 
In terms of scale, to put it in perspective, that is nearly 
double the populations of Indiana and Oregon combined.
    In Yemen, in particular, the scale of food insecurity is 
staggering. More than 17 million people, an astounding 60 
percent of the country's population, are food insecure, 
including nearly 7 million people who are unable to survive 
without food assistance.
    In responding to these emergencies, we are seeing some 
commonalities as these conditions worsen. High malnutrition 
levels across these countries are very worrying. In all four 
countries, more than 1.4 million children are projected to face 
severe, acute malnutrition this year.
    These numbers are shocking, particularly when you consider 
severe malnutrition in emergency contexts can threaten the very 
survival of children and, long-term, have negative effects on 
all aspects of individual's health and development.
    In three of the countries, Somalia, South Sudan and Yemen, 
cases of cholera are on the rise. The people of Yemen face the 
world's worst cholera outbreak, with more than 332,000 
suspected cases reported as of last week. In fact, I think we 
are closer to 350,000 already.
    As extreme hunger weakens people's immune systems, it 
leaves them susceptible to deadly but largely preventable 
diseases like cholera. So it is critical we contain the 
outbreaks.
    The manmade nature of these crises is another common 
thread. In South Sudan, Nigeria, and Yemen, the food security 
situation is a direct consequence of prolonged conflict. In 
Somalia, ongoing conflict has exacerbated severe drought 
conditions.
    In all four of the countries, we call on all parties to 
allow safe, rapid, and unhindered access to people most in 
need.
    As you know, in South Sudan, despite our efforts in the 
last 3 years to stave off famine, famine was declared in two 
counties in February due to the ongoing conflict and lack of 
safe and sustained access. The international community 
responded by scaling up humanitarian activities. And in June, 
it was announced that famine conditions have subsided.
    However, overall, food security across the country had 
continued to deteriorate, and life-threatening hunger has 
spread in both scope and scale. An estimated 6 million people, 
more than half of South Sudan's population, now face life-
threatening hunger.
    Nearly 4 million South Sudanese have been displaced from 
their homes. And an exodus of 1.9 million South Sudanese into 
neighboring countries, including into conflict areas of Sudan, 
definitely shows the desperation they face.
    I had the honor of traveling with Chairman Corker and 
Senator Coons to Bidi Bidi, the settlement in Uganda, in April, 
where many South Sudanese refugees shared their harrowing 
stories with us and thanked us for the assistance provided by 
the U.S. Government. I was struck by the bravery they showed in 
the face of such adversity.
    The United States, through its many partners, continues to 
robustly respond to these emergencies and helps lead the 
international effort.
    Through your generous support, we just announced an 
additional $639 million in humanitarian assistance for the 
millions of people affected by food insecurity and violence in 
these countries. Our assistance includes emergency food and 
nutrition assistance, lifesaving medical care, improved 
sanitation, safe drinking water, emergency shelter, protection 
for civilians affected by conflict, and support for hygiene and 
health programs to treat and prevent disease outbreaks.
    This brings the total U.S. humanitarian assistance to more 
than $1.8 billion for these four crises since the beginning of 
fiscal year 2017.
    Finally, as I close, I would be remiss not to acknowledge 
that these four crises are our areas of greatest concern, but 
they represent merely the spearhead of humanitarian 
emergencies, including ongoing crises in Syria, Iraq, and in 
places like Central African Republic, the Democratic Republic 
of Congo.
    In particular, I would draw your attention to the worrying 
news coming out of Ethiopia. According to FEWS NET, the 
situation in southern Ethiopia is deteriorating and may be 
catastrophic without additional intervention. The drought in 
southern Ethiopia comes as the country's north and central 
highland areas continue to recover from a severe drought last 
year that was triggered by El Nino, and consecutive poor rainy 
seasons. We are continuing to ramp up our assistance, including 
resilience investments to support Ethiopia's capacity to better 
withstand shocks like a severe drought in the future.
    Thank you for your support, and I look forward to sharing 
more about our response to date, and taking your questions.
    [Mr. Nims's prepared statement follows:]


                   Prepared Statement of Matthew Nims

    Chairman Young, Ranking Member Merkley, and members of the 
subcommittee, thank you for the invitation to come and speak with you 
today about the unprecedented food security crisis the world is facing.
    My name is Matthew Nims, and I am the Acting Director of USAID's 
Office of Food for Peace (FFP). The United States has long been the 
largest provider of emergency food assistance in the world and we are 
grateful for your continued support to humanitarian efforts and raising 
awareness to the struggles of the world's most vulnerable people. USAID 
uses a mix of tools to respond to emergency food needs, including U.S. 
commodities, locally and regionally procured food, vouchers, cash 
transfers and other complementary activities to reach the world's most 
food insecure with lifesaving aid. We also support development programs 
that address the root causes of hunger in areas of chronic crisis to 
build resilience and food security of local communities.
    Global donors continue to be confronted this year with major 
humanitarian crises around the world, which demand an immediate, 
substantial, and collaborative response. The USAID-funded Famine Early 
Warning Systems Network, or FEWS NET, warned early on that 2017 would 
see an unprecedented 81 million people across 45 countries in need of 
emergency food assistance, largely due to persistent conflict, severe 
drought and economic instability. South Sudan experienced famine 
earlier this year and three other countries--Somalia, Nigeria and 
Yemen--face the threat of famine, putting a combined 20 million people 
at risk of severe hunger or starvation. In terms of scale, more than 
twice the populations of New York City and Washington, D.C. combined 
are at risk.
    Over the past year, I have traveled to some of these countries and 
others facing severe food insecurity to see firsthand the situation on 
the ground. Today I want to share with you more about the ongoing 
crises in these countries, what we and others in the international 
community are doing to respond, and the challenges these countries 
face.
South Sudan
    Let me start with South Sudan, where famine was declared earlier 
this year in two counties. This crisis is man-made. More than three 
years of horrific violence in South Sudan has transformed the world's 
youngest nation into one of the most food-insecure countries in the 
world. Despite our efforts throughout the conflict to stave off famine 
in collaboration with the U.N. World Food Program (WFP), UNICEF and 
other partners, famine was declared for about 100,000 people in parts 
of the country in February due to the on-going conflict and lack of 
safe and sustained access for humanitarian workers. The international 
community responded by scaling-up humanitarian activities and, in June, 
it was announced that famine conditions had subsided. However, during 
that period, overall food security across the country continued to 
deteriorate and life-threatening hunger has spread in both scope and 
scale. An estimated 6 million people--more than half of South Sudan's 
population--now face life-threatening hunger.
    People continue to be driven from their homes by violence, and many 
are forced to eat water lilies and wild grasses to survive. Innocent 
civilians are targeted by violence from armed actors on all sides of 
the conflict, and have little to no access to basic services. Despite 
numerous ceasefire proclamations, the fighting has continued. It has 
disrupted markets and harvests, and the South Sudanese people--having 
exhausted all their resources--are left with little or nothing to 
survive. Many face a choice no one should have to face--stay where they 
are and starve, or run for their lives, potentially into mortal danger, 
so they can find food.
    The warring parties of this conflict are responsible for this 
situation. Nearly four million South Sudanese have been displaced from 
their homes internally or as refugees, and the exodus of 1.9 million 
South Sudanese into neighboring countries--including into conflict 
areas of Sudan--shows the desperation they face as the geographic scale 
of the conflict spreads. Schools have emptied out, leaving 1.8 million 
children out of school and 17,000 children recruited into armies.
    Nearly 1 million Southern Sudanese have fled to Uganda, more than 
half of them just since January. The Bidi Bidi refugee settlement did 
not exist this time last year yet is now home to more than 270,000 
refugees, who continue to arrive at an average of more than 1,000 each 
day. I had the honor of traveling with Chairman Corker and Senator 
Coons to Bidi Bidi in April where many refugees bravely shared their 
harrowing stories with us. At the intake center where refugees are 
registered, many were grateful for the food they were provided by WFP 
with U.S. support, the first food many had had in days or even a week 
as they made their trek from South Sudan to Uganda. We met young girls 
who ran from conflict with their younger siblings and now were the sole 
family caregiver. We also met with young women, who were raped as they 
fled or as soldiers ransacked their villages, and who were now pregnant 
and trying to rebuild their lives on their own; and we met with many 
who just wanted peace, to return home and resume being productive 
members of their community.
    The United States continues to be at the forefront of a robust 
humanitarian effort to save as many lives as possible. The United 
States, through USAID and the Department of State's Bureau of 
Population, Refugees, and Migration has provided nearly $2.75 billion 
since 2013 to help the South Sudanese people. We deployed a Disaster 
Assistance Response Team (DART) in December 2013 to lead the U.S. 
humanitarian response; the DART remained in place through the July 2016 
violence and remains on the ground managing the U.S. humanitarian 
response. Throughout the crisis, and ramping-up over the past six 
months, the U.S. has responded with comprehensive humanitarian 
assistance, including food, safe drinking water, emergency medical 
care, critical nutrition treatment, and emergency shelter and relief 
supplies. So far in FY 2017, we have provided more than 100,000 metric 
tons of food assistance, at times using airdrops and mobile teams to 
reach populations in famine in highly insecure areas.
    Our health, water and sanitation interventions are critical because 
we know that people don't only die in large numbers from hunger, but 
from the diseases to which they succumb when hunger weakens their 
immune systems, leaving them susceptible to deadly but largely 
preventable diseases, such as cholera and malaria. Our assistance is 
also helping to provide psychosocial support to survivors of gender-
based violence, give children a safe place to learn as an alternative 
to fighting, and reunite families separated by fighting.
    However, significant challenges remain. While a robust 
international humanitarian response helped roll back famine, the 
continued failure of South Sudan's leaders to prioritize the wellbeing 
of their people will result in continued deterioration, making a return 
to famine a real possibility in coming months and years. Our partners 
continue to face security and access challenges that make our life-
saving operations more dangerous and complex. Governmentmandated 
bureaucratic impediments, numerous road checkpoints by all parties to 
the conflict, weather-related obstacles, and limited communication and 
transportation infrastructure have restricted humanitarian activities 
across South Sudan. Additionally, aid workers have been harassed, 
attacked, or killed, and relief supplies looted by all parties to the 
conflict. According to the U.N. South Sudan is the most dangerous place 
in the world for humanitarian workers--at least 84 aid workers have 
died in South Sudan since 2013. We call on all parties to allow safe, 
rapid, and unhindered access to people most in need. All parties to 
this conflict must stop targeting aid workers and stop impeding 
humanitarian response efforts.
Somalia
    In 2011, nearly 260,000 Somalis--half of them children under five--
died in a famine triggered by what was at the time the Horn of Africa's 
worst drought in more than 60 years. Today, Somalia once again faces 
the threat of famine. Recent analysis by FEWS NET indicates troubling 
parallels to conditions which led to the 2011 famine. In many areas, 
vegetation conditions are the worst on record, surpassing those 
observed during the 2011 crisis. Somalia's overall below-average April-
to-June rainfall was insufficient to end the country's ongoing drought, 
which is expected to continue until at least the onset of the October-
to-December rainy season. FEWS NET estimates that the upcoming harvest 
will be up to 60 percent below average, compounding an already dire 
food security situation. In addition to these factors, the situation is 
further exacerbated by ongoing conflict.
    Despite the mitigating impact of humanitarian assistance, the 
number of people facing lifethreatening levels of acute food insecurity 
in Somalia increased from approximately 2.9 million to more than 3.2 
million people between February and May. An estimated 6.7 million 
Somalis--more than half the population--are currently in need of 
immediate humanitarian assistance as a result of the combined effects 
of the drought and ongoing conflict. An elevated risk of Faminelevel 
acute food insecurity in Somalia persists due to the population's 
reliance on emergency food assistance, the high likelihood of a poor 
harvest, high acute malnutrition, and Somalia's ongoing cholera 
outbreak. Approximately 1.4 million children younger than five years of 
age in Somalia are projected to face acute levels of malnutrition by 
the end of 2017, with 275,000 facing severe acute malnutrition, 
according to revised projections by the U.N. Children's Fund (UNICEF).
    As sources of safe water dry up, cases of waterborne disease are on 
the rise. The U.N. reports more than 53,000 suspected and confirmed 
cases of cholera, including 795 related deaths across the country, 
since January 2017. In comparison, the 2016 cholera outbreak with a 
caseload of 15,619 was considered one of the largest and longest that 
Somalia has undergone over the last five years. The drought is also 
forcing people from their homes. According to the U.N., more than 
761,000 people have been displaced due to drought since November 2016. 
Many displaced families are not getting the emergency aid they need 
because the urban centers and existing settlements to which they are 
fleeing lack comprehensive systems to register and assist new arrivals.
    The crisis in Somalia also has regional effects, as people leave to 
look for food and support in neighboring countries. This migration 
compounds the already tenuous situations in Ethiopia and Kenya. We 
support the food security needs of refugees in these countries and are 
seeing highly concerning malnutrition rates among those arriving into 
Ethiopia from southern Somalia. These countries are also facing inflows 
of refugees from South Sudan, making the impacts of these food security 
crises regional in nature.
    Over the last several months, the United States has worked to 
rapidly scale up our emergency response efforts in Somalia, providing 
vital food and malnutrition treatment and ensuring communities have 
safe drinking water and improved sanitation and hygiene. The United 
States has provided more than $336 million in emergency assistance to 
date in 2017 for Somalia.
    USAID partners are distributing food rations to the most acutely 
food-insecure people, as well as food vouchers and cash transfers where 
markets are functioning. We are also strategically utilizing existing 
long-term development resources where possible to complement rapid 
emergency humanitarian assistance. USAID's assistance in Somalia is 
typically linked to activities designed to help build the resilience of 
the Somali people, including vocational training or productive asset 
building activities, such as rehabilitating community water and 
sanitation infrastructure or roads. However, due to the rapidly 
deteriorating food security situation, many of these productive 
activities are on hold until households' food security improves.
    This is the first time since Somalia's devastating 2011 famine that 
FEWS NET has warned of an elevated risk of famine in the country. But 
it is important to recognize the differences between the Somalia of 
2011 and now. The Somali Federal Government formed just a few years 
ago, while access to affected populations remains a key obstacle, there 
is wider humanitarian access, and investments in development and 
resilience have helped better position some communities to endure this 
drought. The United States continues to help build the capacity of the 
fledgling Somali Government to support its own population. The Federal 
and State Governments have formed Drought Coordination Committees, 
which work to raise funds and coordinate the delivery of assistance to 
communities across Somalia. The drought Somalia faces is also affecting 
the greater Horn. Importantly, the Governments of Djibouti, Ethiopia, 
Kenya and Somalia all publicly committed earlier this year to regional 
cooperation and cross-border collaboration to tackle both this drought 
and, through longer-term investments, the underlying fragility that 
tips vulnerable communities into crisis in recurring droughts.
Nigeria
    The savagery of Boko Haram and ISIS-West Africa and the ensuing 
conflict in Nigeria's northeast has triggered a humanitarian crisis, 
violations in international humanitarian law, and protection risks in 
northeast Nigeria and surrounding countries in the Lake Chad Basin 
region. The conflict has displaced over two million people and leaving 
more than 10 million vulnerable individuals in need of humanitarian 
assistance.
    Food assistance and nutrition continue to be the most critical 
needs in northeast Nigeria. An estimated 5.2 million people face severe 
food insecurity during the current May to October lean season in 
northeastern Nigeria. The most vulnerable populations include those 
displaced in Borno State, where famine already likely occurred in 2016. 
Despite improvements in humanitarian access and partner capacity, 
insecurity and limited capacity continue to constrain the reach and 
scale of assistance available. Though insecurity limits access and 
information gathering, there are signs that a famine may be ongoing in 
parts of the state that are inaccessible to humanitarian actors. As 
access has improved, humanitarian agencies are encountering communities 
with dire levels of hunger and malnutrition, particularly among 
children. In addition, a recent influx of refugees returning to Nigeria 
from Cameroon is causing overcrowding in internally displaced person 
sites in northeast Nigeria, increasing humanitarian needs and straining 
available resources.
    This crisis involves numerous other tragedies and protection 
issues. We hear reports of families without shelter and on the brink of 
starvation, vulnerable women and girls forced to trade sex for food to 
keep their families alive, men and boys forcibly recruited into armed 
groups or killed, and children whose worlds have been shattered after 
months of captivity. We also have reports of girls as young as eight 
years old being used as suicide bombers. Yet, the severe and 
heartbreaking needs of these vulnerable communities far exceed the 
resources available to help them.
    Since late 2016, the U.N. and NGOs have scaled up emergency 
operations. Since December 2016, WFP continues to reach more than 1 
million people in northeast Nigeria each month with in-kind food 
assistance or cash-based transfers. Relief organizations have also 
expanded nutrition programs, including activities that train community 
volunteers to help screen and refer malnourished children to health 
centers. UNHCR and ICRC continue to provide protection to internally 
displaced persons (IDPs), unaccompanied children and separated minors, 
as well as assistance to refugees returning voluntarily from Cameroon.
    Despite clear progress, the global emergency response is still not 
meeting all of the widespread needs due to the scale of the crisis and 
the persistent insecurity that thwarts humanitarian operations. Faced 
with threats of ambushes, suicide attacks, and improvised explosive 
devices, our partners are bravely putting themselves in danger to 
deliver aid to those who need it most. They must be allowed to continue 
their important work without fear of violence. As we continue to scale 
up our humanitarian response to this crisis, we must work with the 
Government of Nigeria and the governments around the Lake Chad Basin to 
reach communities that have been most impacted by insecurity 
perpetuated by Boko Haram and ISIS-West Africa.
Yemen
    There continues to be grave concern about the risk of famine in 
Yemen, now the world's largest food security emergency, where more than 
seventeen million people--60 percent of the country's population--are 
food insecure, including nearly seven million people who are unable to 
survive without food assistance. Simultaneously, the people of Yemen 
also face the world's worst cholera outbreak.
    The primary driver of this crisis is the ongoing conflict that 
broke out in late 2014. Fighting has also hampered commercial trade, 
which is particularly devastating in a country that imports 90 percent 
of its food and most of its fuel and medicine. The food that does make 
it to markets continues to be increasingly expensive, with some foods 
doubling in price as supplies dwindle. For one of the poorest 
countries, these price increases dramatically affect people's ability 
to buy food and are further exacerbating the food security situation.
    Two years of conflict has disrupted more than Yemen's food supply. 
Two million people have been forced to flee from their homes, and more 
than 75 percent of the country is in need of food or other humanitarian 
assistance--including approximately 462,000 children who are severely 
malnourished. During a major food crisis like this, preventable disease 
is often the leading cause of death. In many cases, diseases like 
cholera also inhibit the ability to treat malnutrition, so they must be 
treated first. Contaminated drinking water, unsafe hygiene practices, a 
lack of sanitation services, and a crippled health care system are big 
contributors to the resurgence of a cholera outbreak that originally 
began in October.
    To reach people in need, our humanitarian partners are navigating 
active conflict, checkpoints and other access constraints, bureaucratic 
impediments, and heavily damaged infrastructure. Despite these 
obstacles, USAID, PRM, and our partners are able to reach millions of 
people with life-saving aid, and the United States continues to mount a 
robust humanitarian response. Last month, USAID partner WFP reached 
nearly five million people with emergency food assistance. Our programs 
provide food vouchers and nutrition services. Mobile health clinics 
bring muchneeded emergency medical services in a time when nearly 15 
million people lack access to basic health care. We are also providing 
hygiene kits, safe drinking water, and improved access to sanitation 
services to fight malnutrition and stave off disease. In late May, WFP 
provided logistical support to an U.N.-chartered aircraft carrying 67 
tons of intravenous fluids and cholera kits to Yemen. For children 
especially, the toll of conflict can have lasting effects. Our mobile 
protection teams provide treatment to children throughout the country.
    There is no doubt that our humanitarian programs are saving lives. 
According to FEWS NET, without the large-scale, international 
humanitarian assistance currently being provided to partners in 
country, the food security situation would be significantly worse 
across Yemen. According to FEWS NET, if imports decrease and markets 
are further restricted, there is a threat of famine this year. We call 
on all parties to ensure unimpeded access for commercial and 
humanitarian goods throughout the country.
    I would be remiss not to acknowledge that these four crises are our 
areas of greatest concern, but they represent the spearhead of 
humanitarian emergencies, including ongoing crises in Syria, Iraq and 
increasing concern in places like the Central African Republic and the 
Democratic Republic of the Congo. In particular, I would draw your 
attention to the worrying news coming out of Ethiopia. According to 
FEWS NET, the situation in southern Ethiopia is deteriorating rapidly 
and may be catastrophic without additional intervention. This drought 
in southern Ethiopia comes as the country's north and central highland 
areas continue to recover from a severe drought last year that was 
triggered by El Nino and consecutive poor rainy seasons. Thus far in 
fiscal year 2017, the United States has provided more than $225 million 
in humanitarian assistance to Ethiopia, including for refugees also 
present in the drought-affected areas. We are continuing to ramp-up our 
assistance, including resilience investments to support Ethiopia's 
capacity to better withstand shocks like this severe drought in the 
future.
Root Causes and Challenges
    Throughout the hotspots highlighted, several concerning themes 
emerge. Protracted, complex crises are taking up increasing amounts of 
scarce humanitarian resources, causing unprecedented population 
movements, and presenting unique challenges, including to U.S. national 
security. USAID estimates that in FY 2017 over half of our humanitarian 
funding will be allocated toward just six major emergencies, nearly all 
conflict driven. This notable shift to conflict as the largest driver 
of humanitarian crisis over the past decade is remarkable. Ten years 
ago, 80 percent of humanitarian resources were dedicated to natural 
disasters and 20 percent were used in response to conflicts. Today 
those numbers are reversed. The number of people in need of 
humanitarian aid has more than doubled over the past decade, and more 
than 65 million people are displaced internally or as refugees as a 
result of conflict and persecution. This shift towards conflict-related 
crises brings with it different challenges such as ensuring critical 
and safe access to communities in need.
    To address these challenges, we are adapting to increasingly 
complex environments, and finding ways to provide assistance 
efficiently and safely, in order to save more lives. USAID is 
continually seeking ways to make our dollars stretch further, to reach 
the most people with the assistance they urgently need. This includes 
everything from providing newly displaced families in Syria with 
smaller, more portable food packages, to using geolocation technology 
to track assistance all the way to the beneficiary; from introducing 
retinal scans to verify the right assistance is going to the right 
person to making sure our internal operations--from staffing, oversight 
and implementation--continues to improve.
    USAID also seeks to prevent and mitigate the impact of conflict and 
political instability in the recognition that prevention is equally 
important in addressing the causes of humanitarian crisis, and is more 
cost-effective in the long run.
    We also cannot forget the need to focus on resilience to shocks. 
While the crises we discussed here today are driven by conflict, 
building community and country level resilience to recurrent shocks, 
like drought, is vitally important. Building resilience to recurrent 
crises has emerged as a priority for USAID and the U.S. Government, 
host governments, and development partners. The U.S. Government's new 
Global Food Security Strategy, developed last year as directed by the 
Global Food Security Act, elevates resilience within our work to combat 
the root causes of hunger, poverty and malnutrition. We have recognized 
that treating recurrent humanitarian crises as anomalies is extremely 
costly; including loss of lives and livelihoods, losses to national and 
regional economies, and the unsustainable financial burden of recurrent 
humanitarian spending in the same places. A UK study of Ethiopia and 
Kenya estimated that for two large droughts every $1 invested in 
resilience would result in $2.90 in reduced humanitarian spending, 
avoided losses and improved development outcomes over a decade. This 
ounce of prevention is worth a pound of cure.
    A comparison of two communities in Malawi during the 2016 El Nino 
drought further illustrates the point. In one community, responding to 
urgent, life-saving needs cost an average of $390 per household. This 
community will also likely require similar assistance during future 
droughts. By contrast, a neighboring community in which we invested an 
estimated $376 per household over five years through a Title II 
development program between 2009 and 2014 did not require food 
assistance in 2016.
    What we cannot do is provide a humanitarian solution to a political 
problem, and we are working with our colleagues at the Department of 
State, our partners around the world, and the international community 
in order to continue to press for cessation of hostilities and enduring 
political solutions that bring conflict to an end. The United States 
relies on bilateral and multilateral channels to engage with foreign 
governments, international organizations and other partners to seek 
address the root causes of global food insecurity and famine. Only then 
can we move away from the dire human cost of these conflicts, and 
towards prosperity and stability.
    Addressing humanitarian needs is also a global responsibility. As 
the President and Secretary of State have said, other countries need to 
do more to help meet these needs. The administration continues to work 
with other donors to increase their share of the response. In addition, 
the U.S. is challenging international and non-governmental relief 
organizations to expedite efforts to become more efficient and 
effective. The administration is evaluating needs and responding 
robustly and responsibly based on priorities, access, the capacity of 
our implementing partners, and other donors. Our priority is to ensure 
that funding is programmed responsibly and effectively.
    Thank you for your attention to these issues and for the support 
Congress has provided to USAID and specifically our humanitarian 
programs over the years. Through your generous support, the United 
States at the G-20 meeting announced an additional $639 million in 
humanitarian assistance for the millions of people affected by food 
insecurity and violence in these countries, bringing total FY 2017 
commitments so far for affected people from these four countries to 
over $1.8 billion (or about 20 percent of the total FY 2017 
humanitarian appropriations). We do this work not only because it is 
the right thing to do, but also because it is in the interest of the 
American people and promotes global stability. Please know that your 
support transforms and saves lives every day.


    Senator Young.  Thank you, Mr. Nims.
    I am going to ask you a series of questions. We will have 
7-minute rounds. There will be an opportunity for multiple 
rounds for each of the three different panels. There may be 
some questions I ask you, Mr. Nims, where I am asking you to 
recapitulate something you have already delivered in your 
testimony, and that is because I think it is essential that we 
underscore certain points in the course of this whole exercise.
    So with that, how would you characterize, Mr. Nims, the 
humanitarian situation in the so-called four famine countries?
    Mr. Nims. So I think largely, mostly due to prolonged 
conflict and severe drought, and I guess continuing economic 
instability, we think that those four countries face incredible 
risk of famine in 2017.
    So famine is a very serious word in our business. South 
Sudan experienced famine earlier this year, as I mentioned. And 
Somalia, Nigeria, and Yemen face the threat of famine.
    Really, again, looking at the numbers, this puts a combined 
20 million people at risk of severe hunger or starvation.
    Senator Young.  Would you, overall, described this 
humanitarian crisis as the worst humanitarian crisis since 
World War II?
    Mr. Nims. Yes. As I stated, our famine early warning system 
says that, right now, we have an unprecedented level of need, 
81 million people across 45 countries in the need of emergency 
food security.
    Additionally, of the 15 major food insecurity operations 
that we have going on in the world, 13 of those can be said to 
be based on manmade conflict.
    Senator Young.  Focusing more narrowly on Yemen, would you 
agree that Yemen is the largest humanitarian crisis in the 
world right now, in terms of the number of people impacted?
    Mr. Nims. Yes, I would. Right now, Yemen is facing the 
world's largest cholera outbreak, and as well has the largest 
number of food insecure in the world, with almost 17 million 
people. The primary driver definitely has been the conflict 
that broke out in March 2015.
    Senator Young.  So you have indicated 17 million food 
insecure. How many have been infected by cholera, something 
reported a lot recently?
    Mr. Nims. That is 17 million. That is about 60 percent of 
the population. It is an astounding number. Seven million of 
those are unable to survive without food assistance, as I 
mentioned.
    Right now, I think the estimates are that over 350,000 
people have been infected with cholera.
    Senator Young.  For those who may not be as familiar with 
the situation in Yemen, or the geography there, why is the Port 
of Hodeidah so important to helping the millions of people in 
Yemen at risk of starvation?
    Mr. Nims. So the port of Yemen is the most crucial port for 
Yemen right now. Over 90 percent of all imports come in through 
that country.
    Why that is doubly important is the fact that Yemen is 90 
percent dependent for its food consumption on imports. So the 
Port of Hodeidah is the main hub for all of that activity.
    Senator Young.  Mr. Nims, can you describe what happened to 
the original cranes at the Port of Hodeidah?
    Mr. Nims. So the original cranes in August 2015 were bombed 
in an airstrike.
    Senator Young.  How has that negatively impacted 
humanitarian operations at Hodeidah and, more broadly, in 
Yemen?
    Mr. Nims. So with the loss of these cranes, it definitely 
has impacted the discharge rate of vessels going into the 
ports, so that has really slowed the port operations overall. 
That has had an impact, definitely, on the humanitarian side, 
as well as overall commercial activity for all of Yemen.
    Senator Young.  Were USAID funds used to purchase, as best 
you can tell here in this setting, these mobile cranes to 
replace those put out of service by the Saudi-led coalition?
    Mr. Nims. Those look very similar to, if not the cranes, 
that USAID did purchase.
    Senator Young.  It was not designed to be a trick question. 
[Laughter.]
    Senator Young.  But I appreciate your integrity.
    How much of U.S. taxpayer funds were used for these cranes?
    Mr. Nims. That was $3.9 million.
    Senator Young.  They are now in the possession of the World 
Food Programme. Is that correct?
    Mr. Nims. Correct.
    Senator Young.  I understand there was an attempt by the 
World Food Programme to deliver those cranes to Hodeidah 
earlier this year. What happened? Why weren't they delivered?
    Mr. Nims. There was an attempt to do exactly that. There 
had been clearances gained from the emergency humanitarian 
operations center, from this coalition of groups that helps to 
ensure flow goes into the port.
    They had received clearance, the WFP, to enter those cranes 
into Hodeidah. As they got closer to that, the security 
situation had changed in the Red Sea, and that shipment was 
turned back.
    Senator Young.  Are you aware of the June 27 World Food 
Programme letter asking the Saudi Government for permission to 
deliver the cranes?
    Mr. Nims. I am aware of that letter, yes.
    Senator Young.  Do you support the World Food Programme's 
request to have the four USAID-funded cranes delivered to 
Hodeidah?
    Mr. Nims. Yes. Delivery of the cranes would have a definite 
impact on both the humanitarian situation, as far as getting 
throughput through the Port of Hodeidah more quickly, as well 
as having a really good impact on the commercial activity 
overall in Yemen.
    Senator Young.  And apologies for the recapitulation here. 
So what are the negative humanitarian consequences of not 
having those cranes delivered? Just to connect the dots.
    Mr. Nims. Because the cranes will help the throughput and 
help port operations, when we do not have the cranes, it takes 
longer for ships to discharge. It takes longer for regular 
operations of the port to continue. The cranes will greatly 
facilitate having this movement of goods through the port.
    As I stated earlier, Yemen is completely dependent upon 
importation, by and large, to address the conditions they have, 
as well as their overall food needs in general. Having these 
cranes will improve that situation.
    Senator Young.  Some have suggested there is a large-scale 
problem with the theft of humanitarian aid at the Port of 
Hodeidah. Is there a significant problem with theft of 
humanitarian aid at the Port of Hodeidah?
    Mr. Nims. First off, the U.S. Government and USAID, and 
particularly my office, takes any allegations of diversion of 
humanitarian activities very seriously. This is paramount in 
all of our operations.
    This humanitarian need is really being held off by our 
continued operations that have been crucial through the port, 
as well as with our partners.
    In this situation, we have taken this very seriously. We 
have investigated this through our partners. We have 
investigated this, to a degree, on our own. And we have had no 
evidence of any large-scale humanitarian diversions occurring 
at the port at all.
    We are able to say this because of the integrity of our 
partners and because of the methods that they use, as well as 
our own methods of third-party monitoring and other systems 
that we employ to ensure that this food gets to where it is 
supposed to go.
    Senator Young.  Thank you. That is what my other sources 
have indicated as well, multiple other sources.
    Some have argued that it is too unsafe for the cranes to be 
delivered to Hodeidah. Do you share that assessment? Why would 
the World Food Programme, I ask almost rhetorically, want to 
deliver the cranes there if it is so unsafe?
    Mr. Nims. Our very good partners, the World Food Programme, 
has determined that it is safe for the cranes to go in. They, 
along with other U.N. organizations and some of the NGOs that 
are here today, currently have staff and operations in the 
port, and we stand with WFP.
    Senator Young.  And I would note multiple ships go there as 
well that are not affiliated with the World Food Programme.
    So thank you for your candid and concise responses to my 
questions.
    Mr. Merkley?
    Senator Merkley. Thank you, Mr. Chairman.
    Director Nims, just to pursue a little bit the logistical 
challenges, what nation was behind the airstrikes that had such 
an impact on the ability to unload cargo?
    Mr. Nims. In reference to that, I believe I said April--no, 
August 2015. I really do defer to my Department of Defense 
colleagues, as well as, potentially, Department of State, to be 
able to answer that question.
    Senator Merkley. So let's suppose it is Saudi Arabia. 
[Laughter.]
    Mr. Nims. Okay.
    Senator Merkley. In deference to not having a 
representative other than yourself of the U.S. Government here 
at this moment, do you know if we have protested to the 
government responsible for destroying that equipment?
    Mr. Nims. I am not aware of any protesting of the 
destruction of that equipment.
    Senator Merkley. Why not? Not why are you not aware, but 
why would we not raise that with an ally?
    Mr. Nims. Again, I would defer to my other colleagues, to 
the Department of Defense, as well as the Department of State, 
on that issue.
    Senator Merkley. Do we have a challenge in terms of the 
maritime access for ships to actually get to the docks in 
Yemen?
    Mr. Nims. Yes, there is a challenge to go through a fairly 
arduous process of the emergency humanitarian operations 
committee. It does take time, and it does complicate the 
regular flow of goods through that area.
    Senator Merkley. Have Saudi Arabia and the United Arab 
Emirates, whose navies control access, been partners in 
allowing access? Or have they been difficult?
    Mr. Nims. They are definitely members of this group of the 
emergency humanitarian operations committee, and I think that 
the bureaucratic nature alone has caused severe delays. And I 
think our partners would be better placed to answer this 
question, but I would believe that there would be other delays 
as well.
    Senator Merkley. Was that a diplomatic way of saying that 
we could use better partnership from those two nations?
    Mr. Nims. I think a great way to answer that question, sir, 
and thank you for that question, would be to say, in all of 
these situations, whether it be Yemen or other parts around the 
world, we can use better cooperation from those host countries 
as well as countries affected in the crisis. And I think that 
this is most definitely an issue in Yemen and other places.
    Senator Merkley. The reason I am asking this is because the 
United States is in a position to weigh in diplomatically to 
try to make the partnership work better to deliver aid. I am 
really trying to get a sense of whether you believe that we 
have the ability and determination to do so.
    Mr. Nims. I believe that the humanitarian side of USAID has 
put forward consistent efforts and consistent information about 
some of the impediments that we are finding that our partners 
face every day.
    Senator Merkley. Okay. Let me shift gears here.
    During the continuing resolution, the funding, we worked in 
a bipartisan way to provide about $900 million more to adjust 
famines. I am not sure if all of it was directed to these four 
nations, but the large majority.
    How are we doing in terms of delivery of that aid? Often, 
when aid is not delivered quickly, the impact is far worse. In 
other words, speed is of the essence.
    How are we doing?
    Mr. Nims. Thank you for that question, Senator.
    Senator Merkley. You like that question better than the 
previous questions. [Laughter.]
    Mr. Nims. It is something that I can talk to.
    Definitely, first of all, from a profound sense from both 
our teams in the field, and some of the NGOs and the 
international organizations here, another vote of thanks for 
that incredible level of resources that have come our way.
    And I can say that even before that announcement, $1.8 
billion from the U.S. Government that has been put forward for 
these crises, USAID Food for Peace has been programming funds 
even before the announcement of the additional funding. As I 
said in my testimony, we are close to now $1.8 billion for the 
U.S. Government that has been put forward for these crises from 
USAID alone.
    The $990 million that you referenced was apportioned to 
Food for Peace in June, on June 20th. The administration's 
announcement, I think, on the margins of the G-20 talked about 
$639 million for the four countries. Of that amount, over $330 
million was from USAID Food for Peace. That amount was part of 
the $990 million. We can trace it back to then, as far as it is 
going.
    Our office is on track, we think, to be able to obligate, 
in a very responsible way, the remaining balance of that $990 
million before the end of this fiscal year.
    Senator Merkley. For those four famine countries, does that 
aid involve making purchases in the United States and shipping 
it overseas? Or is a significant portion of it able to be used 
directly, in terms of the fastest possible path to getting 
nutrition on the ground where it is needed?
    Mr. Nims. So that will be, actually, a blend. $300 million 
of the $990 million was converted into Title II, which is in-
kind food resources. That is in process right now with our 
partners at the World Food Programme, as well as others. So 
there are purchases that are happening now in the U.S.
    At the same time, another remaining balance of that that 
has come from Food for Peace are going to exactly that, local 
purchase, regional purchase, maybe vouchers, and those types of 
activities directly where they are needed to ensure pipelines 
and operations continue starting now and going forward.
    Senator Merkley. Is there anything that you would like 
Senator Young and myself to do to help speed up that aid?
    Mr. Nims. I think, as far as timing goes, and as far as the 
U.S. Government share of these resources at this time, I think 
that what we are doing right now is struggling and working hard 
to make sure that those get out the door in a timely manner, 
and that our partners can utilize those in the most effective 
way possible. My team is working very hard to ensure that that 
happens, and that USAID is doing that.
    I do think that, given the nature of these conflicts, given 
the nature of what we have just been talking about, that these 
will simply not end, these situations, at the end of this 
fiscal year or even the end of this calendar year.
    I think continued efforts on understanding these conflicts 
and what is going on--I think another part of this is a message 
that I think the humanitarians have been a lone voice recently 
talking about this, but I think that it is growing, is that we 
cannot humanitarian our way out of these conflicts.
    As we said early on, all of these, even I would say 
Somalia, have serious, manmade elements to this. What we need 
is a combined U.S. and worldwide diplomatic and developmental 
push to really solve these conflicts.
    Though I am incredibly proud to be at this table talking 
about the efforts of both the U.S. Government and the partners 
that are going to be talking later on, I do believe that we are 
straining the system to its capacity, given what is going on in 
the world. And I think that we need to look at these through 
other matters as well.
    Senator Merkley. I so much appreciate your service and do 
please feel free to follow up with us, if we can be helpful. 
Thank you.
    Mr. Nims. Thank you, Senator.
    Senator Young.  Thank you for the late push for the 
diplomatic surge resolution that we have called for. I, too, 
want to thank you for your testimony.
    This concludes the first panel, and we will now take just a 
few minutes to allow Executive Director Beasley and Mr. Forsyth 
to take their places at the table.
    Mr. Nims. Thank you, Senators.
    Senator Young.  Thank you.
    You are dealing with a marine here, so I like to run a 
tight ship. During your few minutes to get settled, I thank you 
for your indulgence. We still have two panels to appear before 
us.
    I would like to welcome Executive Director Beasley and Mr. 
Forsyth.
    Once again, the Honorable David Beasley is the executive 
director of the World Food Programme. And Mr. Justin Forsyth is 
the deputy executive director for partnerships at the United 
Nations Children's Fund.
    Based on your affiliation with the United Nations, I would 
note that both of you are appearing voluntarily today as a 
courtesy to brief the committee. We are honored to have both of 
you here today.
    Executive Director Beasley, without further delay, I 
welcome you to provide your opening statement first.

STATEMENT OF HON. DAVID BEASLEY, EXECUTIVE DIRECTOR, WORLD FOOD 
                  PROGRAMME, SOCIETY HILL, SC

    Mr. Beasley. Mr. Chairman and Ranking Member Merkley, it 
is, indeed, an honor to be with you. I thank you for calling 
this together for what is a very important issue at a critical 
time in world history.
    I thank you also for reminding everyone that we are here on 
a voluntary basis. This should not be understood to be a 
waiver, express or implied, of the privileges and immunities of 
the United Nations and its officials under the 1946 Convention 
on the Privileges and Immunities of the United Nations.
    And we just made the lawyers happy, so let me begin. 
[Laughter.]
    Mr. Beasley. I have been on the job now for a little over 
100 days, so let me touch upon what I have seen in these first 
100 days, because I reluctantly came into this role. I was at a 
point in time in my life that I did not need a job. I did not 
need a title. But the cause was so overwhelming with what the 
world was facing, as you said, Senator, the worst humanitarian 
crisis since World War II. It is astounding what is happening 
out there.
    So I was very concerned that I would come into a U.N. 
system that would be bureaucratic, could not get the job done, 
red tape, and the U.S. cutting back its funding. So I do not 
want to take a responsibility that I could not achieve the 
objectives that anyone would want to do as an executive 
director in such a time as this, only to find that the World 
Food Programme is one absolutely, as we would say, a lean, mean 
operating machine that gets it done.
    I have just been overwhelmed with the support around the 
world. But I have been absolutely horrified at what I have 
experienced and seen, having made already seven field visits 
around the world, including places like Somalia, South Sudan, 
Uganda. And I am heading into Yemen next week.
    But what we have been seeing is absolutely horrendous. Just 
in the last year, the number of people looking for food on an 
average daily basis has gone from 80 million to 108 million 
just in the past year, all because of manmade conflict, a 35 
percent increase.
    Somalia, Yemen, South Sudan, northeast Nigeria, we are 
dealing with terrorism. We are dealing with extremism. We are 
dealing with manmade conflict in other ways. And that does not 
even touch on Syria and Iraq and many other countries that were 
alluded to by Matt just earlier.
    Of our top 13 expenditure countries with regard to 
operations, 10 of them are manmade--as Matt said earlier, 13 
out of the 15, however you want to calculate the numbers.
    Regardless, what the World Food Programme and the United 
Nations dealt with 30 years ago is different today. It is no 
longer just emergencies, tsunamis, earthquakes, and things of 
that nature. Today, it is manmade conflict. Over 80 percent of 
our funding is based upon conflict.
    These are difficult times. One thing I have been saying to 
my friends, based upon my own observation, if the United 
States, for example, wants to spend another half trillion 
dollars on military operations, cut the World Food Programme.
    We are the first line of offense and defense against 
extremism and terrorism on the field whether you are talking 
about Somalia or Nigeria or Syria, whether you are talking 
about Boko Haram, Al Shabaab, ISIS, Al Qaeda, other places. If 
mothers and fathers cannot feed their little children and they 
have no place to go, then they will turn to the only thing 
available.
    So when the World Food Programme is there on behalf of the 
United Nations and countries like the United States, it makes a 
huge difference. In fact, our studies are already showing, 
coming out of the field in my experience talking with those 
that I have talked with on a firsthand basis just in the last 
couple weeks is that, for example, in Syria alone, and this 
applies to the other countries as well, before a family will 
leave their home country, they will move three times within 
their country. And for every 1 percent increase in hunger, 
there is a 2 percent increase in migration.
    So for example, when we feed an average family or an 
average person at $0.50 a day, whether it is in Yemen or 
whether it is in Syria, $0.50 a day, but that same person, if 
they were refugee in, let's say, Germany, it goes from $0.50 a 
day for food costs to a total humanitarian cost of 50 per day.
    And you couple that with the fact that people do not want 
to leave their home. They have been living there all their 
lives. They have generations and generations they do not want 
to leave. But they will do that, only if they have to.
    In my experience, in talking with these refugees or 
internally displaced people from country to country, is it 
backs up this study. Because everyone that I talked to, I will 
ask them, how many times did you move? Why did you move? 
Literally, in the last 2 weeks, in talking with refugees in 
Uganda moving out from South Sudan, in talking with 15-year-
olds, 16-year-olds, 17-year-olds, for example, whose mothers 
and fathers have been killed, macheted to death only in the 
last 2 weeks in this ongoing crisis that is taking place as we 
sit right here--and as I have said to my friends, if we do not 
receive the funds that we need in the next few months, we are 
talking about 600,000 children dying.
    You have seen the numbers that have already been alluded to 
here today, that 5.4 million children are dangerously 
malnourished, 1.6 to 1.7 million are acutely, severely 
malnourished. The situation is as dire as it gets.
    And if you recall, in the Somalia famine that took place in 
2011 to 2012, by the time the famine was declared, half the 
people had died--258,000 people died then. And the numbers that 
we are talking today make that pale in comparison of the 
tragedies and atrocities that we are talking about.
    As Matt alluded to, and you did, too, Senator, 20 million 
people in these four countries face famine, do not know where 
their next meal is going to be. Ten million are in serious, 
serious jeopardy.
    We need the funds, and we need access. We must have both.
    And I say to my friends all over the world, particularly 
those that are major donor countries, if you are not going to 
provide the funds that we need to do what we do best, and we 
can get the job done because I can say without a shadow of 
doubt that the World Food Programme, if we have the funds, we 
have the expertise, we have the experience, we have the assets, 
and we can get the food to every single person out there.
    But we have to have the money, and we have to have the 
access. These two things are critical. And if you are not going 
to provide the funds and the access, then stop the wars.
    Sustainable development goal number two that the entire 
world has agreed to: End world hunger by 2030. It was an 
achievable goal a couple years ago. Hunger was being reduced 
all over the world. Even though the population of the world has 
been going up, up, up, up, the rate of hunger had been going 
down, down, down, down to about 800 million people.
    But yet, today, because of manmade conflict, greed, 
corruption, malfeasance in governments, the problem is only 
exacerbated and getting worse and worse. I do believe, if we 
can end these conflicts, we can end world hunger. I have no 
doubt. With the commitment of the United States as a leader in 
this area, and other countries that are willing to step up, I 
have just been shocked and so pleased and overwhelmed by the 
countries that are willing to stand firm with the United States 
and others.
    Germany is stepping up from what used to be $60 million a 
year to now over $850 million a year. The EU is up to $650 
million, about $800 and some odd million this past year, $650 
million this year. The U.K. is up to $400 million, give or 
take. Canada is $200 and some odd million. The value of the 
dollar has been hurting them. And other countries like Japan 
and the Scandinavian countries, the Nordic countries--but there 
are other countries that could do more, in my opinion.
    The Saudis, they ought to fund the humanitarian crisis in 
Yemen, 100 percent of it. It is unreasonable and, I think, 
shameful that they are not.
    The GCC states ought to be stepping up more for funding 
their brothers and sisters and their friends in the 
neighborhood--Iraq, Syria. But instead, it appears that the 
West is bearing these burdens.
    Other countries can do more. I am hopeful that China as 
well as Russia will. I am traveling to these countries, making 
the appeal. Just in the last 2 weeks, I have been to many of 
these countries, and I have been, as I said earlier, 
overwhelmed and very pleased to see that countries and our 
great partners are stepping up, like Germany and other 
countries.
    So my question that I would like to pose to leaders around 
the world is, if you are not going to provide the funds we 
need, will you provide the diplomatic power that is necessary 
to end these conflicts? I do not think these conflicts are that 
complicated in some of these places, Senator.
    So, anyway, it is good to be here with you. I look forward 
to answering any questions you have.
    [Mr. Beasley's prepared statement follows:]


                  Prepared Statement of David Beasley

Introduction
    Chairman Young, Ranking Member Merkley, members of the Senate 
Foreign Relations, Subcommittee on Multilateral International 
Development, Multilateral Institutions, and International Economic, 
Energy and Environmental Policy, thank you for convening this hearing 
on ``The Four Famines: Root Causes and a Multilateral Action Plan.'' 
Today, I will provide a briefing on the state of the four looming 
famines in South Sudan, northeast Nigeria, Somalia and Yemen; WFP's 
efforts to respond to and prevent famine; and major challenges and 
opportunities for effectively responding to these emergencies. This 
brief responds to the questions posed in Chairman Young's letter to me 
on June 15, 2017. This brief is being provided on a voluntary basis and 
should not be understood to be a waiver, express or implied, of the 
privileges and immunities of the United Nations and its officials under 
the 1946 Convention on the Privileges and Immunities of the United 
Nations.
    The looming famine emergencies have two things in common: they are 
primarily driven by conflict and they are entirely preventable. With 
modern forecasting, improved agricultural practices and effective 
humanitarian organizations, bad weather alone is not capable of pushing 
large groups of people into famine any more. Conflict between armed 
groups or between armed groups and the State, in these cases, is the 
catalyst to cause famine to occur. Displacement, a major consequence of 
conflict, means that lives are disrupted, fields not kept and harvests 
missed. Each lost harvest drives poverty deeper. Families become 
dependent on other communities, themselves already poor. They buy food 
on credit, become dependent on humanitarian assistance just to meet 
their basic needs or they migrate to urban areas where they do menial 
labor or beg on street corners. These impacts are exacerbated by 
funding shortages and impeded access for humanitarian agencies like WFP 
and have placed millions at risk of death from starvation and disease. 
Still, when properly resourced, food assistance is already working to 
save lives. Funding provided by the United States--the global leader in 
food assistance--has helped to prevent famine and forced migration from 
occurring, has pulled several counties in South Sudan out of famine and 
is helping to contribute to improved regional and global stability. 
While it is important for the United States to continue to lead the 
response to global famine relief funding, other nations must also rise 
to meet this unprecedented challenge.
My First 100 Days
    My first months as Executive Director of WFP have been committed to 
two major activities: seeing first-hand the emergencies that WFP is 
responding to, and working to ensure that all donor nations are 
stepping up to do their part to save lives and prevent these 
emergencies from escalating beyond their borders--making sure the 
burden is shared.
    In my first three months as Executive Director, I've undertaken 
seven field visits including to our operations in famine affected South 
Sudan and Somalia and the refugee camps in Uganda. As I have seen 
firsthand, the world is experiencing the worst humanitarian crisis 
since World War II. Next week I'll be traveling to Yemen with the 
leaders of UNICEF and WHO.
    About 20 million of our brothers and sisters in South Sudan, 
northeast Nigeria, Somalia and Yemen are at risk of famine, and an 
additional 10 million are facing crisis conditions. It is the most 
vulnerable in these countries--especially children--that are at highest 
risk of death from starvation and related diseases. Nearly six million 
children in these countries are malnourished, with at least 1.4 million 
in severe condition--roughly the equivalent of every child under the 
age of five in Florida and South Carolina. As many as 600,000 of these 
children could die in the next four months without intervention. When 
famine strikes, it is the result of our collective failure as a global 
community to respond.
WFP Overview
    The World Food Program is the world's leading humanitarian agency 
fighting hunger. In 2017, WFP plans to reach 17 million people in these 
famine prone countries. In the month of June alone, WFP reached 11.2 
million people, assisting 5.4 million people in Yemen, 2.3 million in 
South Sudan, 2.4 million in Somalia and 1.1 million in northeast 
Nigeria. When funding is provided and access is guaranteed, our efforts 
have demonstrated that we can provide assistance that pulls communities 
from famine conditions, and, importantly, that we can prevent famine 
from occurring in the first instance.
South Sudan
    In South Sudan, WFP has assisted 3.4 million people across the 
country since the beginning of the year. Famine that was formally 
declared in February 2016 has been alleviated in the two affected 
counties. While the official declaration has ceded, suffering continues 
on a massive scale. In fact, today, the number of people in need of 
emergency food assistance has increased from 4.8 million to over 6 
million, including over 1.7 million people facing emergency or 
faminelike conditions. The potential for starvation is ever more 
present for up to 45,000 people in Unity and Jonglei states, even 
though the size of the affected population is no longer sufficient 
(i.e., greater than 20 percent of the county's population) to meet 
formal famine criteria. The ongoing conflict has created two million 
refugees. We are grateful to countries such as Uganda, which I've 
recently visited, for generously hosting over a million refugees from 
afflicted countries.
    The cost of providing humanitarian assistance as well as the number 
of people in extreme need will continue to rise in South Sudan--and in 
other famine risk countries--as the country enters into the `hunger' or 
`lean' season, the period where food stocks run out and where rainfall 
can limit overland access by WFP and other organizations. In South 
Sudan, for example, we estimate that approximately 60 percent of roads 
are currently impassible, a figure which will rise to 90 percent at the 
height of the rainy season. The lean season has arrived earlier this 
year--and will persist for a longer period--across several of the 
famine risk countries given consecutive years of drought and conflict 
that have reduced available food stocks.
Yemen
    WFP is currently scaling up its emergency operations in Yemen, 
where two-thirds of the country's population is in need of emergency 
food assistance. Approximately 17 million people in Yemen do not have 
access to sufficient food to live healthy lives. Of those 17 million, 
WFP has identified 6.8 million people who are severely food insecure 
and require emergency food assistance. Yet given funding shortfalls, 
full emergency rations reached only 3.9??million people in June. In 
addition to providing general food rations, in July WFP aims to provide 
specialized nutritious foods to over two million children between six 
months and five years old who face increased risk of death from 
malnutrition. Meanwhile, the cholera outbreak in Yemen has expanded to 
21 of 22 governorates in the country, claiming the lives of over 1,700 
people and affecting over a quarter of a million people whose bodies 
have been weakened by a lack of food and proper nutrition. WFP, long 
recognized for its logistics expertise, is partnering with the Ministry 
of Public Health and Population and the WHO to provide medical 
supplies, including a chartered flight in May that delivered 80 metric 
tons of supplies.
Nigeria
    In northeast Nigeria, given funding shortages, WFP is targeting 
only the most vulnerable women and children and has been forced to 
halve food rations in recent months--at a time when the lean season is 
setting in and hunger is on the rise. At present, at least three Local 
Government Areas remain inaccessible because of ongoing conflict, each 
on the brink of famine. At least 1.9 million people have been displaced 
in the country. WFP has been able to quickly scale up its operations in 
Nigeria, from serving 160,000 people in October 2016 to over a million 
people each month since December 2016.
Somalia
    In Somalia, WFP has similarly scaled up its response, reaching five 
times more people in May (2.4 million) than it did just five months 
prior in January. This includes reaching almost 775,000 women and 
children with preventative and curative nutrition assistance. This 
escalated response has so far prevented famine onset in the country, 
however 3.2 million people are currently facing critical and emergency 
conditions. While we are approaching the close of the rainy season, it 
is estimated that 25 percent of all food insecure people remain located 
in inaccessible areas, either because of impassible roads or inadequate 
security.
WFP's Strengths
    What is true across all four countries is that in the places where 
WFP provides food assistance malnutrition rates are falling. Donor 
funding is being put to good use and it is making an impact, delivered 
by dedicated staff working in some of the most dangerous settings in 
the world. In extreme cases, WFP staff has made the ultimate sacrifice, 
giving their lives in service to their brothers and sisters and all of 
humanity. We owe them a great debt of gratitude and a steadfast 
commitment to ensuring that their mission is completed.
    As I said to the world in my first meeting of the WFP Executive 
Board in June, I could not imagine walking into this job with four 
looming famines, and unprecedented human displacement if the World Food 
Program were not already a highly effective and efficient provider of 
humanitarian assistance, operating at speed and at scale. These 
attributes have made WFP a highly sought after partner. The World Bank, 
for example has requested WFP to work alongside them, the World Health 
Organization and UNICEF to jointly design and deliver packages of 
assistance in conflict and fragile settings that would play a major 
role in decreasing mortality and malnutrition rates. Meanwhile, in 
Yemen, WHO has requested WFP to staff and run their Emergency 
Operations Center that will oversee the management of the cholera 
outbreak.
Funding Needs
    Despite this good work, overall funding support to WFP remains 
insufficient to carry out all of its programmed activities. Globally, 
humanitarian needs are growing faster than available funding. The 
number of people who are acutely food insecure in the world has risen 
from 80 million in 2016 to 108 million in 2017, a 35 percent increase 
in a single year. In addition to these famine emergencies, WFP is 
currently responding to two additional Level 3 emergencies--our highest 
classification--in Iraq and Syria and six Level 2 emergencies in 
Ukraine, Mali, Libya, Horn of Africa Drought, Central African Republic, 
and the Democratic Republic of the Congo. It is difficult to overstate 
how unprecedented the food assistance needs are in the world today. 
Funding remains the principal barrier to reaching millions more in 
desperate need in famine risk countries and beyond.
    Currently, we have received less than half of the funds we need, as 
WFP's planned activities in the four famine risk countries are funded 
at 42 percent. Over the next six months, WFP needs more than US$750 
million to address needs in these countries. Funds must be made 
available now to avoid needless suffering for children, women and men, 
and also higher costs. At present, WFP's Yemen operation is funded at 
37 percent, South Sudan at 33 percent, Somalia at 49 percent, and 
Nigeria at 65 percent. Delays in responding to these famines, whatever 
the reason, cause the unnecessary loss of life. Without proper funding, 
WFP and other partners must make difficult decisions about where food 
is distributed--decisions about who lives and who dies. A declaration 
of famine means that people are already dying from hunger and related 
causes. By the time famine was declared in Somalia in 2011, more than 
half of the eventual 258,000 victims had already died.
    When we do not provide funding for the famine response, or prevent 
famines from occurring, the losses are intergenerational. Children who 
lack proper nutrition early in their life experience permanent losses 
in physical growth-height, weight and brain development-leading to a 
diminished capacity to learn and a greater susceptibility to infection. 
Studies have shown that children who receive proper nutrition in the 
their first 1,000 days are ten times more likely to survive life-
threatening illnesses, attend almost five more grades of schooling than 
their malnourished peers, earn 20 percent more in wages as adults, and 
can increase a country's GDP by over 10 percent annually. In Yemen, one 
out of every two children under the age of five is stunted and suffers 
from chronic malnutrition. Without sustained intervention, there will 
be social, economic and security consequences that will long outlive 
these looming famines.
United States Leadership
    The United States has led the global response to the four famines, 
providing more funds than any other single donor nation. This is 
consistent with the United States' long history and tradition of 
leadership in the fight to end hunger. This is evident in Congress' 
action to pass the FY 17 Consolidated Appropriations Act signed in May, 
where supplemental funding was made available to respond to the 
unprecedented needs associated with the four famines. We appreciate 
efforts from the United States to see that this funding is quickly made 
available to partner organizations like WFP. We commend the President 
and the American people for making $639 million dollars in humanitarian 
assistance immediately available to respond to the famine emergencies, 
$331 million of which will be directed to WFP to save the lives of 
hundreds of thousands of children. This support, which President Trump 
announced on July 8th at the G-20 Summit in Hamburg, Germany, comes at 
the time when people are most vulnerable, when food has run out from 
the last harvest, when there is nothing left for these families to feed 
their children.
    Contributions from the United States have long included an 
important mix of both American commodities and cash-based assistance. 
This allows WFP to reach more people using the right tool, in the right 
place, at the right time. The mix includes food grown by American 
farmers, local and regional procurement, vouchers and debit cards. This 
is wholly consistent with WFP's efforts to utilize only the most 
appropriate food assistance modalities, all guided by rigorous analysis 
that takes into account local conditions.
    It is essential for the United States to continue to lead in this 
effort--as you have done and as I know you will continue to do--because 
when the U.S. acts, the world takes notice. This committee, this 
Congress and the President are standing on the shoulders of giants in 
American political history. You are following in the footsteps of a 
generation of leaders who had the foresight, courage and wisdom to 
invest in Europe in the aftermath of WWII. They helped to found 
institutions like WFP, and through these efforts have consistently 
demonstrated that these investments serve to reinforce American 
interests, not to undermine them.
Partnerships
    It is not just U.S. funding and farmers that are helping to support 
the mission of WFP. Across the four countries at risk of famine, WFP is 
partnering with 14 separate U.S.-based NonGovernmental Organizations 
(NGOs) to implement emergency and non-emergency food assistance 
programs. Partnerships with these NGOs allow WFP to reach more people, 
in more places, with life-saving food assistance, and is reflective of 
the global reach and impact of U.S. civil society organizations. These 
include Adventist Development and Relief Agency, CARE, Catholic Relief 
Services, Food for the Hungry International, International Medical 
Corps, International Rescue Committee, Malaria Consortium, Mercy Corps, 
Mercy USA for Aid and Development, Relief International, Samaritan's 
Purse, World Relief, and World Vision.
    American companies have also answered the call. WFP is proud to 
announce a new partnership with MasterCard that will facilitate the 
provision of an additional 100 million school meals over the next five 
years. While we at WFP are a global leader in logistics, we continue to 
learn and improve through partnership with UPS. And where WFP is using 
its purchasing power to support smallholder farmers in the countries 
where we work, Cargill is working to make sure those farmers have long 
lasting markets for their crops. These are just several examples of 
critical partnerships with the U.S. private sector.
Burden Sharing
    While the U.S. continues to lead in global funding for the famine 
response, other donor nations must also do more. When I am not in the 
field visiting the people that we serve, you can be sure that I am in 
donor capitals asking that all nations are contributing to ending these 
emergencies and resolving their underlying conflicts. And other donors 
have begun to answer that call. This is especially true in the case of 
Germany, where funding to WFP last year increased to nearly $900 
million, up from approximately $60 million ten years ago. Germany and 
the European Union greatly increased their contributions in response to 
the escalation of humanitarian emergencies in Syria and the four 
countries at risk of famine.
    I have made it a goal of my time as Executive Director of WFP to 
broaden support for the organization. The United Kingdom has been 
stepping up more (providing $156 million to the famine countries); the 
European Union has been stepping up more ($72 million); Canada has been 
stepping up more ($37 million). But other states can and do more--and I 
have made this clear to them in one-on-one bilateral meetings and when 
we sat across the table from one another at my first WFP Executive 
Board meeting. I also have not been shy about mentioning the need for 
these other donor states to do more in news media interviews.
U.N. Collaboration
    Given the complexity of the emergencies in these four looming 
famines, broadening our base of donor funding is just one critical step 
that we must take. Our work must also be supported by partnerships with 
other humanitarian organizations. Providing food alone is insufficient 
in these complex emergencies. Vaccinations to counter the spread of 
disease, water to prevent dehydration, and shelter for displaced people 
are also essential. This is where partnerships and coordination matter, 
with organizations likes UNICEF and UNHCR--as well as a host of other 
humanitarian agencies--drawing on WFP's extensive logistics capacity to 
deliver critical non-food items to those in need. At any given moment 
WFP's 5,000 trucks, 70 aircraft, and 20 ships are delivering food and 
supplies across the globe, a larger logistics capacity than any other 
humanitarian organization. Working with partners like the Food and 
Agriculture Organization of the United Nations (FAO) allows WFP to 
break the cycle of hunger and poverty by providing seeds and training 
to vulnerable populations that allow local food production to take 
hold, effectively reducing the need and cost of humanitarian assistance 
in the future. These partnerships that acknowledge the longer-term 
development needs of affected populations provide an exit strategy for 
humanitarian organizations.
U.S. Investments
    Other programs like school feeding--made possible with funding from 
U.S. programs like the George McGovern-Bob Dole International Food for 
Education and Child Nutrition Program--represent sustainable safety net 
systems that can be taken up by recipient governments to prevent 
communities from falling into extreme poverty and reducing the need for 
costly interventions later on. Similarly, investments in early warning 
systems like USAID's Famine Early Warning System (FEWSNET), WFP's 
Vulnerability Analysis and Mapping (VAM) Service, and the global 
Integrated Phase Classification, allow humanitarian partners to project 
and respond in real time to potential emergencies. FEWSNET and VAM for 
example, issued warnings regarding potential famine conditions in the 
four countries as early as January 2017, allowing the international 
humanitarian community sufficient time to organize and raise awareness 
and funds to respond. Without this capacity to forecast food 
insecurity, the cost of humanitarian intervention is much greater, both 
in dollars and lives lost. The most cost effective way to respond to 
famine is prevent it from happening in the first place. Make no 
mistake, our ultimate goal is to work ourselves out of business--to 
build a world where WFP is no longer needed.
Crises Caused by Conflict
    We cannot solve these emergencies with money and effective 
partnerships alone. The four looming famines are rooted in ongoing 
conflict. In fact, currently 10 of WFP's 13 largest food assistance 
operations are driven primarily by conflict, and today fighting and 
violence drives over 80 percent of all humanitarian needs. Until we are 
able to end the underlying disputes through diplomacy and other 
actions, conditions will never fully improve.
    Conflict and hunger are mutually reinforcing. Recent research 
conducted by WFP indicates that for each percentage increase in food 
insecurity, migration increases by approximately 2 percent, increasing 
the likelihood that food insecurity and the underlying conflicts will 
spill over borders. What is required to prevent further regional and 
global instability is unimpeded humanitarian access, best provided 
through a peaceful resolution of conflict, but at the very least, 
through a commitment by all warring parties to International 
Humanitarian Law to protect civilians and allow free-passage of 
humanitarian goods and services to reach those in need. We need to 
bring pressure to bear upon these nations in conflict and the parties 
involved.
Avoiding Diversions
    Still, while a major barrier, issues of humanitarian 
inaccessibility and food assistance ``diversions'' have been at times 
exaggerated or misconstrued. In complex emergencies in insecure 
environments, WFP has demonstrated that it can provide quality food 
assistance with minimal losses. In 2016, for example, WFP handled 4.2 
million metric tons of food across 72 countries. Of this, only 0.47 
percent--less than one half of one percent--was lost before arriving to 
people in need, due to conflict and civil strife, improper or extended 
storage, inadequate transport, or the deterioration of food at its 
origin. In fact, WFP consistently experiences losses far below the 
internationally recognized industry threshold of two percent. It 
accomplishes this through a truly integrated supply chain that combines 
resource mobilization, food sourcing, and real time tracking of food 
down to the last metric ton.
    In June 13th testimony to the Senate Appropriations Subcommittee on 
State, Foreign Operations, and Related Programs, for example, Secretary 
of State Tillerson stated, ``the focus on the Port of Hodeidah [in 
Yemen] is critical because it is the port of entry where we can begin 
to deliver massive amounts of humanitarian assistance; it is controlled 
today by the Houthis. The aid that has been sent in through that port, 
we know, most of it has not made it to the people it was supposed to 
make it to.'' Secretary Tillerson is correct in stating that Hodeidah 
is an important port for the passage of humanitarian assistance--nearly 
80 percent of WFP in-kind food assistance in Yemen travels through this 
port. While there are significant delays affecting vessels entering in 
to Yemeni ports, Hodeidah remains a critical entry point for food 
assistance in to the country. In fact, almost 19 million people live in 
the northern opposition-controlled areas of Yemen, and can be reached 
only through the Hoediedah or nearby ports. Four WFP vessels carrying 
over 100,000 MT of wheat are expected to arrive and discharge in June 
and July alone. Despite media reports, in 2017 there has been only one 
instance of WFP-contracted trucks being threatened or looted by armed 
groups.
Hunger and Migration
    What is true about humanitarian crises today is that they do not 
respect borders. Hungry people in the four famine emergencies and 
beyond have made the choice to journey to Europe, and to the United 
States, because their safety and wellbeing could not be guaranteed in 
the places were conflict rages on. This is not an easy choice to make. 
In fact, our research indicates that people displaced by violence in 
Syria, for example, will not move out of the country until they have 
moved at least three times inside the country because they do not want 
to leave their home. They want to stay in their own countries; but are 
compelled to move to ensure their basic needs are met. Migration also 
dramatically increases the cost of providing humanitarian assistance. 
For example, it costs about 50 cents per day to provide food to someone 
who is internally displaced within Syria. But if that same person 
becomes a refugee in Germany, it costs the German people 50 Euros per 
day.
Blunting Extremism
    Meanwhile, global military spending is nearly $2 trillion a year. 
Emergency food and other essential humanitarian assistance are much 
more cost effective. Secretary of Defense Mattis has said, ``America 
has two fundamental powers. One is the power of inspiration. The other 
is the power of intimidation. Those of us in uniform are in an 
intimidating role up against the enemy. But we now fight wars among 
innocent people, among populations that need to be on our side if we're 
going to win. There is where America's power of inspiration comes to 
bear.'' As I've said on several occasions in recent months, bags of 
food stamped ``from the American people,'' distributed by partners like 
WFP are among the most effective programs out there, dollar for dollar, 
for fighting extremism.
    Evidence on the links between food insecurity, armed conflict and 
extremism is increasingly available today. WFP is involved in several 
efforts to make these links explicit, drawing on our extensive 
operations in the some of the world's most difficult settings. We have 
seen how hunger, marginalization, and frustration are capable of 
driving people--especially youth--into insurgencies and extremist 
organizations. The failure to meet the needs of these people serves to 
foster further frustration, increasing the pool of willing candidates 
to join these movements and leading to decreased food insecurity from 
violence and economic disruptions, completing the circle. People should 
not have to choose between feeding their family or resorting to violent 
extremism--we have the tools through food assistance to eliminate that 
awful choice. Food assistance through WFP and other U.S. partners can 
save lives and create the space and time necessary to arrive at 
political solutions to these conflicts.
    Thank you, as representatives of the American people, for 
continuing to feed hungry people. Rest assured, I will continue to work 
tirelessly to ensure that all nations are contributing financially to 
end these global crises. However, our efforts will never fully serve to 
end human suffering if a peaceful resolution to the conflicts driving 
these crises is not provided. We must take concerted action to build 
peace and stability in these nations through any means possible. One 
thing is undeniably true: with your help WFP is preventing famine, 
saving lives and diminishing the spread of extremism--and we will 
continue to do so.


    Senator Young.  I think that is a great point to end on for 
your opening remarks. I thank you very much. I anticipate 
following up on that matter and others.
    Mr. Forsyth?

  STATEMENT OF JUSTIN FORSYTH, DEPUTY EXECUTIVE DIRECTOR FOR 
  PARTNERSHIPS, UNITED NATIONS, CHILDREN'S FUND, NEW YORK, NY

    Mr. Forsyth. Thank you very much, Chairman Young, and thank 
you very much, Senator Merkley, for the honor of being here 
today and the chance to speak to you and to build on the very 
passionate and profound comments from David Beasley.
    I wanted just to start with a story that actually goes back 
to 2011. I spent a lot of time in Somalia and in northern Kenya 
during the last famine in 2011. I remember very distinctly 
standing in the Dadaab refugee camp. Many of us, I think, in 
this room who work in the humanitarian world have been to the 
Dadaab refugee camp, one of the biggest refugee camps in the 
world in northern Kenya, where many of the Somalia refugees 
come into.
    I remember being on the outskirts of that camp in 2011, and 
I saw a family digging a hole by the side of the road. And I 
stopped, and we talked to that family, and they told us their 
story.
    They had walked 4 days out of Somalia, fleeing drought and 
conflict. Three of the men in their group had been killed. 
Another seven of them had been kidnapped by one of the armed 
groups. All of the women had been raped.
    They told the story about how the littlest child in their 
group, a girl called Hawa, only a year old, had survived all of 
that, that horror on that journey, but she arrived in the 
Dadaab camp and, tragically, died a day later of diarrhea, one 
of the biggest killers in the world of children.
    I remembered a few months later, then, that visit to the 
Dadaab refugee camp in Mogadishu in a camp in the middle of 
Mogadishu called Sigali, which is in the rubble of the center 
of Mogadishu. Al Shabaab was still in Mogadishu then, and you 
could hear the firing in the distance.
    And I met another mother and child, and they told a very 
similar story. Happily, due to the expert help of aid agencies, 
that little girl called Nastaya survived, but she was very 
malnourished. I saw her again several months later, and she was 
much better and fully recovered.
    The reason I tell that story is because I think, through 
that famine in 2011, which is relevant to the four looming 
famines today, we learned three big lessons, which we have 
learned in other humanitarian situations.
    Firstly, actually, as David Beasley has said, is that we 
need to act early. That many children, in particular, die 
before we even declare these as humanitarian emergencies or 
famines. That is the first important lesson.
    The second lesson is that this is not only a nutrition 
crisis, but a water, a sanitation, and a health crisis. And in 
places like northern Nigeria, but also Somalia, Yemen, and 
South Sudan, an education crisis as well.
    We need integrated response. You cannot address these 
issues just through one intervention. The reason that children 
are dying from diarrhea or cholera in Yemen is because they are 
malnourished. The reason they are catching cholera or getting 
very violent forms of diarrhea is because they are 
malnourished. This is a vicious circle, and you need to be able 
to address it.
    This integrated approach is really important in saving 
those 1.4 million children's lives that are severely, acutely 
malnourished.
    Then the third point, which I think we learned very 
strongly in 2011, as well as acting early and to scale, as well 
as addressing this with integrated health and nutrition and 
water together, is that we really need, as we have heard from 
both of you, Senators, but also from the panelists today about 
addressing the root causes.
    The root causes are primarily conflict. In all of these 
terrible emergencies is conflict.
    I was in northern South Sudan not so long ago in Bentiu, 
and I landed after a 3-hour ride in a helicopter in a remote 
area, which is one of the areas where famine was declared. I 
went to a UNICEF-supported clinic, and it had been completely 
looted. There were no beds, let alone any medicines or 
facilities.
    So the conflict is very important. But there are other 
factors as well. There is climate change, environmental 
degradation.
    If you ask the elders of northern Kenya sitting on the 
Somalia border how it used to be 30 years ago, they would say 
that they used to have a bad drought like this every 15 years. 
They are now having this every year, nearly every year in this 
part of the world.
    So that has to do with overpopulation. It has to do with 
many factors. But there is also a dramatic rise in temperature, 
which is causing a big impact on the food situation.
    So as my colleagues have said, I think the action we need 
from the international community is, firstly, scale and speed. 
I think the U.S. has to be commended for the scale of response, 
for the speed of the response, and that has saved lives.
    But the scale of the crisis means we need even more than we 
currently have, and we need to keep delivering on the ground. 
Then we need the diplomatic action to solve the root causes of 
the conflict. And we also need to be doing development work 
even in emergency situations to address some of those wider 
development causes of the conflict situation and of the 
humanitarian situation.
    Thank you.
    [Mr. Forsyth's prepared statement follows:]


                  Prepared Statement of Justin Forsyth

Introduction
    Children are paying a disproportionate toll as famine looms across 
Somalia, South Sudan, north-east Nigeria and Yemen. Nearly 1.4 million 
children face imminent risk of death, and more than five million 
children face malnourishment this year.
    As we work to keep children alive, we must not forget that if 
children are subjected to malnutrition at a very young age, the long 
term impact on stunting brain development can be devastating. Stunting 
hampers not only the future ability of a child to learn and earn, but 
also has an impact on the social and economic progress of the countries 
in which they live. It cuts school performance, translating into a 
reduction in adult income by 22 per cent on average. It also leads to 
increased risk of health problems in adult life. As we work to save 
lives, this is also a struggle for the long term future of millions of 
children--a generation--and indeed the future of their countries.
    The joint international effort to support national and local 
authorities and communities respond to this crisis is making a 
difference. Together we are saving lives. Humanitarian actors including 
UNICEF, other parts of the United Nations and non-governmental 
organisations are reaching at least 10 million people each month in the 
four countries with life-saving assistance. More concretely, in the 
first half of 2017 UNICEF treated more than 300,000 children suffering 
severe acute malnutrition. Along with our partners we have vaccinated 
6.4 million children against measles. Over four million of those 
reached were in north-east Nigeria where we doubled our initial target 
due to increased access. More than 2.3 million people in the four 
countries have been provided with safe water.
    But the threat of famine has not passed. Unless we sustain and 
further scale up our collective efforts, there is the risk that many 
more millions of children will die of hunger or be permanently stunted. 
And the longer these crises go on, the greater the risk of new 
emergencies within these emergencies--like the cholera outbreak in 
Yemen.
    We must re-double our efforts to deliver at scale, to find ways to 
address the obstacles that so far are preventing us reaching some of 
the most vulnerable children and communities, avert new emergencies and 
help put millions of families on a path to sustainable recovery. And 
much more needs to be done to address the root causes of these crises, 
bringing an end to protracted conflicts and human rights violations and 
linking our emergency humanitarian response to effective development 
support which addresses the underlying vulnerabilities of communities.
The Scale of the Crisis for Children
    Conflict, drought, displacement and disease are combining to 
threaten children and families across the four countries, as well as 
the sub-regions of the Horn of Africa and the Lake Chad Basin.
    In South Sudan, more than 1.1 million children are estimated to be 
facing acute malnourishment, with almost 276,000 severely malnourished 
at imminent risk of death. In Nigeria, some 450,000 children are 
estimated to face severe acute malnutrition in the conflict-affected 
states of Adamawa, Borno and Yobe. In Somalia, the projected number of 
children who are or will be acutely malnourished is 1.4 million--
including 275,000 who have or will suffer from severe acute 
malnutrition. And in Yemen, about 1.8 million children are threatened 
with acute malnutrition, 385,000 of them with severe acute 
malnutrition.
    Malnutrition is compounded by the increasing threat of water borne 
diseases. Cholera has become a deadly factor in each of the four 
countries, and our response to this threat is increasingly critical to 
saving many thousands of children's lives.
    The cholera outbreak in Yemen has spread rapidly since April. 
Children under the age of 15 account for 41 per cent of the more than 
300,000 reported cases of suspected cholera/acute watery diarrhoea, and 
more than a quarter of the more than 1,700 deaths have been children.
    The health crisis in Yemen is a result of two years of heavy 
conflict--collapsing health, water and sanitation systems have cut off 
14.5 million people from regular access to clean water and sanitation, 
increasing the ability of diseases to spread. There are no longer any 
doctors present in 49 of the country's 333 districts, health workers in 
Yemen have not been paid for months, and there are only two functioning 
laboratories in the country.
    In Somalia, prolonged drought has led to the largest outbreak of 
cholera in the last five years, with more than 53,000 cases of 
suspected cholera--close to half of them children under five--and 795 
deaths. South Sudan is experiencing a protracted, widespread cholera 
outbreak, with nearly 7,000 cases reported this year, the highest since 
2014.
    Investing in safe water, sanitation and better hygiene practices is 
a critical step to saving children and families threatened by famine.
    Forced displacement is a factor which compounds all the other 
drivers of this crisis. Whether fleeing the threat of fighting and 
attacks or in desperate search of food and water in drought-stricken 
areas, families who are forced to leave their homes also lose access to 
essential services like health clinics and water sources as well as 
livelihoods. Uprooted children and families are much more vulnerable, 
both to famine and disease as well as human rights abuses. Children on 
the move are at greater risk, especially when they are unaccompanied or 
separated from families. In contexts of conflict and displacements, 
women and girls face greater risk of sexual and gender based violence, 
and boys are increasingly vulnerable to forced recruitment into armed 
groups and other forms of violence.
Applying the Lessons of the 2011 Somalia and East Africa Famine
    In 2011, Somalia faced a devastating famine that led to the tragic 
loss of more than 260,000 lives--around half children under five years 
old--we learned three vital lessons about what needs to be done better 
to save children's lives.


 1. We need to act early for children and to scale. Children cannot 
        wait, even if famine is not declared or is averted in some 
        areas. We know from the Somalia that by the time famine was 
        declared in 2011, untold numbers of children had already died. 
        Around half of all child deaths occurred before the declaration 
        of famine, before funding started to pour in.
 2. We learned that the threat of famine is more than a food and 
        nutrition crisis. Water, sanitation and health services are 
        critical to saving lives. In 2011, diarrhoea and measles were 
        the major killers, especially among children on the move or in 
        displacement camps. Waterborne diseases like cholera threaten 
        children's lives on a massive scale.
          Severe acute malnutrition and diarrheal disease run in a 
        vicious cycle, each making the other more severe and more 
        likely to occur. Diarrhoea deprives the child of the nutrition 
        necessary for growth and as a result is a major cause of 
        malnutrition, while malnourished children are more likely to 
        fall ill from diarrhoea due to their weaker immune systems. If 
        a child is malnourished, it is much harder to diagnose and 
        treat her for cholera: her risk of death is much higher. Our 
        food and nutrition response needs to be fully integrated if we 
        are to be effective in saving lives and helping communities 
        build resilience and a path to sustainable recovery.
          And protecting children in the midst of the turmoil of these 
        crises from abuse and exploitation is critical, especially 
        those made more vulnerable by displacement.
 3. We learned that in order to address the recurrent threat of famine, 
        more must be done to address the root causes. The deadly 
        combination of drought, malnutrition and conflict pushes people 
        passed their capacity to cope. And droughts recur. Protracted 
        conflict in 2011 had left large parts of the Somalia population 
        vulnerable, lacking basic social services and infrastructure 
        which could help them cope. Humanitarian access in the conflict 
        context was a significant obstacle. And when the famine passed, 
        continuing conflict posed critical challenges to establishing 
        governance and services to communities. These are bitter 
        lessons which we know, but in 2017 communities and the 
        humanitarian response is facing the same and even greater 
        challenges across four conflict-affected countries 
        simultaneously.


    More needs to be done to bring an end to these protracted conflicts 
and to create the conditions for recovery and development. Political 
will and longer term investment from development actors are critical to 
find durable solutions and build resilience of the affected 
communities. Our efforts and investments must strengthen the long-term 
resilience of communities, making them better prepared prepared and 
able to withstand the shocks of any future crises.
Response in 2017
    In responding to the 2017 crises we have applied many of the 
lessons of the 2011 famine, and despite the enormous challenges in each 
of these conflict-affected countries we are achieving results and 
saving many thousands of lives. But there are challenges.
    On the upside, the humanitarian system responded early to the 
threat of famine. In each country, UNICEF and humanitarian partners 
were already on the ground delivering before the full-scale threat of 
famine developed. Our situational awareness was good. We had developed 
innovative programmes to address humanitarian needs in extraordinarily 
challenging conflict-affected conditions. And the whole humanitarian 
system was in a good position to shift gear when the United Nations 
Secretary-General issued an urgent call to action in February this 
year.
    But despite our preparedness, however, our ability to respond at 
scale in all areas has been mixed, in large part to funding gaps. 
Overall, and despite the fast and generous initial response of donors, 
the humanitarian response to this famine crisis is funded at 
approximately only 40 per cent, with a gap of around $3.82 billion for 
2017.
    Humanitarian organizations have made definite progress in running 
integrated humanitarian responses to famine-like conditions--delivering 
together health services, food and nutrition, water, sanitation and 
hygiene. And even in harsh and often dangerous conditions, our teams on 
the ground continually find innovative ways to reach people in need.
    In South Sudan, UNICEF with partners has established a Rapid 
Response Mechanism which enables it to move fast with humanitarian 
assistance when conflict affected areas become accessible, even for 
only brief windows of time. These fast missions deliver integrated 
assistance including WASH, health, nutrition, education and child 
protection. In 2017, UNICEF and WFP have conducted 26 rapid response 
missions to hard-to-reach communities in South Sudan, reaching more 
than 530,000 people, including over 100,000 children under five years 
old. A similar Rapid Response Mechanism is functioning in Yemen and one 
is being established in north-east Nigeria.
    In Somalia, UNICEF with partners have treated nearly 99,000 
children with severe acute malnutrition, more than double the number of 
admissions in the same period in 2016. This has been possible through 
the scale up in treatment services with UNICEF supporting over 750 
nutrition facilities.
    In north-east Nigeria, UNICEF and our partners are increasingly 
using mobile services to reach people displaced by the conflict, with 
an integrated approach to deliver nutrition including treatment for 
severe acute malnutrition, promotion of infant and child feeding, 
provision of micronutrient supplements and primary healthcare. This 
mobile approach is also especially important to allow us to reach newly 
accessible communities. To prevent cholera, with partners we are 
chlorinating and monitoring 680 water points in Borno State to bring 
safe drinking water for more than 300,000 displaced people living in 
camps or host communities.
    In Yemen, WHO and UNICEF with support from the World Bank and other 
donors have rapidly scaled up response to try to bring the cholera 
outbreak under control. Together we are supporting 626 diarrhoea 
treatment centres and oral rehydration therapy centres in the worst 
affected districts across the country, and we plan to scale this up to 
a total of 1,156 centres. We have trained 16,000 community mobilisers, 
who are going house-to-house to give families information about how to 
protect themselves by cleaning and storing drinking water safely, good 
hygiene and hand washing, keeping food safe and how to handle a sick 
family member. We know from our response to the terrible Ebola crisis 
of 2014-16 how critical this kind of mass community outreach is to 
bringing such health crises under control.
    In each country, UNICEF and our international and national partners 
are showing that when we have resources and access we are able to save 
lives even in the most challenging situations.
    One of the greatest challenges confronting our humanitarian 
response is conflict and being able to access areas where fighting is 
underway. Unimpeded access to all people in need continues to be one of 
the greatest challenges confronting our humanitarian response. Parties 
to conflicts routinely deny access for life-saving humanitarian 
assistance, against all precepts of international humanitarian law. Our 
teams on the ground face this every day, in each of these countries. We 
know from our experience so far in 2017, that even in the harshest and 
most dire conditions when we get safe access to civilians we can save 
lives. In these conflict-affected countries, humanitarian workers are 
often blocked from reaching many hundreds of thousands of desperate 
people. Equally, the closure of Sana'a airport and the threat of 
attacks on Hudaydah port in Yemen for delivery of urgent humanitarian 
supplies are costing lives and causing preventable suffering. 
Humanitarian workers themselves have been targeted and killed--
exacerbating the denial of assistance to civilians.
    Just as the situation of humanitarian access is an area where 
insufficient progress has been made, our overall ability to address the 
root causes of these crises has so far proven limited.
Addressing the Root Causes of These Crises
    Conflict, extreme climate events like drought, environmental 
degradation, climate change, loss of livelihoods and poverty all 
underpin these looming famines and crises. Unless we address these 
causes we will continue to get recurrent crises.
    Civilians caught up in conflict need the United Nations Security 
Council and influential international actors to do more to require 
parties to these conflicts to meet their obligations under 
international norms and laws. Better protection for civilians caught up 
in conflicts and unimpeded access for every person in need, wherever 
they are, would rapidly reduce human suffering. A renewed diplomatic 
push is needed to end these protracted conflicts. The diplomatic 
efforts of the United States are needed more than ever.
    This also means that countries, regions and the international 
community need to do more to prepare for and build resilience against 
environmental and climate-related crisis such as recurring drought.
    For example, in Somalia in 2011 we saw a deadly combination of 
drought, conflict affecting humanitarian access to communities in need, 
and lack of governance over a long period resulting in lack of basic 
essential services like health, water and sanitation. Somalia remains 
vulnerable to the effects of climate change, including rising 
temperatures and the frequency and severity of extreme weather events 
such as drought. What makes Somalia even more vulnerable is its 
dependence on agriculture for livelihoods and food. People's 
livelihoods are being destroyed by the erratic climate conditions, 
which destroy critical infrastructure and alter local ecosystems. 
During the 2011 famine, the largest number of deaths were among those 
forced to leave their homes in search of food and water.
    Addressing the root causes behind these complex crises requires the 
international community to better integrate its humanitarian, 
development, human rights, peace and security approaches. Each aspect 
of our support must reinforce the other and the ultimate goal of 
supporting people and countries to return to a path of sustainable 
peace and development.
U.S. Assistance
    We thank the United States for its leadership and generosity for 
life-saving humanitarian assistance to the world's most vulnerable 
children.
    The United States has played a leading role in support, providing 
not only cash, but also in-kind food and nutrition assistance to 
maintain the life-saving pipelines in the four famine areas. The 
additional $990 million in funding provided by Congress in May for 
humanitarian relief was an example of American leadership to help those 
in need and something for Americans to be proud of.
    UNICEF has collaborated with a host of U.S. based agencies such as 
USAID OFDA, the Centers for Disease Control & Prevention (CDC), Food 
for Peace, and the State Department's Refugee Bureau to address the 
needs in countries affected by famine. The U.S. resources, expertise 
and diplomatic efforts are saving lives and setting an example for the 
world to follow.
What More Needs to be Done?
    If we return to our lessons from the 2011 famine crisis, and apply 
our experience of the past six months, our priorities in the coming 
months are clear.


 1. We must keep scaling up our humanitarian assistance so that we are 
        able to reach the most vulnerable people and so that we prevent 
        and control new emergencies such as the cholera outbreak in 
        Yemen. This means more funding and sources of finance to close 
        the gap from the current level of approximately 40 per cent.
 2. We ask that the United States also use its diplomatic strength to 
        convince parties to conflicts and those with influence over 
        them to respect international humanitarian law, to protect 
        children and respect their rights, and to allow UNICEF and our 
        partners safe and unimpeded access to deliver lifesaving 
        assistance to every child who needs it, whoever controls the 
        area they are in.
 3. And it is crucial that the United States continue to do all it can 
        to lead a concerted effort to find solutions which lead to the 
        end of each of these protracted conflicts which lie behind this 
        catastrophe. Bringing about an end to the suffering requires 
        not only humanitarian and resilience interventions, but 
        political solutions, as well as sustained leadership and 
        investment to help build sustained peace and stability, restore 
        basic services, protect rights and rebuild lives.
 4. The link from humanitarian response to recovery and development 
        phases presents the international system with a critical 
        opportunity to implement a more integrated and effective 
        approach. UNICEF, as an agency that is on the ground before, 
        during and after these crises is committed to helping lead this 
        new way of working.
 5. Very practically, the outbreak of cholera and malnutrition in Yemen 
        are compounded by the collapse of the public systems, in 
        particular the water, sanitation and health sectors. Frontline 
        health personnel and sanitation workers have not been paid for 
        more than 10 months. As much as we invest in supplies and 
        infrastructure, we need to find a concrete solution to this 
        issue and advocate with the parties and key stakeholders to 
        prioritize the payment of salaries.
 6. As we advocate for full unimpeded humanitarian access to every 
        person in need, there are specific challenges which the 
        international community could help solve now. For example, 
        UNICEF and our partners face challenges obtaining visas to 
        deploy to Yemen. This creates a major bottleneck to scaling up 
        our response. We need support in targeted advocacy and outreach 
        to authorities to lift such restrictive visa requirements.


    The stakes for children across these four countries and their sub-
regions could not be higher. Nearly 1.4 million children are at 
imminent risk of death, and many more millions of children are at risk 
unless we turn these crises around and build sustainable recovery. The 
longer we wait to address these children's needs, the more we 
jeopardize their future. Children and families facing the gravest 
threats count on the leadership and generosity of the people of the 
United States to stand with them, to help them survive this crisis and 
go on to build a brighter future for themselves and their countries.
    Thank you.


    Senator Young.  Thank you for your insightful comments.
    Executive Director Beasley, based on the World Food 
Programme's activities in Yemen, where you will be traveling 
next week, do you agree with Mr. Nims regarding the importance 
of the Port of Hodeidah to humanitarian relief efforts?
    Mr. Beasley. I try to agree with Mr. Nims on everything he 
says, Senator. [Laughter.]
    Senator Young.  Can you tell us why, from your perspective, 
and based on what you have been hearing from your advisers, why 
that port is so important?
    Mr. Beasley. Yes, sir.
    Ninety percent of all food for Yemen is imported, and 70 
percent, give or take, if not more, of all products come in 
through Hodeidah port. Approximately 90 percent of the people 
that we are dealing with in this critical situation are in this 
area.
    So this port is absolutely essential to the well-being of 
the Yemeni people.
    Senator Young.  Director Beasley, your staff provided this 
picture of the World Food Programme warehouse from Yemen. It 
does not appear to be a fully intact warehouse, based on my 
observation. What happened to that warehouse, to your 
knowledge?
    Mr. Beasley. This warehouse was bombed in 2015, I believe.
    Senator Young.  Who bombed that warehouse?
    Mr. Beasley. To our understanding and knowledge, Saudi-led 
forces.
    Senator Young.  Director Beasley, I asked Mr. Nims about 
what happened with the cranes that the World Food Programme 
tried to deliver earlier this year. Can you provide more 
details?
    Mr. Beasley. Well, in the same bombing, many of the cranes 
were knocked out, which severely impedes and impairs the 
ability to deliver food on a humanitarian basis to the innocent 
victims and people within Yemen.
    The cranes, almost all the cranes were bombed and knocked 
out. And so the United States, operating through USAID, 
provided the funds, $3.8 million or $3.9 million for the World 
Food Programme to buy new cranes.
    We purchased the cranes. We put them on the ships, and we 
sent them to Yemen only to have the ships not allowed passage. 
Therefore, the ships sat----
    Senator Young.  I am sorry to interject, sir, which is a 
euphemism here in Washington for interrupt. [Laughter.]
    Senator Young.  But who refused to allow these cranes to 
have passage?
    Mr. Beasley. The blockade was a Saudi-led blockade.
    Senator Young.  Okay. Thank you. Please continue.
    Mr. Beasley. So the blockade is still in place to this day. 
We still have not been able to get access to bring in the 
cranes, which will substantially improve and increase our 
opportunities and abilities to be able to provide not just food 
but medical supplies and other things that are necessary to 
provide a healthy population, which we know is a disaster right 
now.
    So we have been making ongoing requests. I have been making 
ongoing requests. Our office, in a variety of different ways, 
has been making ongoing requests to the Saudis, who are in 
control of the airspace and the water space, so to speak. And 
it is a disaster.
    Senator Young.  So in just roughly 90 seconds, I heard from 
you that it was your belief that the Saudi-led coalition bombed 
this warehouse full of food that was supposed to be delivered 
to people in the conflict zone, paid for in part by U.S. 
taxpayers. I also heard that it is your belief that the Saudi-
led coalition bombed the cranes that would offload food and 
medical supplies for the worst humanitarian crisis in the world 
to help out people in a conflict zone. And then after U.S.-
funded cranes were on a ship, courtesy of the World Food 
Programme, it was a Saudi-led coalition that caused those 
cranes to turn around and not be delivered, thus exacerbating, 
to Mr. Nims' earlier testimony, the humanitarian crisis.
    Are all of those things correct?
    Mr. Beasley. Yes, sir.
    Senator Young.  Okay. Am I incorrect--you always have to be 
careful in drawing inferences here. But is there a pattern, 
perhaps, that I am picking up on with respect to some of the 
challenges that are being experienced in Yemen and the efforts 
to address those humanitarian challenges?
    Mr. Beasley. Senator, we may debate all day long why this 
war is taking place, but we cannot debate clearly the World 
Food Programme and other humanitarian agencies do not have the 
access that they need to achieve the objectives of feeding and 
providing the assistance needed to innocent victims of combat.
    Senator Young.  Director Beasley, on June 27, the World 
Food Programme Yemen country director sent a letter, this 
letter, to the Saudi Government, asking for approval to once 
again try to deliver the four Tadano cranes to the Port of 
Hodeidah.
    Without objection, I would like to enter this letter into 
the record, and so it is.


    [The information referred to is located at the end of this 
hearing transcript.]


    Senator Young.  I think it is important to read a few 
excerpts from this letter. In the letter, the World Food 
Programme says that, ``Given that all five gantry cranes in 
Hodeidah port are not operational, the mobile cranes will be 
critical to partially address the limited port capacity that 
severely impedes timely offloading of humanitarian supplies.''
    The letter continues, ``The cranes are expected to ease 
port congestion, thus allowing for more rapid delivery of 
humanitarian assistance into the country.''
    The letter states that the primary purpose of the cranes 
would be to ensure ``humanitarian relief items, such as food, 
nutrition, and medical supplies, reach the Yemeni population in 
need.''
    The letter continues, ``Now more than ever, as the food 
security situation is deteriorating and the recent cholera 
outbreak is spreading across the country, the humanitarian 
community needs your support''--this, again, a letter to the 
Saudi Government--``in order to be able to timely deliver 
lifesaving assistance to the most vulnerable.''
    Director Beasley, do you stand by that WFP request and the 
statements in this letter?
    Mr. Beasley. Senator, I certainly do, and I have made a 
personal request to the Saudi King and the Crown Prince, to 
personally appeal to them to allow these cranes in, number one; 
number two, to do what they can to resolve this conflict; and 
number three, to fund the humanitarian disaster on the ground.
    Senator Young.  Have you received a response yet from the 
Saudi Government?
    Mr. Beasley. As of this moment, I have not. I am hopeful. 
But I hope we do not receive the same response that the BBC 
received, because the BBC was going to be flying in with us 
next week, into Yemen. Unfortunately, no reporters are allowed 
to fly in with us, because we do think it is necessary that the 
people around the world, particularly the donor countries like 
the United States and others who are funding the humanitarian 
crisis of this nature, they have a right to see that their 
taxpayer dollars are being spent wisely.
    Senator Young.  I am staring at an article that is courtesy 
of Reuters, ``Saudi-led coalition blocks U.N. aid staff flight 
carrying journalists to Yemen.''
    Is this what you were alluding to?
    Mr. Beasley. Yes, sir.
    Senator Young.  I would like to enter this article into the 
record, without objection.


    [The information referred to is located at the end of this 
hearing transcript.]


    Senator Young.  Now, I recognize the cranes are not a 
panacea to the horrible humanitarian crisis. However, 
permitting their delivery is a tangible, specific step that can 
be taken to improve or save thousands or millions of lives by 
facilitating the more expeditious flow of humanitarian 
supplies.
    Director Beasley, will you inform me promptly when you 
receive a response from the Saudi Government?
    Mr. Beasley. I certainly will, Senator.
    Senator Young.  Well, I will want to ensure the Saudis get 
all the public credit or shame they deserve, depending on their 
decision.
    Just a bit more, Director Beasley. I thank you for your 
patience here.
    Whether it is in Yemen or elsewhere, do you believe that 
deliberately impeding the flow of humanitarian supplies, 
including food or medicine, in order to gain political leverage 
is morally reprehensible and worthy of universal condemnation?
    Mr. Beasley. I think it is an abhorrent activity in 
violation of not just humanitarian and international laws, but 
it is morally just a terrible thing.
    Senator Young.  Yes. Are you referencing a violation of 
Customary International Humanitarian Law Rule 55? We can have 
the lawyers check on that, if you like.
    Mr. Beasley. I will let the lawyers do the details.
    Senator Young.  Sure.
    Mr. Beasley. But, Senator, we are facing many, many 
impediments to achieving the objectives, based upon 
humanitarian principles.
    Senator Young.  Okay.
    Let me read a passage from that law. It may have been what 
you are referencing.
    Customary International Humanitarian Law Rule 55 says, 
``The parties to the conflict must allow and facilitate rapid 
and unimpeded passage of humanitarian relief for civilians in 
need, which is impartial in character and conducted without any 
adverse distinction, subject to their right of control.''
    Now this Rule 55 is reinforced, as I understand it, by 
Article 14 of the additional Protocol II of the Geneva 
Conventions, which states that, ``Starvation of civilians as a 
method of combat is prohibited.''
    I would note that the Saudi Government ratified the 
additional Protocol II to the Geneva Conventions in 2001.
    Mr. Merkley, I will turn it over to you.
    Senator Merkley. Thank you.
    It was, I believe, May 20th when President Trump met with 
King Salman in Saudi Arabia, and they have what was reported to 
be very friendly conversations.
    Director Beasley, should we be asking our President to 
weigh in directly with the King of Saudi Arabia to get access 
for aid into Yemen?
    Mr. Beasley. Yes, sir. I am hopeful that the President of 
the United States and other leaders of the United States 
Government will weigh in, in every way possible, so that we can 
receive not just the access for the cranes to be where they 
need to be, but also, I think, that the leaders in the United 
States and other governments ought to challenge the Saudis to 
fund the humanitarian crisis, if they are not going to resolve 
the conflict.
    Senator Merkley. Mr. Forsyth, you referred, in a 
complimentary way, to the U.S. moving quickly. Thank you for 
the compliment. But do you feel we could do even more? Do you 
have suggestions for how we could be more effective, either in 
terms of the type of aid, the ways we are delivering it, the 
speed with which we are delivering it? Or should we ask our 
President--to give you each a presidential question here--
should we ask our President to get on a conference call with a 
key group of leaders around the world and say we need to amp up 
our response in a very significant way to these famines?
    Mr. Forsyth. Thank you, Senator.
    The first thing I wanted to say in reply to your question, 
and I will answer it directly, too, but just indirectly, is 
that I think we should not underestimate in this very serious 
humanitarian situation in four countries, we are making a 
difference.
    I mean, just one example, in Yemen, WHO and UNICEF are 
running 626 diarrhea treatment centers for cholera and severe 
diarrhea. In South Sudan, WFP and UNICEF, even in the Unity 
state where some of the worst fighting is happening, we have 
done these rapid response missions, which have reached 530,000 
people, including 100,000 children.
    And those are just two examples on the ground where very 
brave humanitarian workers, international, but a lot of them 
local, are doing heroic work to save people's lives and the 
most vulnerable children in these very difficult situations. We 
will hear from some of the NGOs that are part of that effort in 
a minute.
    So I think that would be the first point.
    The second point is, as we have heard, we are in a race 
against time to stop this emergency from getting worse. In 
places like Yemen, it is getting worse because cholera, or 
suspected cholera and diarrhea, is complicating malnutrition 
and famine-type situations.
    So we have to really move even quicker at even greater 
scale to address this before it gets even worse.
    And we know as well as the 20 million, there is another 10 
million people at risk who could fall into the very severe 
situation, which will need extra aid. So we have to move even 
quicker and faster.
    Now I think within that context, the U.S. has been very 
generous. I think your point is very valid, which is, could the 
U.S. do even more to convene some other donors to do even 
better and to do even more, including, as we say, some of the 
governments in the region, for example, in the gulf region, but 
also in Europe and other parts of the world? But also, could 
the U.S. really put its shoulder to the mill in terms of 
diplomatic efforts to deal with the root causes? And not just 
in Yemen, although Yemen is the worst, but also in South Sudan, 
also in Somalia, we need progress, not on the diplomatic side, 
but in terms of dealing with some of the root causes.
    Malala is visiting northern Nigeria today, and she has 
asked the President to declare it an education emergency, 
because what we have seen is not a nutrition crisis and a 
health crisis, but we have seen the destruction of over 3,000 
schools by Boko Haram, because they want to destroy education 
for the generation of future children.
    The best response to that type of extremism is to invest 
more in education even in these emergency situations. I think 
the U.S. leadership could be on all of those different levels, 
Senator.
    Senator Merkley. Thank you.
    I am very concerned about the reports of Boko Haram also 
sending in suicide bombers into these settings, which is 
another form of absolute chaos complicating every effort to 
make things better.
    Recently, UNICEF released a report showing that the cases 
of rape and sexual violence against women have increased 
significantly in drought-affected areas of Somalia. Between 
November and March, UNICEF and partners responded to about 300 
cases of rape, sexual assault, gender-related violence, on 
average, each month. In June, that tripled to 909 reported 
cases.
    Can you just, in a modest number of words, because I have 
one more question I want to get in before my time is up, what 
is the disproportionate impact of famine on women? And can the 
U.S. do more to better protect women from violence in these 
settings?
    Mr. Forsyth. Well, very briefly, when people are displaced, 
women walk further to get water. They are also displaced to 
refugee camps.
    When I visited the only rape center in Mogadishu, most of 
the women are raped as they go to the toilet or when they go 
and get water. So they are much more vulnerable in these 
humanitarian situations.
    Secondly, linked to David's point earlier, nearly all the 
women, and I have been on an Italian ship off the coast of 
Libya with these migrants being picked out of the sea and 
rescued, nearly all the girls from West Africa and Somalia that 
have come through Libya have been raped--nearly every one of 
them. One girl I met was 8 months in underground prison in 
Libya, raped every day before being sold into prostitution in 
Italy.
    So children on the move, young women on the move, even boys 
on the move, are very vulnerable to sexual violence.
    Senator Merkley. Particularly in the refugee camps, it 
seems like we could somehow provide more security to diminish 
this.
    Mr. Forsyth. Very much so. Basic security, including 
lighting, makes a huge difference, also having toilets near 
where women are, run by the community. Very basic things make a 
big difference, in terms of rape in refugee camps, in terms of 
looking at it from a gender perspective.
    Senator Merkley. Are we going to have another round on this 
or are we going to the next panel?
    Senator Young.  Another round.
    Senator Merkley. Okay. Then I will hold my next question 
until the next round. Thank you.
    Senator Young.  Thank you.
    Director Beasley, in your prepared remarks, you note the 
World Food Programme has identified 6.8 million people in Yemen 
who are severely food insecure and require emergency food 
assistance. You write that, given funding shortfalls, full 
emergency rations reached only 3.9 million people in June.
    So am I correct here? If I do the Naval Academy math, with 
more funding, the World Food Programme could help almost 3 
million more people in Yemen?
    Mr. Beasley. Yes, sir. In fact, the 3.9 million that we fed 
with regards to full rations, there was another 1.5 million 
that we fed with part rations. So the problem is complicated by 
the fact that we do not have resources, and we do not have 
access, both of those together.
    But if we receive the funds we need--for example, after the 
United States announced--thank goodness the United States House 
and Senate--and I have been saying this to my friends all over 
the world, that, in spite of the fact that Republicans and 
Democrats seem to be tearing each other apart in Washington, 
D.C., today, when it comes to hungry children, they are 
together. It has been amazing to watch the Republicans and 
Democrats come together in helping these innocent children all 
over the world.
    So when the United States sent a very clear message that 
the United States was going to continue to provide the moral 
leadership with regard to humanitarian assistance around the 
world in passing the $990 million on the supplemental 
appropriations bill, it was an amazing message to the world 
that the United States leadership was not backing down. And 
then, when the President announced $639 million, it was a 
tremendous coup, so to speak, to see that the United States 
Democrats and Republicans were standing firm.
    Now, having said that, we need, for Yemen alone, an 
additional $343 million, and this is after the President's 
announcement. Once we receive those funds, we still need 
another 350 some odd million dollars for the rest of the year 
for Yemen alone.
    Senator Young.  So I am proud we have come together around 
this issue here, as you indicated, Republicans and Democrats, 
Congress, the administration. And I have a measure of 
confidence that we will continue to see that those monies are 
received.
    You named a number of countries earlier, which you 
indicated should do more, Saudi Arabia notably being one of 
them, but there were others within the GCC and beyond.
    Now we have seen, some have indicated, a pattern of some 
countries making bold announcements with respect to pledges, 
and then the money is really slow to actually arrive, or it 
never arrives. Can I verify that that has been happening?
    Mr. Beasley. Yes, sir, you can verify that. We are not here 
to pick on anybody, but this is a conflict that innocent 
children are dying from, innocent people are suffering from.
    So we ask particularly those that reside and live in this 
area, the Gulf States, the Saudis, to please step up and fund 
the humanitarian free-for-all, the consequences of the 
conflict. So the United States has been stepping up, and has 
done admirably so. I think the United States now has the moral 
authority to demand of the other nations around the world to do 
more. As I said earlier, Germany, the U.K., the EU, and other 
countries have been stepping up.
    But countries, in my opinion, like Saudi Arabia and other 
gulf states, I think they need to shoulder some of this burden, 
if not all of the burden.
    Senator Young.  Thank you. I think it is really important 
in the wake of flashy press conferences and the distribution of 
glossy brochures around Washington, D.C., among our opinion 
leaders that pledges are fulfilled. And if they are not 
fulfilled, we need to shine a light on that. It creates some 
perverse incentives, if we do not ensure that feedback loop is 
there.
    Mr. Forsyth, you mentioned funding shortfalls in your 
testimony. Perhaps there is something you would like to add? I 
want to give you the opportunity, sir.
    Mr. Forsyth. I think the United Nations, as a whole, is 
about 40 percent to 45 percent funded properly, in terms of 
this, which allows us to do a lot of the things I mentioned 
before, but that is still a huge shortfall. And as I mentioned, 
we are in a race against time, particularly in Yemen because of 
the health crisis combining with the nutrition crisis. So we do 
need others to step up to the mark.
    What is interesting, and it is worth noting, just to add to 
the points that have been made, that there are some new actors 
beginning to do even more, for example the World Bank.
    The World Bank is funding now big health and nutrition 
programs in Yemen. It is also getting involved in responses in 
other fragile states. The U.S. is a big backer of the World 
Bank. That is also an important part of now what the World Bank 
is doing in fragile states.
    But I would agree with the executive director from WFP. 
There are some governments that need to do more. Some in Europe 
are not very generous, for example. Some are generous, like 
Germany and the U.K., Sweden. But other European countries have 
mixed performance. The European Union as a whole is a big donor 
and is in the forefront of this.
    Senator Young.  Thank you.
    I have spent a disproportionate amount of time discussing 
the situation in Yemen. I would like to quickly move on to 
Nigeria.
    The World Bank estimates that the size of the Nigerian 
economy was over $400 billion in 2016. That made Nigeria the 
26th largest economy in the world, and the largest in Africa. 
We know Nigeria is one of the so-called four famine countries.
    While the international community does all it can to 
address the humanitarian crisis in Nigeria, it is important the 
Nigerian Government carries its fair share of the financial 
burden.
    Director Beasley, has the World Food Programme received any 
funding--any funding--from Nigeria to help the humanitarian 
crisis in their own country?
    Mr. Beasley. Senator, I met with the Foreign Minister of 
Nigeria just a few weeks ago and made the request that, based 
on my opinion and economic analysis, that Nigeria should be 
stepping up and funding so much of this problem.
    And I do believe we are going to receive some positive 
results, maybe not as much as we would anticipate, but I do 
think this is where nations like the United States and others 
can have friendly conversations with the Nigerian leadership in 
stepping up. Because we have 1.9 million people displaced. We 
are feeding approximately 1.1 million people in Nigeria. And 
Nigeria is compounded, of course, not just by Boko Haram but 
also issues of climate and drought in the northeast sector.
    Senator Young.  Thank you.
    We will continue to follow that situation with your and 
your staff's assistance.
    Just a couple more questions, and then I will yield to Mr. 
Merkley for a second round.
    Director Beasley, in an article a few days ago, you were 
cited as saying the following. ``If a family cannot feed their 
children after 2 or 3 weeks, they will turn to any available 
resource they can, and that usually is extremism.''
    Some may not appreciate the security implications of these 
humanitarian crises. What do you see as the security 
implications for the United States and our allies, if we 
continue to allow the impediment of humanitarian aid and 
continue to see an insufficient global financial response?
    Mr. Beasley. The United States is a leader in humanitarian 
assistance. I have said to many of my friends in the United 
States, and I have said this to many countries that are 
substantially providing major funds to the World Food 
Programme, that it is in your national security interests.
    What we are facing today is different from what it was 30 
years ago. The frontlines where the World Food Programme is, as 
well as other organizations, humanitarian organizations, it is 
a difficult situation today compared to any other time period 
in world history.
    Whether you are dealing with extremist groups or terrorist 
groups, when mothers and fathers and families cannot feed their 
children in these extremist areas, and they do not have the 
access or the opportunity to leave, then they have no choice 
but to turn to what is available to them.
    So when the United States provides the leadership to make 
certain that these families, mothers and fathers, can feed 
their children, they do not turn to extremism, they do not turn 
and yield to terrorism. And if we are not there, terrorism, 
extremism will proliferate, and the problems that we are facing 
around the world will only be exacerbated and compounded.
    Then, of course, we are dealing with military and other 
operations that are very costly after the fact.
    Senator Young.  Thank you, sir.
    My last question of you, Mr. Beasley, pertains to South 
Sudan. You recently visited South Sudan neighboring Uganda. How 
would you describe the current situation there? And if you 
could specifically indicate whether you would characterize the 
situation as another potential genocide, I would be grateful 
for that.
    Mr. Beasley. Senator, I think the atrocities are occurring 
on a daily basis, perhaps bordering on genocide.
    I have been on the ground in South Sudan. I have been in 
the refugee operations in the bordering countries like Uganda 
and the settlements. And I have talked to witnesses firsthand 
and heard their horror stories.
    It is not one isolated incident. It is over and over and 
over and over. And it is heartbreaking to hear these children 
talk about watching their mothers and their fathers being 
macheted to death right in front of their very own eyes.
    It is my opinion that the United States and other nations 
of influence should bring to bear all influence and pressure 
they can, not just on the South Sudanese Government, but all 
parties involved in that conflict, as well as all nations in 
the surrounding area that yield some degree of influence within 
that region, whether you are talking about Kenya, Uganda, 
Rwanda, the list goes on.
    I think there needs to be a comprehensive approach. I think 
that nations need to come together and pressure all governments 
in that region to bring the conflict to an end.
    But my observation, personally, is that the atrocities are 
astounding. And, Senator, we are not talking about what 
happened 10 years ago, 5 years ago, 3 years ago, and 2 years 
ago. We are talking about what happened 2 weeks ago and 
ongoing.
    And so as we are witnessing literally 2,000, give or take, 
South Sudanese children, mothers, and fathers are still 
continuing to be beaten or killed, and are fleeing and leaving 
on a daily basis that many people as we speak right here today.
    Senator Young.  Thank you for your testimony.
    Senator Merkley, you are recognized.
    Senator Merkley. Director Forsyth, you commented some on 
the challenges facing women during the chaotic conditions 
surrounding drought and refugee situations and refugee camps. 
Famine locations and hunger can also affect maternal health 
care, which increases the risk of complications during 
pregnancy delivery, putting the health and lives of women and 
infants in danger.
    The U.N. Population Fund, given its mandate on reproductive 
health and gender-based violence, plays a key role in assisting 
pregnant women and new mothers amidst these famines.
    Our current executive branch, the Trump administration, has 
cut all funding to UNFPA, drastically reducing the assistance 
available for responding to women in these situations. For 
example, I understand that our reduction in funding will cut in 
half the ability of the U.N. Population Fund to assist women in 
Syria.
    Meanwhile, in next-door Jordan, the fund has assisted 7,500 
maternal births--I guess that is redundant--7,500 births 
without a single woman dying in the course of that, out of 
these very difficult circumstances.
    What will be the impact of the United States cutting these 
resources?
    Mr. Forsyth. Senator, you are right to say the impact on 
women in terms of these drought, famine, and also refugee 
situations is very stark. What we see is that women are very 
vulnerable not just to rape, as you rightly point out, but also 
to not having basic services available to just a trained health 
worker, not a full nurse or midwife or doctor, in these more 
extreme situations, which means if they have any complication 
in birth, it leads to a maternal death or a child death in that 
situation.
    I have seen, in these situations, without those services, 
if you have a breech birth or anything like that, it leads to 
maybe both the baby and mother dying. And we know that despite 
the overall progress in maternal mortality in the world, and it 
has been dramatic, that the area that we have made least 
progress with is during that first few hours and then the first 
month after a baby is born. That is when you most need a 
trained health worker. And in a drought or a refugee situation, 
that is when you have the least amount of support.
    So I think the support for UNFPA, the support for other 
U.N. agencies--and we work with UNFPA and U.N. Women, providing 
a lot of health support to women. We also work with them on 
things like female genital mutilation, early marriage, those 
types of issues. It is very critical in terms of addressing 
women's and girls' rights, but also then living or dying in 
these very dramatic situations.
    So I hope that we can find a way that we keep that type of 
lifesaving support to that very important work that UNFPA and 
others do on health in these very difficult situations.
    Senator Merkley. To summarize, thousands of women will be 
far better off, but also, thousands of babies will enter the 
world on a far healthier basis if we were to restore this 
funding.
    Mr. Forsyth. It is hard for me to get involved directly in 
an issue to do with the U.S. administration, as you will 
appreciate.
    Senator Merkley. Okay. Let's do this then. I will say, that 
is my summary of your statement. [Laughter.]
    Mr. Forsyth. Thank you.
    Senator Merkley. Thank you.
    Recently, UNICEF released this report, ``Thirsting for a 
Future.'' And in this report, it goes through the critical role 
of water in the world. It notes, page 13, ``For children, water 
is life,'' and on page 19 that 600 million children are 
projected to be living in areas with extraordinarily high water 
stress by the year 20-something.
    Mr. Forsyth. 2040.
    Senator Merkley. Thank you, 2040.
    And it details the science behind how greater heat both 
reduces water in the ground, water in aquifers, but also how it 
produces more water in the air, leading to more sudden 
downpours and, therefore, flooding--an irony, really, to have 
both greater drought and greater floods produced.
    On page 31, if I can find it quickly, it says, over the 
past 50 years, the average global temperature has increased at 
the fastest rate in recorded history and that the trend is 
continuing, and all but one of the 16 hottest years have 
occurred since 2000.
    We also had a circumstance in 2015 and 2016 where each 
month was the single hottest month in the last 50 years. That 
is, May was the hottest month of all Mays in the previous 50 
years, and then June and then July.
    I did the math on this. To have this happen by accident for 
16 months in a row is less than 1 out of 1 trillion times 1 
trillion. In other words, there is nothing accidental about 
this.
    So here we are talking about trying to address the 
fundamentals of reducing these types of crisis situations in 
the future--famine and violence that often spawns from 
scarcity.
    Is it essential, as this UNICEF report points out, that we 
aggressively, as an international community, take on what is 
often called global warming, which I refer to as climate 
disruption?
    Mr. Forsyth. Senator, I think you are right. There is a big 
connection between climate change and drought and human 
suffering. Whether these exact four famines are consequences, 
it is too early to know. And most scientists would say that, 
even though the evidence already points to that, that you will 
only know in future years whether these famines are a 
consequence of that situation.
    But you are right. The change in rainfall patterns, the 
increased evaporation, the more extreme weather, the drying up 
of aquifers, all of these factors are becoming extreme in all 
of these different places.
    And it is interesting, if you look at northern Nigeria, 
northern Kenya, Somalia, but also the Sahel, Yemen, where there 
is desertification, where there is more drought, but it is also 
where, going to the point you made, where there is more 
extremism, where there is more resource scarcity, there is more 
division. So there is a connection between all of these 
different issues.
    Now, it is not a direct connection. The major cause of 
these famines now is manmade conflict.
    In South Sudan and other places, probably two men in South 
Sudan could stop the conflict, if their heads were banged 
together and there was action that addressed some of the 
causes, and we should be honest about that. But the 
complementary factors, which then lead to scarcity, as you say, 
which then lead to people moving that lead to some of the 
conflicts, for example, around where cattle are allowed--I 
mean, there are these cattle raids in South Sudan that have to 
do with scarcity and resources.
    So there is a big connection between what is happening with 
the environment and some of the underlying factors in terms of 
conflict.
    My view, and the view of UNICEF, is that we have to address 
not just the symptoms, but the causes, and the causes include 
environment, not just climate change but other environmental 
factors, like desertification.
    But we also have to address issues around poverty and 
development, even in the midst of emergencies, if we are going 
to stop this cycle of permanent emergency.
    It feels like, in the Sahel, Somalia, parts of northern 
Nigeria, the Chad basin, it is like a permanent emergency now 
because of all of these factors of conflict, environmental 
degradation, poverty coming together again and again, as well 
as poor governance.
    Senator Merkley. Well, thank you for laying that out and 
for saying I am right when I am quoting from a document from 
your organization. [Laughter.]
    Senator Merkley. Thank you for your testimony.
    Mr. Forsyth. Thank you, Senator.
    Senator Young.  This concludes our second panel. I want to 
thank you, Mr. Forsyth, Mr. Beasley, for your willingness to 
share your expertise with us here today.
    We will now take just a few minutes to allow the members of 
the third panel to take their places at the table.
    I welcome the panelists for our panel number three. I will 
say from the outset that Mr. Merkley has a hard stop at half 
past the hour, and I accept full responsibility if this panel 
runs a bit longer than that. We have just been able to elicit 
such interesting testimony from our other two panels, so I 
thank them again.
    Well, I welcome all of you, and I would like to introduce 
you briefly.
    Dr. Dominik Stillhart, the director of operations for the 
International Committee of the Red Cross; Dr. Deepmala Mahla, 
South Sudan director for Mercy Corps; and the Honorable Eric 
Schwartz, President of Refugees International.
    As with the others, your full written statements will be 
included in the record, and I welcome each of you to summarize 
your written statements in about 5 minutes.
    Let's go in the order that I announced you.
    Mr. Stillhart?

    STATEMENT OF DOMINIK STILLHART, DIRECTOR OF OPERATIONS, 
 INTERNATIONAL COMMITTEE OF THE RED CROSS, GENEVA, SWITZERLAND

    Mr. Stillhart. Mr. Chairman Senator Young, Ranking Member 
Senator Merkley, first of all, thank you very much for inviting 
us back to Capitol Hill after we have already testified on the 
22nd of March with the full committee.
    I will base my testimony very much from the ground up. We 
have people in all these four contexts, working on the 
frontlines of these famines, and I have also had the 
opportunity in the past few weeks to visit Yemen and Somalia, 
and I will draw from this experience.
    My first message today is one of thanks. Your leadership, 
the leadership of this committee, as well as the U.S. 
Government and the American people, has saved hundreds of 
thousands of lives and has helped us to address the crisis, 
which is, as many of my predecessors said here, one of the 
worst since the Second World War, and has probably taken up the 
worst of the famine. And this is thanks to your leadership, and 
we really are grateful for this.
    My second message is, keep it up. Keep it up, because we 
are not out of the woods. Progress is uneven. We have probably 
seen significant progress in Somalia. We are getting on the 
right side of things, although the situation remains critical.
    The situation in South Sudan remains extremely critical. We 
have seen new rounds of violence that have displaced tens of 
thousands of people in this country. And what we have seen in 
South Sudan, and this is really important, with the 
displacement of people into Uganda as well as into Ethiopia, 
once again, we see these crises are not contained in the 
country that are affected by conflict. These are regional 
crises. Therefore, they need regional solutions. They cannot 
just be resolved within one single country.
    Northern Nigeria, we have significantly stepped up as the 
humanitarian community. But we have also seen new needs as more 
areas become accessible, and, therefore, more emergency 
assistance is going to be required.
    The one context that I am really extremely worried about is 
Yemen. I happened to be there just at the beginning of the 
cholera outbreak. I visited two hospitals in Sana'a, and I have 
never seen scenes like the ones that I saw in my 27 years with 
the International Committee of the Red Cross, hospitals 
completely overwhelmed by hundreds of families streaming into 
these hospitals. Within just 24 hours, these hospitals were 
totally overwhelmed, up to four patients in one single hospital 
bed, patients under hospital beds, others in the courtyards of 
the hospital with IV drips hanging from trees. Unbelievable 
scenes.
    And by now we have heard 350,000 people affected by 
cholera, nearly 1,800 people died. And this is all the direct 
result of brutal conflict that has affected this country for 
the past more than 2 years.
    David Beasley was talking about Sustainable Development 
Goals 2030. Looking at health indicators in Yemen, they look 
more like 1830 than 2030 today.
    My third message is, it is not just about emergency aid. It 
is also about livelihoods.
    In Somalia, 70 percent of livestock has perished, and it 
will take up to 5 years to restock and provide livelihoods for 
the people that are living in rural Somalia. Sixty percent of 
Somalia people, they are depending on livestock.
    This will require multiyear flexible funding over time. 
Again, your leadership will be required on this aspect.
    It is not just about humanitarian organizations, though. If 
I look at the situation in Nigeria, in Nigeria, people are 
suffering from severe restrictions of movement, which deprives 
them from accessing livelihoods, from accessing their fields, 
from accessing markets.
    And here, again, you and your people on the ground, you can 
do something that is not just about access for humanitarian 
organizations. It is access for the very people that are living 
in villages today in Nigeria that are not allowed to move out 
of very restricted camps and can, therefore, not plan, cannot 
access markets. And we are just going to plant the seeds for 
the next round of marginalization and exclusion in Nigeria. 
This is something that you can also address with the Nigerian 
Government on the ground in Nigeria.
    My last message, and this is the one that I am really most 
concerned with, it is about the behavior of the warring 
parties, the behavior of the warring parties, including some of 
those that you are partnering with. All my predecessors have 
talked about all the atrocities that we have seen, not 
repeating them.
    What is important is that the failure to respect 
international humanitarian law today is a major cause of human 
suffering.
    And during our last testimony, we asked you for a 
diplomatic surge. We continue to ask for a diplomatic surge.
    U.S. leadership is important and will remain important when 
it comes to conflict resolution. Your leadership, however, is 
also important right now because you can make a difference 
right now in influencing the behavior of the warring parties, 
which need to change. And here, you have leverage, especially 
with your partners, and we are telling you there should be no 
support without compliance to international humanitarian law.
    Thank you.
    [Mr. Stillhart's prepared statement follows:]


                Prepared Statement of Dominik Stillhart

    Chairman Young, Ranking Member Merkley, distinguished subcommittee 
members, thank you for inviting the ICRC back to Capitol Hill to update 
you on the humanitarian situation in each of these four contexts, and 
to recommend concrete and actionable next steps for the U.S. Government 
and the wider international community. We will do so with general 
recommendations across the four countries and specific country 
recommendations.
1. Main Messages
    Our message to you today is firstly one of thanks. The ICRC is 
extremely grateful to this committee and to the U.S. Government for 
taking this crisis so seriously and responding to it early. U.S. 
leadership has helped to turn the tide of famine and U.S. support 
remains mission critical to the success of ICRC operations in each 
country. American values and American money are saving hundreds of 
thousands of human lives in Yemen, Somalia, South Sudan and Northern 
Nigeria.
    Early action across all four countries in the last four months 
means that a major food emergency like the one in Somalia of 2011 has 
been avoided. Our operations on the ground--often in hard to reach 
areas--confirms the general view that terrible famines have been 
averted but food insecurity remains extremely high. Progress has been 
uneven and survival for many people is not certain. The cholera 
epidemic in Yemen is a major reversal affecting hundreds of thousands 
of people. Cholera's reappearance as endemic in Somali and South Sudan 
is also serious cause for concern.
    Armed conflict and climate are still the drivers of these crises 
and create a terrible double vulnerability for people. In March, when 
we addressed the full committee, we asked you for a ``diplomatic 
surge.' We thank the Senate Foreign Relations Committee for the letter 
its members wrote to the Secretary of State on 23 March 2017 
underscoring the urgent need for such a surge. This certainly helped 
galvanize attention. In turn, we committed to scale-up our operations.
    Today we are asking the U.S. Government and others for a 
``protection surge'' to improve the behaviour of the parties to 
conflict in these countries and enable a major push for people's safe 
access to livelihoods and services. Without this, people's lives will 
still hang in the balance.
    We urge your subcommittee and the U.S. Government to focus on four 
survival imperatives for people in the next phase of this crisis.
Improve the conduct of hostilities
    Failures to respect International Humanitarian Law (IHL) continue 
to be a major cause of human suffering. All parties to conflict must 
ensure that civilians and civilian objects are protected against the 
effect of hostilities. This is often not happening and the consequence 
of violence, destruction, displacement and restricted movement is 
impoverishment, destitution, disease and death.
    This situation can and must be changed by political, legal and 
military policies that insist on greater respect of IHL and create a 
new environment in which millions of people can return home safely and 
recover their own means of survival.
    We ask your subcommittee and the U.S. Government to do everything 
in your power to bring about a change in the way these wars are fought 
to ensure greater respect for IHL and secure broad based protection for 
the civilian population in all four countries.
Invest in health and water services
    Most people die from infectious diseases in food emergencies. 
Cholera, measles and respiratory infections are the deadly accomplices 
of hunger and destitution. People's health must remain a major 
priority. People need IV fluids and medicines now but they also need 
functioning health and water services to keep them healthy throughout 
these protracted conflicts. We ask the U.S. Government to hold its 
course and be a strategic investor in health and water services.
Support rural livelihoods and reinvigorate urban markets
    The last four months confirm that the U.S. and other governments 
must focus their aid simultaneously on short and long-term livelihood 
needs to ensure people's means of survival. The challenge is 
resilience. People need food now and they need land, seeds and safe 
access to plant and harvest for the future. People need cash transfers 
now but they also need markets, imports and safe and open trading 
routes.
    The U.S. Government must continue to meet immediate needs but also 
develop its humanitarian policy to meet people's deeper survival needs 
in these four countries. We ask you to continue to support humanitarian 
aid in each country and deepen your strategy to give people a hand-up 
by enabling their safe access to livelihoods and services.
Enable flexible multiyear funding
    This short-long strategy requires flexible funding to respond to 
people's different needs across the humanitarian-development nexus. 
Investing in health and water services, and in rural and urban 
livelihood regeneration requires multiyear planning and financing.
    Budgets also need geographical flexibility. These four countries 
sit within wider regional conflict and climate systems. People 
regularly move across borders to survive. New crises flare up in 
different countries. Funding should be free to follow people's needs 
across the region, and not be trapped in single States.
2. Situation Overview
    It has been four months since we last addressed you. During this 
time there has been important progress and regrettable reversals.
    Early action has so far averted a terrible famine. Timely funding 
from the U.S. Government and others has enabled the ICRC to scale-up in 
all four countries. We have been able to expand our humanitarian action 
in food security, water and health.
    For example, in Somalia, working closely with the Somalia Red 
Crescent, we have reached 178,032 people with food and 263,116 people 
with cash since January. Our health support means 170,222 people have 
been treated in health facilities and 25,472 malnourished children have 
had special feeding. In hard to reach parts of Nigeria, we have 
provided 405,000 people with food and 20,000 with cash.
    This is a lot of human life saved because of timely funding. The 
capacity to scale-up fast has kept us one step ahead of famine in each 
country. People are suffering deeply but they are not dying en masse. 
Humanitarian aid is working.
    During these four months we have also seen major new reversals. At 
a time when global development policy is focused on a 2030 Agenda, 
health indicators in large parts of these four countries are more like 
1830 than 2030. There is a dramatic deterioration in health because of 
cholera in three of the four countries. Cholera is still spreading fast 
in Yemen and is endemic in South Sudan and Somalia too.
    The surge in funding since March has helped us to scale up in 
Yemen. We have been able to support 17 health facilities in difficult 
areas and treated 60,000 people with cholera--some 19 percent of all 
cases. We have also been able to ensure safe water for 2.23 million 
people in seven towns and cities. The spread of disease in and from 
prisons remains a serious concern. We have carried out deep cleaning in 
several prisons.
    Animal health has deteriorated too. Livestock are dying in very 
large numbers even if people are not. Pastoralists have lost 70 percent 
of their livestock in Somalia which will take five years to replace. 
Rural livelihoods are being devastated by drought, insecurity, 
displacement and impoverishment. New and repeated displacement keeps 
happening because of drought and new cycles of violence. Rapid 
unplanned urbanization is taking place in Nigeria and Somalia. Urban 
centres are often overwhelmed by people who are internally displaced 
(IDPs) and by high levels of destitution and disease.
    In short, people are alive but greatly weakened. Millions are cut 
off from their homes, jobs and livelihoods--dependent on humanitarian 
aid and the generosity of host families. Humanitarian aid is working 
and must continue but this crisis runs deep.
The Same Root Causes
    There is, we regret, no major progress on the twin causes of these 
four crises: armed conflict and climate risk. People in each country 
remain the victims of an extreme ``double vulnerability'' to the 
simultaneous effects of armed conflict and climate.
    Patterns of conflict and the conduct of hostilities continue to be 
the single biggest factor shaping people's suffering and limiting the 
options for humanitarian response. The way wars are being fought in 
each country leads to repeated forced displacement, destruction of 
civilian objects, scorched earth policies, restricted movement, looting 
and pillage. This continues to destroy people's assets and livelihoods, 
and their access to basic health and education services on which they 
depend.
    Cruel patterns of gender based violence see many women and girls 
(and men and boys) become victims of horrific acts of sexual violence 
and abuse--nearly always perpetrated by men. Men and boys 
disproportionately face high levels of forced conscription and severe 
conditions in detention. Girls and boys may also be victims of 
abduction and exploitation.
    Extreme and volatile climate--the second cause--is also putting 
great pressures on people. This, too, is responsible for livelihood 
collapse and asset depletion. There has been some rain but not enough. 
Drought continues to destroy crops or means they are never planted. 
Livestock--cattle, goats and sheep--have died in huge numbers or been 
sold off cheap in distress selling across all four countries.
    Our Red Cross and Red Crescent Climate Centre--based between The 
Hague and Boston--analyses climate data in humanitarian crises. They 
report the following on Somalia:


        In some parts rainfall from September to December 2016 was 
        extremely scarce--the kind of drought expected once in a 
        hundred years. Elsewhere, the rains were scarce but not 
        extremely so--a drought expected every 15 years--not enough to 
        cause extensive food insecurity on its own but tipping people 
        into disaster when added to conflict. We are deeply concerned 
        about the future for communities in conflict areas where 
        climate shocks and changing rainfall and temperature conditions 
        will make conditions worse, and where violence destroys natural 
        resources and infrastructure to make people even more 
        vulnerable to climate risk.


    The double vulnerability of people in each one of these four 
countries leaves little room for traditional coping mechanisms which 
have often collapsed in the double squeeze from conflict and climate.
A Deeper Approach to Protection and Livelihoods
    The safety-net function of aid is still profoundly important in 
each country where peace may not be quick. Humanitarian aid must 
continue to go to scale so that it can reach people as they become 
sick, deprived of their livelihoods and continuously displaced in these 
protracted crises. But aid policy must not only think about supplying 
food, water and medicine. A major push on safe access to livelihoods 
and health services is fundamental to maintain the level of success 
that has already been achieved.
    What people need most is peace. If they cannot have peace then the 
U.S. and others must use their influence and their role in military 
coalitions to improve the conduct of hostilities by all parties to 
conflict so that people are better protected and have safe access to 
their land, their businesses and basic services.
    The daily challenge in each country remains access: people's safe 
access to the land, resources, markets and health services they need to 
survive and thrive, and access by local authorities and humanitarian 
agencies to maintain the basic services which people need.
    Focusing on people's access to survival resources will move 
humanitarian policy beyond ensuring people's immediate survival to 
helping them recover the means of survival. This shift is essential in 
all four countries where conflict and food insecurity look set to 
continue.
    This next phase approach means thinking about people's safety and 
dignity beyond humanitarian camps and the generosity of host families. 
It means safe planting and harvesting; safe grazing and well-timed 
livestock replenishment; small business development; the protection and 
effective supply of water and health care facilities, and important 
efforts to ensure the protection and continuity of education for 
children whose life chances will be greatly reduced without school.
3. Updates on Each Country
    The subcommittee also asked for short updates and actionable next 
steps on each country.
Yemen
    The resilience of ordinary Yemenis is not at breaking point--it has 
been broken. Today 1 percent of the population has contracted cholera--
320,199 people to date. This will rise to half a million very sick 
people, more if it rains. 1742 people have died from the disease.
    The health system has collapsed. Only 45 percent of health 
facilities are functioning. Most have been stopped by a combination of 
attacks and a lack of power and supplies. The situation is getting 
worse by the day. Thanks to urgent humanitarian aid and the dedication 
of Yemeni health workers, many unpaid for 10 months, the death rates in 
the cholera epidemic have not been dramatically higher. IV fluids are 
saving lives and we need to import a further 400,000 liters now.
    In the capital of Sana'a and other cities, the average citizen can 
no longer afford clean water, basic hygiene and electricity. Nor can 
they afford basic commodities and lifesaving drugs. Without ICRC and 
other organizations support for dialysis and insulin, thousands of 
people with chronic diseases would die from diabetes and kidney 
failure.
    War creates and shapes the suffering in Yemen. Conflict is the 
ultimate cause of cholera, hunger, the collapse of basic services and 
widespread impoverishment. The ICRC is relieved that there has been no 
direct attack on Hodeida port. This would have had an even more 
catastrophic effect on the humanitarian situation.
    All those who play a part in this conflict directly, or in support, 
bear a share of responsibility for this catastrophe and must act fast 
to improve conditions.
    Humanitarian aid alone cannot cope and hold back Yemen's near total 
collapse. It is impossible to bridge the gap between the exponentially 
growing needs of Yemenis and humanitarian response. We will keep trying 
night and day to reach as many people as we can. We need U.S. 
Government support for three practical measures:


   Ensure that goods, which are essential to the survival of the 
        civilian population, are allowed into and across Yemen. This 
        applies not only to food but also to other basic commodities 
        needed by the civilian population like drugs and soap.
   Every effort must be made urgently to mobilize all countries of 
        influence around the conflict to ensure that IHL is better 
        respected across the multiple divides and fault lines in Yemen, 
        in the region and beyond. Collective responsibility should be 
        taken by all parties concerned in the conflict to ensure 
        greater respect for one another and for the Yemeni population 
        in such extreme need.
   It is high time to get the political process back on track.


    The U.S. has an important role to play in Yemen beyond its direct 
contribution to humanitarian aid and can exert positive influence on 
each of these measures.
Somalia
    There has been progress in Somalia. International response in 
Somalia has been earlier and quicker than in 2011. This has prevented 
the worst. Some rain has given limited relief to pastoralists and 
farmers but it is not enough yet to launch a recovery. We have been 
able to scale-up effectively and work widely across Somalia in places 
under the control of different parties to the conflict. Lessons learnt 
from 2011 are in place. There is a more engaged donor community, a more 
joined-up reading of the situation and a strong system to scale-up cash 
programming.
    But the situation remains precarious. The conflict is still 
dynamic. The armed opposition is agile and strong, and a major 
offensive is building up from the government side. The level of 
violence remains high and continues to impact the civilian population. 
Widespread displacement and very high levels of livestock death means 
destitution for millions of Somalis. Cholera is endemic and taking 
hold. We have helped treat 7,000 cholera patients to date. Food 
insecurity and destitution means that disease may kill people before 
starvation.
    We suggest the following next steps:


   Development actors need to be more involved to support basic 
        services and infrastructure. Recent World Bank engagement is a 
        very positive step.
   IDPs in and around urban areas will need continued support because 
        rains are not yet sufficient for them to return home.

South Sudan
    It is harder to report progress in South Sudan. The immediate risk 
of famine has been averted in Unity State by the humanitarian 
assistance that has been delivered since March. This is good news. But 
the new violence in Equatoria Region has created a major exodus of 
people fleeing the ``bread basket'' of South Sudan with major knock-on 
effects for food insecurity and deepening crisis. Productive land is 
abandoned leaving crops unattended and the August harvest is grim 
because farmers have fled.
    The conflict is still entrenched in repeated rounds of violence in 
many parts of the country. The security situation for millions of 
people is deteriorating, and shifting front lines since March have 
generated new displaced people, especially in Jongley and Upper Nile 
where people have fled deep into opposition territory. Violence has 
also caused massive forced displacement into neighbouring countries 
since we briefed you last. People who have stayed in their homes are 
fearful and need protection.
    Recurring violence and displacement makes it impossible for people 
to settle, plant and recover. Many are still on the run and hiding in 
marshes, essentially destitute. And cholera is endemic in South Sudan 
too. Cholera continues to spread at the same time as access to adequate 
sanitation and health care has been severely reduced because of the 
ongoing fighting. A major epidemic across the country would be 
extremely hard to control and could see much higher mortality rates 
than in Yemen--not least because health facilities have been routinely 
destroyed and looted in recent years.
    As we meet, South Sudan is in the middle of its annual lean season 
which makes people's condition more precarious still. We may see a 
slight upturn with the coming harvest but food aid will remain a 
priority, and we are still delivering 65 percent of our assistance by 
air which is extremely costly. We recommend four practical measures:


   Food aid must be continued during the lean season and beyond.
   The pattern of violence must stop or conform to greater respect for 
        IHL if vulnerable people stand a chance of recovering their 
        livelihoods and accessing health services.
   Health services and water systems must be protected and health 
        access must increase to prepare for a cholera epidemic.
   Deadlock on the political process to stop and resolve the conflict 
        needs to be broken.

Nigeria
    In Northern Nigeria, humanitarian aid has increased since March but 
so too have needs. The region's two million IDPs have often been 
repeatedly displaced and their 1.5 million hosts are in an increasingly 
precarious condition. But humanitarian aid, including our own into the 
most hard to reach areas like Mobbar, Kukawa and Kala Balge, has taken 
the worst off the situation although we remain in no doubt that the 
risk of severe food insecurity persists.
    Conflict continues through hit-and-run attacks which keep people 
fearful and displaced. In Nigeria, too, conflict is stopping people 
from planting, harvesting and returning home. Security measures 
designed by State authorities often contribute to people's confinement 
and isolate them further from their land and livelihoods, and from 
health and education services. This is hindering child vaccinations and 
the early treatment of malnutrition. Access to health services is 
increasing and this needs to be sustained.
    Security restrictions on crop types and fertilizers also limit 
cultivation. If some of these restrictions could be eased, people could 
be more easily supported to recover the livelihoods and access to 
services. We have already registered 180,000 farmers for agricultural 
inputs.
    We suggest the following next steps:


   Ease import restrictions for food aid and agricultural inputs until 
        local purchase procedure is cheaper and speeded up. Local 
        procurement is slow and twice the cost.
   Ease restrictions on the affected civilian population to give them 
        more access to farming fields, markets, health care and 
        education services.

Finally
    Thank you for giving the ICRC this second opportunity to address 
the Senate Foreign Relations Committee. The ICRC relies on the generous 
support of the American people.
    American aid and compassion are saving hundreds of thousands of 
lives across these four countries. We ask you to continue to do this, 
and to go further. We ask you to use America's humanitarian influence 
to create a more protective environment for the civilian population, 
and we ask you to invest American money more deeply in programs that 
help people recover their health, their livelihoods and their homes.


    Senator Young.  Be assured, I will pick up on that topic 
when question time comes.
    Dr. Mahla, your summary testimony please.

STATEMENT OF DEEPMALA MAHLA, PH.D., SOUTH SUDAN DIRECTOR, MERCY 
                    CORPS, JUBA, SOUTH SUDAN

    Dr. Mahla. Good afternoon, Chairman Young and Ranking 
Member Merkley. Thank you for this important and timely 
hearing. I am honored to testify to this subcommittee that has 
fought so hard for additional funding to prevent famine, saving 
lives, and finding diplomatic solutions.
    Mercy Corps is a leading global organization specializing 
in humanitarian, development, and peacebuilding programs, 
working in more than 40 countries, including South Sudan, 
Somalia, Nigeria, and Yemen.
    So Mercy Corps has joined forces with seven other leading 
U.S.-based NGOs to form a global emergency response coalition, 
the first of its kind U.S. humanitarian alliance. It is a 2-
week campaign targeting the American public from July 17 to the 
28th to raise awareness and funds to respond to the massive 
hunger crisis.
    As we have heard throughout, these massive humanitarian 
crises in these four countries will have far-reaching impacts 
on the security in Africa and the Middle East. Although Mercy 
Corps is actively responding to famine in all four threatened 
countries, I am going to keep my oral brief testimony focused 
on the context I am most familiar with, South Sudan.
    After decades of conflict, South Sudan experienced a brief 
moment of stability post-independence in 2011, before conflict 
broke out once again in December 2013.
    Since then, tens of thousands of the South Sudanese have 
been killed, and 4 million had to flee their homes, including 
nearly 2 million refugees in neighboring countries. People flee 
with what? Almost nothing, maybe most of their children.
    We are deeply concerned about the pace at which the 
conditions are deteriorating. Currently, 6 million people do 
not know where their next meal is coming from. That is half of 
the country, the greatest ever recorded for South Sudan. 1.7 
million are on the brink of starvation, and 45 percent still 
experience famine.
    We have met women who train their kids to eat alternate 
days. We have met women and families who work for days, 
sometimes weeks, to get food aid.
    And there is no shadow of doubt the famine condition in 
South Sudan, or near-famine condition, is the direct result of 
the conflict.
    In South Sudan, we are working to quickly deliver 
lifesaving assistance and also working on solutions to address 
the heart of the problem, which is by interventions like 
training farmers, psychological and social support to children, 
income generation, cash assistance, and revitalizing local 
markets.
    Our teams live in tents in deep field locations, walk 
through swamps for days to reach with aid.
    Since the declaration of the famine, we have scaled up our 
response in the countries in the counties with high famine risk 
in order to not miss this last chance to save lives. Yet, we 
are only barely scratching the surface, because often our 
efforts to save lives are impeded.
    Since December 2013, 84 aid workers have been killed, 
mostly on duty. NGO compounds have been looted, staff members 
assaulted and robbed, vehicles ambushed. And as the guns fall 
silent, the humanitarian situation will only deteriorate.
    In addition, conflict has made it impossible for farmers to 
tend their fields. Militia have been accused of destroying 
crops and vital water sources, looting, and burning homes and 
villages.
    A 23-year-old woman once, when I asked her where her home 
was, she told me, ``Which home? Since the last 2 years, all I 
remember is running and crying.''
    I met a woman who walked through the swamps for 4 and a 
half days with a baby on her back. She was hungry, 
malnourished. After 4 and a half days, she decided to let her 
baby go.
    Tackling complex crises and hunger ultimately means we need 
to address the root causes, and this has to happen now, and we 
cannot wait for humanitarian crises to end. To me, this work 
must be humanitarian-plus--more investments in addition to 
build social cohesion and livelihoods.
    Let me stress that we can address food security crises if 
we act urgently, especially when we see the first signs. Such 
resilience programming is extremely cost-effective. A study 
estimates that every $1 invested in resilience will result in 
almost $3 in reduced humanitarian spending.
    While the immediate priority has to be saving lives, 
building resilience cannot wait any longer. We urge that the 
Congress consider providing urgently needed assistance and 
remove obstacles to humanitarian access, invest in building 
resilience, and address the root causes of conflict and 
violence.
    Looking down the road toward fiscal year 2018, Congress 
should consider fully funding the international affairs account 
at no less than $60 billion and, within that, fully fund 
humanitarian and development accounts.
    Finally, why does Mercy Corps stay committed to working in 
these environments? We cannot say that our programs will not be 
interrupted. Perhaps they will be. But should this mean that we 
give up on rebuilding communities? No. It means we adapt. It 
means that donors become flexible and understand that, when 
there is an uptick in violence, we shift from recovery to 
urgent relief. Then when we can, back again.
    Globally, we implement programs with such nimbleness, but 
it can only happen with trust and commitment from donors.
    Chairman Young and Ranking Member Merkley, for each smile 
that we are able to bring on the faces in South Sudan, I thank 
you from the bottom of my heart.
    Thank you for your time and attention. I look forward to 
responding to your questions.
    [Dr. Mahla's prepared statement follows:]


                Prepared Statement of Dr. Deepmala Mahla

Introduction
    Good afternoon. Chairman Young, Ranking Member Merkley, and Members 
of the Subcommittee, thank you for holding this important, timely 
hearing. I appreciate the opportunity to join this panel and hope that 
my testimony helps bring more attention to the increasingly dire 
situations in the four famine-threatened countries, the impacts on 
neighboring countries, and the need for urgent action. I'm particularly 
honored to testify in front of this subcommittee and both Senators 
Young and Merkley who have both fought so hard for additional funding 
to prevent famine and save lives and find diplomatic solutions to end 
these crises.
    Mercy Corps is a leading global organization that specializes in 
humanitarian, development, and peacebuilding programs. We operate in 
more than 40 countries around the world, including throughout the East 
Africa region and in all four countries considered at risk of famine in 
2017. At Mercy Corps, we believe that a better world is possible. Our 
team of almost 5,000 people around the world work to put bold solutions 
into action, help people triumph over adversity and build stronger 
communities from within.
Famine Warnings
Global Context
    At the start of 2017, 70 million people were projected to need 
emergency assistance based on known threats to food insecurity. 
Particularly disturbing was that the threat of famine was the highest 
it has been in decades. Unfortunately, the early warnings did not 
trigger enough urgent funding and action, and now at the halfway mark 
of the year the situation continues to devolve.
    FEWS NET revised its Global Food Security Alert on June 21, 
estimating that 81 million people will need emergency food assistance 
in 2017. A few of the reasons cited for the additional 11 million 
people at risk include a drier rainy season in the Horn of Africa; 
ongoing conflict in South Sudan, Yemen, northeast Nigeria, Somalia, 
Syria, Iraq, Sudan, the Central African Republic (CAR), Afghanistan, 
and the Democratic Republic of Congo (DRC); and increasingly severe 
outbreaks of cholera in Somalia, Yemen, Ethiopia, South Sudan, and 
Nigeria.
    A credible threat of famine continues to jeopardize the lives of an 
estimated 20 million people--approximately the populations of Indiana, 
Oregon, Arizona and New Mexico combined. Approximately 2.5 million 
children are at imminent risk of death from severe malnutrition without 
immediate action by the international community.
    That is why Mercy Corps has joined forces with seven other leading 
U.S.-based international nonprofits to form the Global Emergency 
Response Coalition, a first-of-its-kind U.S. humanitarian alliance. The 
coalition launched a two-week campaign targeting the American public 
from July 17 through July 28 to raise awareness and funds to respond to 
the massive hunger crises threatening the lives of 20 million people in 
Yemen, South Sudan, Somalia, Nigeria and neighboring countries.
    By combining our efforts into a joint, two-week appeal, members of 
the coalition hope to amplify the urgency and scale of need and raise 
unprecedented funds, which will be split evenly across all eight 
participating organizations (CARE, International Medical Corps, 
International Rescue Committee, Oxfam, Plan International, Save the 
Children and World Vision). We are stronger together, and we believe 
our organizations, alongside the American people, can bring new 
attention and resources to reverse this looming catastrophe.
    In all four countries, man-made causes are driving famine and food 
insecurity, including a deadly mix of conflict, marginalization, 
displacement, violent extremism, and climate change. Moreover, 
insufficient investment in conflict prevention and management, 
resilience and sustainable development activities allows these problems 
to fester, extending these crises unnecessarily. Within each of these 
contexts, the capacity and ability of the individuals countries to 
respond varies. While still overwhelmed due to lack of rain, it is also 
important to note that the pro-active governments of Kenya and Ethiopia 
are in far better positions to respond because they took action and 
have been responding to early warnings and current needs.
    These massive multi-country humanitarian crises will have far-
reaching impacts on security and stability in already volatile regions 
of Africa and the Middle East. Besides the tragic human costs, refugee 
flows are increasing. As members of this committee have seen on a 
recent trip to the region, Uganda is now home to the largest refugee 
camp in the world. Approximately 1.8 million refugees have fled from 
South Sudan alone since the conflict erupted at the end of 2013, half 
of whom were in Uganda by mid-June. These crises are stretching an 
already overwhelmed humanitarian system, almost to the breaking point.
    But this is not ``new'' news. In 2014, international agencies 
warned that South Sudan could fall into famine. And, we knew in 2015 
that 2016 would be a bad year for food security. We knew in 2016 that 
2017 was going to be worse. And I'm sad to say that current end of year 
projections indicate that 2018 will likely start out with emergency 
levels of assistance (IPC Phase 4) still necessary.
    While the immediate priority must be continuing to save lives, 
building resilience and addressing conflict and violence cannot wait 
any longer. As the international community, national governments and 
local responders mobilize to respond, we ask that the U.S. Congress 
simultaneously:


   Provide urgently needed assistance and remove obstacles to 
        humanitarians accessing populations in need--especially 
        diplomatic obstacles;
   Invest in building the resilience of vulnerable communities to 
        prepare for, withstand and recover from shocks and stresses; 
        and,
   Address the root causes of conflict and violence.
South Sudan
    South Sudan is a prime example of how, when left unaddressed, long-
term conflict can produce devastating consequences. After decades of 
conflict, South Sudan experienced a brief moment of stability post-
independence before conflict broke out once again in December 2013. 
Since then, tens of thousands of South Sudanese civilians have been 
killed and the ongoing civil war has forced nearly 4 million people to 
flee their homes. Nearly 2 million people have fled to neighboring 
countries (63 percent of whom are children), including to Uganda (which 
is now hosting the largest refugee population on the continent), Sudan, 
Ethiopia, Kenya, the DRC, and CAR, with the latter two countries 
managing displacements from internal conflict as well. After more than 
three years of war and repeated warnings about the deepening of the 
crisis in South Sudan, we now have one final chance to prevent a famine 
from spreading and engulfing more than one million people.
    Of the many humanitarian needs within the country, the magnitude of 
food insecurity and malnutrition experienced by South Sudanese is 
unprecedented. Despite fertile land, conflict has made it impossible 
for farmers to tend their fields. To make matters worse, militias have 
been accused of intentionally destroying crops, looting cattle, burning 
homes and villages, and damaging vital water sources. Currently, 6 
million people are without enough food (IPC Phases 3-5), and of that 
some 45,000 people are experiencing famine. This is 500,000 more people 
in need of emergency assistance in the country than had been originally 
projected at the start of the year.
    We are deeply concerned about the speed at which conditions are 
deteriorating for the people of South Sudan. In just four short months, 
the number of people on the brink of starvation has risen from 700,000 
to 1.7 million. Despite the levels of need in two areas of South Sudan 
in Unity State being reduced from outright famine, the overall 
situation in the country is rapidly worsening, with 50 percent of the 
population now being recognised as food insecure, the greatest number 
ever recorded in South Sudan. Sadly this has happened while the world 
has been watching.
    What we know is that we have a very short window of time between 
someone being very hungry, to being on the brink of starvation, to 
actually dying from hunger. We cannot wait for people to be starving to 
act.
Somalia
    Somalia has been ravaged by decades of conflict and insecurity, 
making access to many parts of the country difficult. When overlaid by 
multiple years of failed rains, the effect is catastrophic--as we saw 
in the 2011 famine that killed nearly 260,000 people. This year, rains 
have failed again--and we have seen the tripling of water prices, the 
wiping out of crops and the death of livestock.
    The Government of Somalia declared the drought a natural disaster 
at the start of March after 110 people died within 48 hours within the 
Bay region. This ongoing drought shows how climate change risks further 
exacerbating food insecurity in this region in the future as 
communities struggle to cope with increasingly frequent and 
unpredictable extreme weather patterns causing flooding and droughts or 
the outbreak of new pests and diseases that threaten crops.
    In addition to the food needs, 4.5 million people are in need of 
water, sanitation and hygiene services (WASH) and nearly half of the 
populations are in need of food security assistance. A severe cholera 
outbreak is ongoing in East Africa and over 50,000 cases have been 
reported in Somalia alone since January 2017. Since the beginning of 
this year, risk of acute malnourishment for Somali children has 
increased 50 percent. In 2017, an estimated 1.4 million children have 
or will face acute malnourishment, including hundreds of thousands 
whose condition is life threatening. Any significant interruptions in 
ongoing food assistance activities risk triggering a famine, and 
additional assistance is needed especially to address disease outbreaks 
and health and sanitation needs.
    Over the last two years, Somalia has seen increased refugee returns 
(both UNHCR supported and spontaneous returns) from the neighboring 
countries, primarily from Kenya (Dadaab). As of May 31, 66,647 Somali 
refugees had returned home from Kenya since December 8, 2014, when 
UNHCR first started supporting voluntary return of Somali refugees in 
Kenya. UNHCR supported 26,759 in 2017 alone. The conditions in many 
parts of Somalia are not conducive to mass refugee returns due to 
ongoing conflict, insecurity, and humanitarian conditions that have now 
been exacerbated by the worsening drought and possible famine, leading 
to further internal and external displacement of the local communities 
and returnees.
Nigeria
    Ongoing conflict and instability in North East Nigeria, including 
the presence of violent extremist group Boko Haram, has destroyed 
markets and agriculture, and kept millions of people trapped in poverty 
and insecurity. Some 1.9 million people are displaced after fleeing 
their homes--including 1.7 million in Adamawa, Borno and Yobe--and 
approximately 8.5 million are in need of humanitarian assistance.
    Many of them live in dangerous and hard-to-reach places, and a 
disproportionate number are children. Almost half a million children 
are suffering from severe acute malnutrition. Famine likely occurred at 
the end of last year, but it was not reported until after the fact due 
to severe constraints on access to these conflict areas. Since then, 
although the scale of conflict has declined recently, allowing trade to 
increase and signs of some people returning to homes, many areas 
continue to remain inaccessible to humanitarian actors, especially in 
Borno State. As of this March, 50,000 people were projected to 
experience famine unless food assistance needs were met.
Yemen
    Due to ongoing conflict between the Houthi rebels and Saudi-backed 
Hadi Government, approximately 75 percent of households in Yemen need 
humanitarian assistance. The complexity of the conflict, and its impact 
on human suffering, is enhanced by the presence of Islamic State 
affiliated groups with transnational terrorist aims. Of the 20.7 
million people living in Yemen, 17.1 million are food insecure and 7.3 
million need immediate emergency food assistance. UNICEF reports that 
nearly 2.2 million children are malnourished including half a million 
suffering from severe acute malnutrition. The situation in Yemen is now 
so dire that a child dies every ten minutes of a preventable disease. 
Parents are forced to make horrific decisions, including whether to 
pursue medical attention for one sick child over buying food to feed 
their other children; they are forced to choose which children live and 
die.
    Cholera--a diarrheal disease associated with malnutrition--has 
killed 1,300 people. With less than half of the country's medical 
centers functioning, the disease is spreading at an extreme rate. There 
are more than 96,000 suspected cases of cholera, and the startling 
rapidity of the spreading outbreak is reflected by the fact that the 
number of deaths is three times higher since April 27 than was reported 
between October 2016 to March 2017.
    Lack of political will and bureaucratic hurdles impede humanitarian 
operations. Port Hodeida, through which 80 percent of Yemen's food 
supply enters the country, is at serious risk of full closure. If this 
happens, the humanitarian crisis will significantly escalate. In this 
context, with the economy also on the verge of full collapse, 
humanitarian assistance alone will not stave off famine in Yemen for 
long.
Responding Urgently
Saving Lives Now
    In all four countries, Mercy Corps is working with our local 
partners to quickly deliver food, water, sanitation supplies, hygiene 
promotion, health care, and education in emergencies. Our emergency 
interventions are impacting 350,000 people in South Sudan, Yemen, 
Nigeria and Somalia. We are also working on solutions that address the 
heart of the problem: training farmers, educating health workers, 
managing conflict, and helping people increase their incomes. Our long 
term interventions are helping millions of people across Africa and in 
Yemen overcome the chronic threat of hunger and build stronger, 
healthier lives.
    For example, in South Sudan Mercy Corps is providing emergency 
relief and, where security allows, supporting reviving local markets, 
traders and families to rebuild farms and livelihoods. in Unity State 
where Mercy Corps is one of the largest humanitarian actors, we provide 
clean water and hygiene services (including functioning latrines) to 
more than 50,000 displaced people and host communities in the Bentiu 
Protection of Civilians (PoC) site. We also provide water and 
sanitation services to 38,500 people in rural areas of Southern Unity 
State. In Koch and Panyijar Counties, we have further expanded WASH 
programming to 74,000 people, and have a ready to respond emergency 
cholera outbreak response team. In Panyijar and Rubkona Counties, Mercy 
Corps has begun an urgent school feeding program that gives hot cooked 
meals to 4,000 children five days a week in seven different schools, 
increasing school attendance rates so children keep learning even amid 
conflict.
    Our food security and livelihoods project in Panyinjar, the region 
in South Sudan that continues to receive the majority of people 
displaced by the ongoing violence, is directly responding to the famine 
and helping families facing hunger, malnutrition and destitution. We 
will provide 6,000 households (approximately 36,000 people) with 
vegetable and fishing kits, and will supply 10,000 crop kits to meet 
the needs of 60,000 people. The kits offer people a means to catch and 
grow their own food and are provided to the most vulnerable displaced 
families, and 60 percent of the households will be women-headed.
    Over the next three years Mercy Corps will reach more than 70,000 
people and their communities to help them re-establish traditional food 
production practices, introduce cultivation techniques and promote 
vegetable gardening to prevent hunger. Where appropriate, we try to 
provide cash assistance that allows families to buy the items they need 
most while supporting and stimulating local markets and businesses. 
Even amid the conflict it is vital that markets remain open and 
functioning so that in the short term people can access food and 
supplies and in the long term economies are able to recover and grow. 
Since the declaration of the famine, we have scaled up our response in 
the counties that are at heightened risk of famine in order to not miss 
this last chance to save lives. Yet we are barely scratching the 
surface of the need.
Humanitarian Access
    Part of this is because without safe access to deliver food, water 
and vital supplies, especially in areas which are on the brink of 
starvation, our efforts to save lives are severely impeded and 
sometimes not possible. Safe, uninterrupted humanitarian access in 
conflict zones continues to be the primary concern as aid workers 
continue to be killed, injured and harassed and are prevented from 
reaching the most vulnerable communities in need.
    In 2017 alone, there have been 492 reported access incidents in 
South Sudan. June recorded the highest number in one month so far in 
2017 with 100 incidents reported. NGO compounds have been forcibly 
entered and looted, staff members physically assaulted and robbed, and 
vehicles ambushed on the roads. Humanitarian aid workers in South Sudan 
are at greater risk of experiencing physical violence (murder, 
violence-related injury or kidnapping) than anywhere in the world: 
between July 2016 and June 2017, there have been 96 incidents of 
violence against civilian aid workers in South Sudan--that's more than 
twice as many than have been reported in Syria in the same time period 
and four times as many reported in Afghanistan. At least 14 aid workers 
were killed since the start of this year in South Sudan. Unless the 
guns fall silent and conflict stops, the humanitarian situation will 
continue to deteriorate.
    Securing access for the humanitarian response not only saves lives, 
it also brings down the cost of the assistance. It allows for a full 
suite of tools and resources to bring the best tailored response 
instead of what has happened in parts of South Sudan where the only 
option has been one of the most expensive: air dropping assistance.
    The difference access makes on mitigating famine risks can be seen 
when comparing the constraints in South Sudan to the proactive response 
of the Government of Ethiopia to the drought. The levels of food 
insecurity and malnutrition in Ethiopia are sobering, but they would be 
even worse if politics were not allowing the most vulnerable to be 
reached and contributing their own resources to the response.
Humanitarian Plus: Layering and Sequencing for Impact and 
        Sustainability
Preventing Violence and Resolving Conflict
    Considering the level of need, it's easy to feel overwhelmed. We at 
Mercy Corps, though, are pushed to action. And we continue to find 
evidence that our efforts to save lives and reduce poverty are having 
positive, sustainable impacts.
    Conflict directly and indirectly impacts hunger in all four famine 
threatened countries. Conflict prevents people from accessing land and 
markets safely or it causes them to flee, separating them from their 
livelihoods and normal sources of food. It interrupts basic public 
services--such as healthcare, education and water. Conflict then 
interacts with other factors to perpetuate complex crises, including 
weakening governments and eroding social capital and social cohesion.
    This is especially true when insecurity due to conflict makes it 
difficult to respond to natural disasters like drought and floods which 
are happening more frequently in parts of the world especially 
vulnerable to climate change. This risks becoming a vicious cycle as 
conflict weakens governments and then places increased pressure on 
access to limited resources. A recent study found that during drought 
times, violence against civilians increases by 41 percent, showing a 
positive correlation between natural disasters and conflict. But, there 
are ways to break the cycle. One way is using conflict management 
skills to reduce the impact of climate-shocks on communities. Mercy 
Corps' research from Ethiopia during the 2011 drought found that 
households in communities where we were helping to build conflict 
management capacities were better able to access key natural resources 
during the drought and were therefore more food secure than comparison 
households.
    Not only do we need to address conflict where it is happening, but 
we also need to mitigate potential spillover effects that could further 
stress resource strapped neighboring countries and further exacerbate 
food insecurity. This is why Mercy Corps enhances the capacity of 
people and institutions to prevent and manage conflict.
    For example, in one of Mercy Corps' humanitarian programs in Yemen, 
where tribal conflicts--particularly over land--have existed for 
centuries, villagers in the Haymah Dakhliyah district of Sana'a 
Governorate decided to use aid distribution as a way to bring the 
village together. They agreed to hold distributions and education 
sessions across lines of division. Even more surprisingly, they agreed 
to leave their guns at home. The hope is that by rebuilding trust 
between villagers, local-level outbreaks of violence that prolong 
suffering and limit the area's development can be prevented when the 
larger conflict ends between the Houthis and the Saudi-led coalition 
backing the government.
    Truly tackling complex crises and hunger ultimately means we need 
to address the root causes of conflict and violence. This includes 
investing in effective conflict management skills and systems as well 
as social cohesion. And my experience in South Sudan has driven me to 
believe this has to happen now. It is not something that can be 
programmed down the line after the humanitarian crisis has ended. To me 
this work must be ``humanitarian plus.'' Humanitarian and peacebuilding 
must go hand in hand in these complex environments to truly be 
effective.
    In South Sudan, $6.66 billion in aid between 2011 and 2015 could 
not prevent the country from slipping back into conflict. A war which 
started as a political struggle between two elites has since spread 
throughout the country. There has been no major drought in South Sudan; 
the famine that was declared earlier in the year and the ongoing and 
increasing food insecurity throughout the country is directly caused by 
the conflict which makes it impossible for people to grow food and next 
to impossible for humanitarians to access those most in need.
    And while some would rather wait for a solution to the larger 
political conflict, Mercy Corps believes this is missing opportunities 
to prevent outbreaks in violence that are localized and affect the day 
to day security of families. In South Sudan, as the war continues, 
ethnic groups are becoming more polarized and negative perceptions of 
the other are becoming stronger. This makes it easier for politicians 
to mobilize youth for violence and makes rebuilding relationships, even 
if a political settlement is reached, harder. The violence in South 
Sudan has spread even to the Equatorias, a region of the country 
normally known as a stable breadbasket. Mercy Corps is now implementing 
a UNICEF project providing strengthened formal education, life skills 
and psychosocial support to build resilience and improve the wellbeing 
of children and young people affected by conflict in Unity State 
(Rubkona, Panyijiar) and Western Equatoria (Mundri East) State. We are 
reaching more than 51,000 children (nearly 40 percent of whom are 
girls) with emergency education in safe and protected environment. The 
teachers we work with are trained to recognize signs of trauma and lead 
activities that help children deal with stress and resolve conflict 
peacefully. Working with youth is an important step in rebuilding 
social ties in a country where more than 50 percent of the population 
is under the age of 24, and where a Mercy Corps 2014 assessment showed 
youth in the country have a high tolerance for violence. But more 
investment in programs to build social cohesion are needed to address 
other underlying issues that can lead to local outbreaks of violence, 
like natural resource disputes.
    And this type of programming is important in other famine 
threatened contexts as well. Our impact evaluation of a multi-year 
USAID-funded stability program in Somalia demonstrates that development 
investments can reduce support for and participation in violence. After 
nearly five years, we carried out a rigorous evaluation to test the 
impact of increasing access to formal education and civic engagement 
opportunities on youth participation in and support for political 
violence. We found that combining secondary education with civic 
engagement opportunities decreased the likelihood of youth both 
participating in and supporting violence, by 14 and 20 percent 
respectively. Giving youth the ability to help their communities 
through activities such as service projects fulfills a desire to do 
something positive, meaningful and impactful.
Hunger is Complex; Resilient Solutions Must be Multi-Sectoral
    Despite the humanitarian access challenges and increasing levels of 
violence in South Sudan and around the world, I want to emphasize that 
we at Mercy Corps continue to find hope in these countries because we 
are still seeing that our work is impactful.
    And that is why I also feel that I must stress to this subcommittee 
the fact that we can prevent and mitigate food security crises if we 
act urgently, especially when the warning signs first appear. Mercy 
Corps has been implementing a variety of programs to strengthen a 
community's resilience to drought and other effects of climate change. 
Resilience programs help communities survive crises and stop the cycle 
of recurrent humanitarian disasters. And, non-emergency Food for Peace 
Title II programs are absolutely critical to building the resilience of 
families and communities to food insecurity. This kind of resilience 
programming is also extremely cost effective: a study by the British 
Government in Kenya and Ethiopia estimates that every $1 invested in 
resilience will result in $2.90 in reduced humanitarian spending, 
avoided losses and development benefits.
    In partnership with Food for Peace, Mercy Corps is implementing a 
five-year $26 million Food for Peace ``Non-Emergency'' program in 
Uganda, called Northern Karamoja Growth, Health and Governance (GHG). 
The program is addressing the complex drivers of food insecurity in the 
region, including through a range of economic, health, governance and 
peacebuilding initiatives that will build a foundation for broader 
self-sufficiency, while targeted food aid for pregnant and lactating 
women and children under the age of two. Mercy Corps works through a 
`market-systems' approach that analyzes markets beyond basic supply and 
demand principles; instead, looking at how they are influenced by 
behaviors, government regulations and rules, relationships, and the 
environment to understand why markets do not work for the poor. This 
approach then facilitates structural or `system' changes that increase 
the the ability of vulnerable populations to participate in markets and 
lift themselves and their families out of poverty.
    Lessons from this program are helpful for Congress to consider when 
thinking about breaking the cycle of famine and food insecurity. For 
example, last year, a drought in the Northern Uganda caused 60 percent 
of the crops to fail. With poverty rates of 51 percent--74 percent in 
the North East subregion alone--buying food was already difficult for 
vulnerable families and their children. While some traders were 
starting to raise prices on commodities--in effect price gouging--Mercy 
Corps worked with traders to keep the price of commodities low. Using 
smart subsidies for transportation and storage, we partnered with 
traders not interested in price gouging and taking advantage of a 
drought, and were able to further lower their costs, keeping the price 
low of commodities they were selling on the open market. Other traders 
had to follow suit as their commodities were overpriced, causing the 
price of commodities to stay affordable. Poor families throughout the 
region were able to continue to purchase food on the market, despite 
the drought.
    These type of interventions are smart, cost-effective and have far 
reaching effects. Food for Peace has been an essential partner in 
fostering these types of interventions. Title II non-emergency 
programs, (especially in conjunction with Community Development Funds 
that provide cash and limit the need to monetize) have proven time and 
again that multi-year, flexible funding enables programs to address 
hunger within complex, interrelated systems effectively.
    An ounce of prevention is worth a pound of cure. Even as we respond 
urgently to the crises in the Horn of Africa and elsewhere, we must 
continue to invest in opportunities to build communities' abilities to 
cope with shocks and stresses in the future. By helping these 
communities deal with risk, we can save lives from future famines and 
reduce the need for costly humanitarian investments over the long-term.
    This innovative resilience approach to food security was also 
embraced by Congress one year ago when the Global Food Security Act 
(GFSA) was passed to improve upon the successes already seen in the 
whole-of-government Feed the Future Initiative. I have to take a moment 
to thank this committee for their help in passing that important bill 
into law so that we can continue to build and support more programs 
that deliver similar, powerful impacts.
Public Awareness and Funding
    With levels of need already alarmingly high and projected to 
worsen, we deeply appreciate the additional $990 million appropriated 
by Congress in FY 2017 for famine response and prevention. President 
Trump recently pledged part of this funding for the famine response at 
the G-20 Summit, where world leaders also included a commitment to act 
urgently in the leader's declaration.
    Given this subcommittee's interest in multilateral affairs, in 
addition to the ongoing fundraising efforts by WFP, UNICEF, UNHCR, OCHA 
and others, it is also worth noting that the World Bank, FAO, and other 
multilateral actors traditionally known more for development work than 
humanitarian actions are also stepping forward with funding that meets 
urgent needs and builds resilience to mitigate future vulnerability. 
For example, this year the World Bank used International Development 
Association funds for the first time to meet humanitarian needs. In 
South Sudan, $50 million in these funds were approved to go to UN 
agencies to reach 580,000 people with an emergency food, nutrition, and 
livestock project that also lays the groundwork for crop and livestock 
recovery when possible. These are positive signs that world leaders 
recognize the need to do more and do it in a new way.
    In addition to government funding, private donations are also 
essential to fund this response. While Mercy Corps has been responding 
in all four countries with urgency, there is simply not enough funding 
to meet the vast level of need Mercy Corps and our peers are facing on 
the ground. To date, of the four famine threatened countries, only 
South Sudan has received even half of its requested needs as outlined 
in the humanitarian response plan. And despite its scope and urgency, 
the crisis has thus far received little media attention in America, 
therefore failing to register with the U.S. public.
Policy Recommendations
    We can and should do better as a global community in responding now 
to address the urgent needs. Congress has an integral role to play in 
helping prevent the spread of famine and create conditions that 
mitigate food crises from happening in the first place.
Diplomacy and Access
    I want to thank Senators Young, Merkley, and other members of this 
subcommittee that have written letters and made statements drawing 
attention to the need for political solutions to resolve conflict in 
South Sudan, Yemen, Nigeria, and Somalia. Both bottom up and top down 
diplomatic efforts are urgently needed to stop the man-made threat of 
famine. The U.S. and key allies should provide high level support to:


   Ensure quick and peaceful resolution to the conflict;
   Guarantee humanitarian access and ensure the safety and security of 
        aid workers; and,
   Address governance, inequality and development issues that drive 
        conflict and violence and support longer-term peacebuilding.
Funding
    Looking ahead, in addition to meeting the immediate needs of the 
famine threatened countries in FY 2018, we ask that appropriations are 
also made available to fund resilience and conflict mitigation and 
management activities out of the Development Assistance and Economic 
Support Fund accounts.
    The U.S. Government should continue to invest in programs that 
address the root causes of conflict and violence at all levels. The 
U.S. Government should also utilize a resilience approach to 
development by enabling interventions to respond and stay relevant to 
rapidly changing conditions and needs, provide multi-year funding (like 
the 5 year Title II non-emergency programs), and allow for flexible, 
iterative program design. FY 2018 budget did include several alarming 
foreign assistance proposals (including cutting approximately 40 
percent of development funding), one thing it got right is it requested 
an increase of nearly 50 percent in smart investments in peacebuilding 
programs in the world's most fragile states. Thanks to the 
administration giving USAID Missions more latitude in their requests, 
the FY 2018 request more accurately reflected some needs, including a 
request to increase conflict mitigation and reconciliation funding from 
$432 million to $632 million.
    Specifically, as Congress considers the FY 2018 appropriations 
bills it must:


   Fully fund the International Affairs 150 Account at no less than 
        $60 billion and ensure the 302b allocations for the State 
        Department and Foreign Operations and Agriculture 
        Appropriations bills are robust enough to respond to these 
        growing crises and continue investments that mitigate against 
        future crises.
   Within the appropriations bills in FY 2018, Congress must provide 
        adequate funding for humanitarian and development accounts, 
        including:

      <all>  $3.4 billion for International Disaster Assistance;
      <all>  $1.8 billion for Food for Peace, including no less than 
            $350 million for non-emergency programs;
      <all>  $3.6 billion for the Migration and Refugee Assistance; and
      <all>  $3.3 billion for Development Assistance and $4.32 billion 
            for Economic Support Fund Accounts which provide funding 
            for conflict mitigation and reconciliation programs and 
            resilience programs, including Feed the Future as well as 
            critical bilateral programs that address climate change. 
            Importantly, protecting Community Development Funds within 
            the ESF and DA accounts will allow for continued creative 
            programming that fights hunger more effectively.


    These funding levels will ensure the U.S. can continue to lead the 
response and works with other donors to make sure they are also 
adequately contributing.
Conclusion
    As I close I want to reflect on South Sudan and why Mercy Corps has 
remained committed to working in this challenging environment. We 
cannot say that our programmes will not be interrupted by violence and 
conflict, but should this mean that we surrender all hope to help the 
South Sudanese people move forward beyond urgent relief and handouts? 
No. It means we adapt, we change our way of thinking and working. It 
means that donors become more flexible in their approach and understand 
that when there is an uptick in violence we will need to pivot from our 
recovery programmes to urgent relief, and then when we can, back again. 
Around the world, Mercy Corps implements programs with such nimbleness 
to shift between relief and recovery to fit the context, but it 
requires trust, partnership, and commitment from our donors.
    While we must have a peace deal that is firm, assuring and 
definite, that ensures the protection of civilians as well as aid 
workers, we also desperately need donors to reinvest and recommit to 
the future of South Sudan.
    Thank you for your time and attention and I look forward to 
responding to your questions.
    Senator Young.  Thank you, Dr. Mahla.
    Mr. Schwartz?

STATEMENT OF ERIC SCHWARTZ, PRESIDENT, REFUGEES INTERNATIONAL, 
                         WASHINGTON, DC

    Mr. Schwartz. Thank you, Chairman Young, Ranking Member 
Merkley, and members of the subcommittee, for holding this 
important hearing.
    I have had the honor to be involved in efforts to assist 
vulnerable communities for over 3 decades. I do not think I 
have ever been more concerned about the international 
humanitarian challenges confronting the United States and the 
world. And especially in light of recent budget proposals, I 
am, frankly, uncertain about the willingness of our government 
to continue to maintain the mantle of global leadership on 
these issues.
    Of course, my concerns are mitigated by the critically 
important actions of members of this committee, the Congress, 
and each of you, stalwart supporters of assistance to 
vulnerable communities around the world, including women and 
girls.
    Nonetheless, the cuts in humanitarian funding proposed for 
the fiscal year 2018 budget would severely compromise U.S. 
capacity to address food security risks, and, as importantly, 
are already sending a dangerous signal globally. My only hope 
is that, in negotiations on funding, members avoid splitting 
the difference between the administration's proposal and what 
expanding needs really require.
    A look at the status of funding appeals for the situations 
we are considering today reveal the importance of this issue. 
The 2017 response plans for Somalia, Nigeria, South Sudan, and 
Yemen are funded respectively at 38 percent, 41 percent, 52 
percent, and 40 percent.
    Now, while my written testimony addresses the dimensions of 
the food security challenge, I want to use my time to emphasize 
something that, thankfully, has already been referenced, that 
food security is primarily a challenge related to governance.
    Where there is an absence of repression and complex, there 
is also an absence of famine. It is the characteristics of 
persecution and conflict that create these risks--destruction 
of crops, the need to flee land, and restrictions on access to 
information about populations in need, restrictions on freedom 
of movement, and restrictions on humanitarian access for those 
who are providing aid.
    So what is the lesson from this observation, which has been 
repeated by other witnesses? It is that investments in 
prevention are key to improving governance and preventing food 
insecurity--preventive diplomacy, peacekeeping, humanitarian 
assistance, and longer term development and resilience-
building, all of which are threatened by the administration's 
budget proposal.
    But it also means something else. It means that the United 
States must have strong political leadership. There must be, 
globally, strong political leadership from powerful and 
respected countries like ours. In South Sudan, it means 
appointing a special envoy, an empowered special envoy for 
South Sudan and Sudan. If you have to choose only a small 
number of crises worthy of the kind of attention that a special 
envoy can provide, this is certainly one of them.
    In Somalia, where our organization, Refugees International, 
just had a team in-country, it means supporting the political 
developments underway and encouraging support for Somalia from 
within the region. For example, it means ensuring that we avoid 
anything less than safe, voluntary, and informed returns of 
Somalis from Kenya.
    In Yemen, it means that the United States must be taking 
strong measures to press the Saudis to respect international 
humanitarian law. U.S. influence with the Saudis is 
overwhelming, but that is meaningless if the United States does 
not use it to address what is probably the most dire situation 
we are considering today, with some 7 million people of Yemen 
on the verge of famine.
    And in Nigeria, it means supporting the development of 
responsive and responsible government, and better coordination 
between international agencies, state authorities, and Federal 
authorities. It also means encouraging Nigerian officials to 
provide unfettered access for international humanitarian 
agencies.
    So the United States must deal with politics and root 
causes, and exercise a degree of leadership that has been 
lacking to address governance and conflict issues, and, 
therefore, address the risk of famine. And at the same time, we 
must respond to immediate threats of food shortages with 
generous provision of resources.
    Meeting both challenges keeps faith with our values and our 
history, and offers a brighter future for millions of people 
around the world.
    Thank you, and I look forward to your questions.
    [Mr. Schwartz's prepared statement follows:]


                  Prepared Statement of Eric Schwartz

    I would like to take this opportunity to thank Chairman Young, 
Ranking Member Merkley, and the members of this subcommittee for 
holding this important and timely hearing today. Refugees International 
(RI) is a non-profit, non-governmental organization that advocates for 
lifesaving assistance and protection for displaced people in parts of 
the world impacted by conflict, persecution and forced displacement. 
Based here in Washington, we conduct fact-finding missions to research 
and report on the circumstances of displaced populations in countries 
such as Somalia, Iraq, Uganda, and Turkey. RI does not accept any 
government or United Nations funding, which helps ensure that our 
advocacy is impartial and independent.
    I've had the great honor to be involved in efforts to assist 
vulnerable communities, as a congressional committee staff member, as 
the senior humanitarian official at the White House during the 1990's, 
as the U.N.'s Deputy Envoy for Tsunami Recovery between 2005 and 2007, 
and as Assistant Secretary of State for Population, Refugees, and 
Migration some years ago.
    In a career spanning more than three decades, I've dealt with many 
vexing issues. But I have never been more concerned about the 
international humanitarian challenges confronting the United States and 
the world. And I have never been more uncertain about the collective 
willingness within the United States Government to continue to assume 
the mantle of global leadership that has been so critical over the past 
many decades.
    We have reached the highest global displacement numbers ever 
recorded, with over 65 million displaced as a result of conflict, 
persecution, violence or human rights violations. Some 22.5 million of 
the displaced are refugees. Lack of humanitarian access continues to 
complicate responses and aid workers are working in both difficult and 
often very dangerous environments. And new emergencies, combined with 
protracted crises, are making more demands on the international 
humanitarian architecture.
    Conflict and persecution are primary drivers of displacement, but 
RI is also deeply concerned about the impact of climate change on 
desertification and on food production, especially in poor countries 
with populations that rely on rain-fed agriculture to survive. 
Unfortunately, these regions are often characterized by poor 
governance, fragility and conflict, which together with more frequent 
and severe drought, creates a lethal combination that will put millions 
more at risk of famine in the coming decades.
    As members of this subcommittee know, the United States has a proud 
history of providing humanitarian and development assistance. The 
support and leadership of the United States in humanitarian response 
has never been more essential and I want to thank this Congress for 
appropriating an additional $990 million in the FY 2017 omnibus to 
better support the famine response in Northeast Nigeria, Yemen, 
Somalia, and South Sudan.
    In fact, Congress has long been a stalwart supporter of assistance 
to vulnerable communities around the world, based certainly on an 
understanding that the United States has security interests in 
promoting reconciliation and well-being in circumstances where despair 
and misery threatens stability. But informed by my conversations with 
Members and staff over many years, it is clear to me that such support 
also reflects a simple belief in the importance of saving lives and 
exercising world leadership in doing so.
    For this reason, the massive cuts proposed in President Trump's FY 
2018 budget, particularly regarding support for international 
organizations involved in humanitarian response, for the International 
Disaster Assistance (IDA) account and for the Migration and Refugee 
Assistance (MRA) account, are deeply alarming. Proposed cuts would 
dramatically compromise the capacity of the United States to support 
friends and allies seeking to address food security and risks of famine 
as well as broader humanitarian challenges and would send a dangerous 
signal. While I am heartened by the forceful and bipartisan nature of 
the pushback on such drastic proposed funding cuts, the effort to 
maintain funding must continue--as the voices of the world's most 
vulnerable populations must be heard.
    I only hope that in any negotiations on the humanitarian assistance 
budget, Members of Congress avoid splitting the difference between what 
has been proposed and what expanding needs require. Splitting the 
difference, for example, between current U.S. humanitarian assistance 
levels and the administration's proposal would still mean draconian 
cuts at a time of extraordinary humanitarian challenges, and at a time 
in which, at current levels, our humanitarian assistance constitutes 
far less than one percent of the federal budget.
Conflict, Persecution and Displacement--and Risks of Famine
    To be sure, food security is an economic development challenge 
which is being exacerbated by the effects of climate change. But it is 
also, to a much larger extent, a challenge related to governance. In 
short, where there is an absence of repression and an absence of 
conflict, there is also an absence of famine. In places like Somalia, 
Northeast Nigeria, South Sudan and Yemen, it is the very 
characteristics of persecution and conflict that create the risks of 
severe food insecurity or famine: destruction of crops, the need to 
flee land that has provided livelihoods, and restrictions on access to 
information about populations in need, restrictions on freedom of 
movement for the displaced and restrictions on humanitarian access for 
those providing aid. Where those characteristics are not present, such 
risks recede dramatically.
    So what is the general lesson from this observation? It is that 
investments in prevention are critical to improving governance and 
thereby preventing food insecurity and famine. Some twenty years ago, 
the Carnegie Commission on the Prevention of Deadly Conflict identified 
two kinds of prevention: operational prevention, or ``measures 
applicable in the face of immediate crisis,'' and structural 
prevention, or ``measures that ensure that crises do not arise in the 
first place or, if they do, they do not recur.''
    The tools of the first kind of prevention--operational prevention--
are largely reflected in measures such as early warning and response, 
preventive diplomacy, United Nations peacekeeping, and humanitarian 
assistance, among others. Unfortunately, the administration's proposed 
budget cuts will have a dramatic impact on the United States ability to 
support these kinds of measures.
    And the tools of the second kind of prevention--structural 
prevention--are reflected, for example, in the longer term development 
and resilience building efforts of the U.S. Agency for International 
Development. And here too, the administration's proposed budget cuts 
will severely impact USAID's capacities in this area.
    Thus, at the risk of repeating myself, we must be very aware that 
cuts in budgets for development, including climate change adaptation, 
for peacekeeping, for humanitarian response, and for refugee aid will 
only mean greater risks of food insecurity and famine, and greater 
needs for food aid.
Somalia

    Overview: A report from the Famine Early Warning System earlier 
this month paints a very troubling picture, indicating that a food 
security emergency is expected in the Horn of Africa through early 
2018, resulting from poor rains and attendant challenges. This is 
expected to result in ``a continuation of Emergency (IPC Phase 4) acute 
food insecurity in southeastern Ethiopia and Somalia,'' with a risk of 
famine. By some estimates, more than six million are acutely food 
insecure. Separately, OCHA has reported some 3.5 million in stress and 
3.2 million in crisis and emergency, as well as 353,000 acutely 
malnourished children under the age of five.
    Principle obstacles to addressing this need, which increases the 
risks of famine, are access to affected populations, especially those 
who may be in areas under militant control, and adequate aid resources. 
To date, a humanitarian response plan of $1.5 billion has a gap of some 
$952 million. RI recommends that the United States lead efforts to 
ensure that funding gaps are effectively addressed.

    RI Field Mission and Observations: A team from RI was in Somalia 
just last week. Recurrent drought, combined with ongoing conflict and 
weak governance, has forced over 760,000 Somalis to flee from their 
homes. Most have fled from rural areas, controlled by Al-Shabab and/or 
clan militias, to urban centers with limited or nominal government 
control--including the cities of Mogadishu and Baidoa.
    Despite significant and generous funding from the United States, 
the United Kingdom and other donors at the onset of the crisis, the 
humanitarian situation in Somalia remains urgent. The newly elected 
Somali Government, the United Nations and humanitarian agencies deserve 
credit for raising the alarm of pre-famine conditions back in November 
2016 and, with the support of donor governments, rapidly pushing out 
food aid to the worst-affected areas. Their efforts avoided what 
undoubtedly would have been massive loss of life and an even larger 
level of displacement. The early injection of humanitarian funding, 
combined with increased areas of government control/access, contributed 
to limited cross-border movement.
    While the return home of some internally displaced persons (IDPs) 
in April 2017 to plant crops offered some hope the situation might 
stabilize, the underperformance of the latest rains sent many back to 
IDP camps. More than 22,000 people were displaced in the first three 
weeks of June alone. In May, UNICEF said that 1.4 million children in 
Somalia are projected to suffer acute malnutrition in 2017.
    Many of Baidoa's new arrivals have come on foot, some walking for 
over three weeks. Some did not make it. Earlier this month, one local 
aid worker told RI, ``It really affects me when I hear some of the 
stories, how they had to leave their parents--even their own children--
on the road when they could go no further. But they had no choice if 
they were to survive.''
    Many of the IDP sites--especially for the newest arrivals--lack 
basic services, including durable shelters, latrines, and lighting. 
Incidents of gender-based violence are rampant and the unsanitary 
conditions have contributed to a widespread cholera epidemic among IDPs 
and host communities alike. The gap in the protection response is 
particularly significant. Protection interventions remain minimal in 
some IDP sites and non-existent in others. And it should be noted that 
some locations for possible return often remain unsafe for IDPs.
    RI is recommending better coordination among operational agencies 
providing water, sanitation, and hygiene (WASH), shelter, and 
protection at the field level; better planning for local integration in 
urban areas and support for access to existing local services where 
available; and support of local government capacity to respond in key 
IDP locations, such as Baidoa.
    Cooperation with Somali authorities and focus on resilience: While 
capacity is limited, the national and local governments have 
demonstrated an intention to respond to the emergency and to work 
collaboratively with international donors and aid organizations. At the 
federal level, the government established a new ministry--the Ministry 
of Humanitarian and Disaster Preparedness. At the state level, the 
Interim South West Administration is developing an IDP policy that 
focuses on durable solutions. Government cooperation and partnership 
with international actors on the drought response is an encouraging 
story amidst all of the challenges. The focus on resilience--the 
capacity to withstand and adapt to shocks and to recover--by 
humanitarian agencies and in the National Development Plan must be 
supported and scaled up. Resilience measures vary, but can include, for 
example, improved technologies and management practices.
    In fact, efforts by the United States, the UK and the European 
Union (EU) to focus on building the resilience of climate vulnerable 
pastoralist and agro-pastoral populations to more extreme weather have 
shown some success in the current drought, as some of the communities 
that received resilience-building support fared better. The challenge 
now will be to continue to scale up and improve the transformative 
impacts, combined with support for improved and expanded governance 
across Somalia.
    But that, of course, does not address the requirements of immediate 
or imminent food crisis conditions, which have caused severe damage to 
rural populations. Entirely dependent on rain-fed agriculture to 
survive, they are chronically malnourished even in a good year. The 
government and humanitarian agencies must act with greater urgency to 
scale up the urgent food, water, shelter and protection needs of the 
displaced.
    In this respect, the flexible nature of U.S. funding is critical 
and allowed agencies that had been working to build the longer-term 
resilience of communities to avoid a worsening of the situation.
    A word on returns: I also want to mention the issue of Somali 
refugee returns from Kenya. Despite the severe crisis inside Somalia, 
UNHCR, supported by donor governments and urged on by the Kenyan 
Government, is continuing to facilitate refugee returns from the Dadaab 
refugee camp in Kenya to some of the areas hit hardest by the drought. 
Around 30,000 Somalis have been returned in the first half of 2017. Of 
course, any refugee who genuinely wishes to voluntarily repatriate can 
and should do so. However, the consistent threat of the Kenyan 
Government to shut down Dadaab, combined with a monetary inducement 
from UNHCR for returnees, brings into question the voluntary nature of 
the return program. Further, the situation inside Somalia threatens the 
viability of sustainable returns. Indeed, when RI staff visited Dadaab 
in late 2016, they met a number of refugees who had returned to Somalia 
only to flee back to Kenya in the face of violence and hunger. There 
have been new arrivals into Dadaab due to the drought but we do not 
know how many because the government does not provide refugee 
registration for them. Moreover, large numbers of refugee returns adds 
additional stress to fledgling local governments that are attempting to 
respond to the drought crisis. We would encourage members of Congress 
to raise these issues of relating to return with the Governments of 
Kenya and Somalia, as well as UNHCR.
Northeast Nigeria
    There are increasing concerns about food insecurity in Northeast 
Nigeria. According to the Office for the Coordination of Humanitarian 
Assistance (OCHA), ``farmers have been unable to return to the land for 
planting season, further aggravating the food insecurity situation,'' 
and ``an estimated 450,000 children under five are suffering from 
severe acute malnutrition in Borno, Adamawa and Yobe.'' According to 
the World Food Programme (WFP), ``[t]he food security situation is 
expected to deteriorate in July-August due to the ongoing insecurity 
compounded by the lean season.'' With respect to Nigeria's most crisis-
impacted states--Borneo, Adamawa and Yobe--WFP expects that some 5.2 
million people will confront food insecurity during the lean season, 
and will include ``more than 50,000 people who could face famine-like 
conditions across the three states.''
    RI visited Northeast Nigeria in the spring of 2016 to examine the 
issue of women and girls displaced due to Boko Haram. Women and 
children--the majority of internally-displaced persons in Northeastern 
Nigeria--are disproportionately affected by the crisis, and its 
attendant impacts on food security. The Nigerian Government has placed 
serious roadblocks on the humanitarian community, restricting ways in 
which they can access and help people in need. This has undoubtedly 
increased malnutrition risks. Further, the Nigerian government has 
categorically refused to permit United Nations agencies and/or other 
humanitarian actors from co-managing displacement camps in the 
northeast. An international presence would be extremely valuable in 
these camps, especially as the federal (NEMA) and state (SEMA) 
emergency agencies that are responsible for delivering food and other 
types of aid into the camps have been accused of sexual exploitation of 
IDPs. Note that these are IDPs who have already escaped the horrors of 
Boko Haram--many of them having been subjected to forced labor and 
sexual slavery. The Nigerian Government must provide unfettered access 
to humanitarian agencies to deliver food assistance and ensure the 
protection of IDPs. And while we recognize the challenges of reaching 
vulnerable populations in such an insecure environment, all efforts 
must be made to strengthen responses to those populations that are 
accessible.
South Sudan
    The awful violence in South Sudan is directly related to the risk 
of famine in the country. Nearly two million South Sudanese are 
internally displaced, and a similar number are refugees who have fled 
South Sudan. OCHA just reported that some six million South Sudanese, 
about one-half the population, were expected to be ``severely food 
insecure'' this month, with 1.7 million ``on the brink of famine.'' 
OCHA also reports that 45,000 people are facing ``catastrophic food 
insecurity,'' and that South Sudan is now confronting the largest, most 
widespread and most deadly cholera outbreak since independence.
    Humanitarian assistance needs in South Sudan are outstripping 
available resources. Moreover, the exodus of South Sudanese has created 
huge challenges for neighboring countries in general, and Uganda in 
particular. Uganda is now hosting nearly one million South Sudanese 
refugees, with an average of more than 2000 arriving each day, and the 
U.N. High Commissioner for Refugees regional response plan is severely 
underfunded.
    The United States continues to provide substantial humanitarian 
assistance, and we welcomed a new announcement of an additional $199 
million for the people of South Sudan and South Sudanese refugees. The 
humanitarian funding from USAID and the State Department for the South 
Sudan response has so far reached $728 million for FY 2017.
    But the needs of this vulnerable population are escalating with no 
end in sight.
    The United States can and should do much more. In particular, given 
the role of the United States in promoting self-determination of the 
people of South Sudan, it is discouraging and baffling that the current 
administration has not sought to play a stronger role in efforts to end 
the political conflict in South Sudan. To date, the administration has 
yet to appoint a Special Envoy for Sudan and South Sudan, and has not 
appeared to demonstrate interest in a serious and sustained effort to 
seek a political solution to the crisis in the country. In fact, the 
President has yet to nominate an Assistant Secretary of State for 
African Affairs. Although the prospects for success of renewed efforts 
at negotiations are limited at best, the terrible suffering of the 
people of South Sudan is not likely to end without it.
Yemen
    Yemen may be the most dire of the four situations we are discussing 
today. About 75 percent of the population-more than 20 million people-
need humanitarian aid to survive. Seventeen million people countrywide 
are food insecure with 6.8 million severely food insecure. There are 
2.3 million malnourished children under the age of five, with 500,000 
of those severely malnourished.
    The U.S. Government is by far the largest donor and must continue 
to bring other donors to the table, as the Yemen response plan is 
significantly underfunded. Only one third of the required $2.1 billion 
has been received. There are indeed aid agencies working inside the 
country, but there are far fewer and they have far less capacity than 
is necessary for a crisis of the scale we are finding in Yemen. Medical 
care and WASH programming need more support, and funding must be more 
flexible to address the most urgent needs.
    As of July 12th there are 320,199 cases of cholera and there have 
been 1,742 associated deaths in the country. The cholera outbreak 
cannot be effectively managed with the health system that is currently 
in place, but the destruction of healthcare infrastructure and the 
severe limitations on imports of most kinds have restricted aid groups' 
ability to carry out a large-scale response. Most healthcare workers 
have not been paid in almost a year, and ongoing stipends are not a 
sustainable solution.
    The cholera epidemic is only the most recent development in a 
multi-faceted crisis in Yemen that combines a humanitarian disaster 
with a public health emergency and ongoing diplomatic failure. More 
than three million people have been forced to flee their homes, food 
insecurity is worsening by the day and the medical care system is 
rapidly failing.
    Respected human rights organizations have expressed serious 
concerns about violations of international humanitarian law by the 
Saudi-led military coalition operating in Yemen, and, especially in 
light of United States military sales to Saudi Arabia, the Trump 
administration should press the Saudis on these issues. As part of this 
effort, the administration should urge the Saudis to permit the 
delivery of essential items. In this respect, we note that the port at 
Hodeidah is one of the only functioning food and humanitarian aid 
channels into Yemen, and the Saudi-led coalition should be strongly 
urged to ensure that the port is permitted to play that role. There is 
thus far no evidence that there has been any diversion of aid by the 
Houthis at the port.
Conclusion
    As I've emphasized, we will not end the risk of famine until we 
deal with issues of governance that play such a critical role in 
creating the conditions of food insecurity. And, as I've mentioned, 
there is much the United States can do to address root causes.
    At the same time, we also have to respond to immediate threats of 
food shortages with generous provision of resources. And at this moment 
in time, funding appeals, both specific to the famine and to broader 
humanitarian needs, are not close to being met. The 2017 Humanitarian 
Response Plan for Nigeria is currently 41 percent funded. The 2017 
Somalia Humanitarian Response Plan is 38 percent funded. The appeal for 
Yemen is 40 percent funded and the appeal for South Sudan is at 52 
percent. We know that funding resources are very stretched, but if the 
United States does not lead in humanitarian response, others will not 
fill that gap. With our active engagement and participation, we bring 
other donors to the table.
    We can only do so, however, if we sustain and even augment annual 
budgetary resources aimed at supporting the most vulnerable of the 
world's population. Not to do so would be to walk away from an historic 
U.S. commitment to humanitarian leadership. On the other hand, meeting 
this challenge keeps faith with our values and our history, and offers 
a brighter future for millions of people around the world.
    Thank you and I look forward to your questions.


    Senator Young.  Thank you.
    Mr. Stillhart, I promised you that I would pick up on the 
theme of compliance with international humanitarian law, 
something you spoke to in your opening remarks. So my first 
round of questions will focus exclusively on that and on you. I 
will give you an opportunity to offer your thoughts, sir.
    Mr. Stillhart, what is the Red Cross role with respect to 
Customary International Humanitarian Law?
    Mr. Stillhart. The International Committee of the Red Cross 
has received a mandate from the international community to 
promote international humanitarian law, and we are also the 
guardian of this particular body of law and the Customary 
International Humanitarian Law study comes out of the ICRC.
    Senator Young.  And you, no doubt, know, even if you were 
not present earlier, what Rule 55 states--it is something I 
invoked earlier--that parties to a conflict must allow and 
facilitate rapid and unimpeded passage of humanitarian relief 
for civilians in need, which is impartial in character and 
conducted without any adverse distinction, subject to their 
right of control.
    When this rule, Rule 55, uses the word ``impartial,'' what 
is meant by that? Specifically, does this word ``impartial'' 
mean that it would be a violation of humanitarian law for a 
warring party to impede humanitarian assistance solely because 
that aid is going into a port or a region controlled by their 
enemies?
    Mr. Stillhart. Senator, ``impartial'' essentially means to 
provide aid based on needs and not based on political, ethnic, 
religious, or party affiliation. That is what the word 
``impartial'' means.
    Now with regards to Rule 55, Rule 55 actually draws from 
two important IHL rules that regulate humanitarian relief. One 
is that humanitarian activities can be undertaken by impartial 
humanitarian organizations, subject to the consent of the 
parties to the conflict concerned. And the other one is that, 
once these humanitarian activities have to be agreed to, the 
parties to the conflict must allow and facilitate the rapid and 
unimpeded passage of relief.
    What I can tell you is that this rule applies in the 
context of Yemen, and all parties are bound by customary Rule 
55, and it provides, therefore, a strong legal basis for the 
safe and rapid and unimpeded passage of relief goods into the 
country.
    Senator Young.  So you mentioned Yemen. Do you believe all 
warring parties in Yemen are allowing and facilitating the 
rapid, unimpeded, and impartial passage of humanitarian relief?
    Mr. Stillhart. We are facing significant challenges. Some 
of them have been mentioned before, with regards to the Port of 
Hodeidah. But challenges go further than the Port of Hodeidah. 
It is also challenging today to transport relief across the 
country once the goods are inside.
    And I would also like to draw your attention to the fact 
that there is an effective air blockade on Sana'a, where only 
the UNMSF and ICC are allowed to fly in. There is zero 
commercial flight going into Sana'a, the capital, which amounts 
to an effective air blockade.
    Senator Young.  Has the Red Cross expressed private 
concerns to the warring parties in Yemen about the respect for 
humanitarian law, including allowing and facilitating rapid, 
unimpeded passage of humanitarian relief for civilians in need?
    Mr. Stillhart. Yes.
    Senator Young.  And what sort of response, if you are 
willing to share, have you received in response to expression 
of those concerns?
    Mr. Stillhart. Well, normally, this takes place within the 
framework of our confidential dialogue. What I can tell you, 
Senator, is that we have addressed these issues not only in 
Yemen, with the different parties in Yemen. We have addressed 
them with all states that are directly involved in the conflict 
in Yemen, including with Saudi Arabia in Riyadh.
    Senator Young.  Okay. Is it fair to say that the expression 
of private concerns has not addressed the violation of 
international humanitarian law?
    Mr. Stillhart. Excuse me?
    Senator Young.  Is it fair to indicate that your private 
expressions of concerns have not addressed the violations of 
international humanitarian law, has not led to a solution?
    Mr. Stillhart. All our interventions are based, of course, 
on international humanitarian law. But so far, we continue to 
see challenges with regards to unimpeded access and passage of 
humanitarian aid in Yemen.
    Senator Young.  I know that you need to continue to operate 
in these regions. This is why you have these private and 
confidential conversations. So I certainly will not ask you to 
publicly condemn warring parties in Yemen.
    However, I will just reveal that I believe, based on 
today's testimony from earlier panels, from things I have heard 
here today, and in my consultation with experts in the field, 
that a case can definitely be made that the Saudis are, in 
fact, violating Customary International Humanitarian Law Rule 
55.
    The Saudi-led coalition deliberately and precisely bombed 
the cranes, as we have seen, in the Port of Hodeidah that were 
used to offload humanitarian supplies. The Saudi-led coalition 
also bombed a World Food Programme warehouse in Hodeidah.
    Despite the establishment of the U.N. Verification and 
Inspection Mechanism, or UNVIM, created to obviate the need for 
Saudi-led coalition inspections, the Saudi-led coalition 
continues to delay shipments going into Hodeidah for days as 
vulnerable Yemenis cling to life waiting for food and medicine. 
According to the U.N., the Saudi-led coalition caused, on 
average, 5.5 additional days of delay in June for commercial 
vessels going into Yemen's Red Sea ports. This statistic 
excludes weekends, public holidays, and inspection times, to be 
precise.
    In January, when the World Food Programme tried to deliver 
the four USAID--that is, U.S. taxpayer-funded--cranes to 
Hodeidah to offload humanitarian supplies to replace the 
capacity destroyed by the Saudi-led coalition, the Saudis would 
not permit the replacement cranes to be delivered, literally 
forcing the vessel carrying the cranes to turn around.
    The Saudi-led coalition has diverted on several occasions 
vessels to ports they or their allies control, more concerned 
about who controls the port than which Yemenis most need the 
aid.
    And as we have discussed, on June 27, the World Food 
Programme asked the Saudis again for permission to deliver the 
four cranes.
    As Dr. Mahla writes in her prepared statement, the 
situation in Yemen is now so dire that a child dies every 10 
minutes of a preventable disease. Yet, 3 weeks have elapsed 
since the June 27 letter, and the Saudis have not granted the 
approval to the World Food Programme.
    In those 3 weeks, if that statistic is correct, as we have 
waited for the Saudi response, 3,024 children have died in 
Yemen of preventable diseases. All the while, the Saudi 
Government has delayed and obfuscated, floating red herrings 
related to the large-scale theft of humanitarian aid at 
Hodeidah and the supposed lack of safety at the port that 
precludes the delivery of the cranes. The Department of State, 
USAID, the World Food Programme, multiple NGOs on the ground in 
Yemen have repeatedly said these Saudi assertions are false.
    I believe those Saudi arguments have today, yet again, been 
thoroughly and publicly discredited.
    So I think we are seeing a disturbing pattern of behavior 
from the Saudi-led coalition. Just one U.S. Senator with a 
strong opinion based on months of studying the facts in some 
level of detail.
    If the Saudis want to make clear their compliance with 
international humanitarian laws, among other steps, they should 
grant approval to the World Food Programme to deliver the 
cranes to Hodeidah, stop imposing delays on shipments into 
Hodeidah, and stop restricting the movement of journalists, 
humanitarian workers, and U.N. officials in Yemen.
    Mr. Stillhart, your question. You indicated the U.S. has 
leverage to affect change. Mr. Schwartz said the U.S. influence 
with Saudi Arabia is overwhelming. How can the U.S. affect 
change and incentivize compliance with international 
humanitarian law? I am going ask you to explain your assertion 
about the U.S. having leverage in this area.
    And then I will recognize Mr. Merkley, if time permits. I 
have gone over. I apologize, sir.
    Mr. Stillhart?
    Mr. Stillhart. Thank you, Senator.
    As I said in my opening remarks, the U.S. is working with a 
number of partners in the region, providing support to 
partners, and this support definitely offers opportunities for 
influence.
    We have recently submitted a letter signed by our president 
to all states that are either directly or indirectly involved 
in the various conflicts in the Middle East--this is not only 
in Yemen; this includes Syria and Iraq--to seize the 
opportunities that supporting partners offer. And our request 
is really that there should be no support. There should be no 
support without compliance of the partners that you are working 
with.
    This is the area where we believe there is influence not 
only by the United States but by all states that are either 
directly or indirectly supporting partners in that region and 
elsewhere, by the way.
    Senator Young.  Thank you.
    Mr. Merkley?
    Senator Merkley. Thank you, Mr. Stillhart.
    You mentioned a diplomatic surge, and you have elaborated 
some on that. Do you believe it would make a difference if 
President Trump was to directly connect with King Salman of 
Saudi Arabia, in terms of addressing the situation in Yemen?
    Mr. Stillhart. I believe that U.S. leadership, in whatever 
shape or form it comes, is key and can make a difference, yes.
    Senator Merkley. And would it makes sense for the United 
States, at the highest levels of the executive branch, to 
convene, if you will, an urgent council or meeting of leaders 
to really amplify and accelerate the response to the four 
famines?
    Mr. Stillhart. I think anything that you can do, not only 
in terms of responding directly to the famine in providing more 
funds, which is extremely important and will remain important, 
but as I said before, I strongly believe, and we at the ICRC 
strongly believe that states, especially those that are 
directly or indirectly involved, and supporting partners, can 
exercise their leverage over the warring parties on the ground.
    So if this meeting is not just about mobilizing more funds 
that are, as I said, extremely necessary, but also about 
influencing warring parties' behaviors, I would really welcome 
that.
    Senator Merkley. Thank you for that collaboration.
    Dr. Mahla, you mentioned, in 2011, there was a brief period 
of stability. What ended that stability? And is there a way to 
reclaim it?
    Dr. Mahla. After independence in July 2011, there was a 
brief period of stability. And we understand that, in December 
2013, there were tensions within the ruling government. It 
initially started as a brutal power struggle between the 
President and the Vice President. Actually, the fighting 
started in Juba on the 13th December in 2013, and it took an 
ethnic dimension and spread to all parts of the country.
    And since 2014, 2015, 2016, we have seen it deteriorating. 
There was relatively less violence, let's say, in some periods 
of the year 2015. But then again, after the December 2013 
fight, the July 2016 violent clashes again totally amplified 
the violence, and it spread almost to all parts of the country.
    Senator Merkley. Underneath or as a foundation to the 
struggle between the President and the Vice President, was this 
an issue of who would carry the most weight? Or were there 
tribal differences or other fundamental differences that the 
President and Vice President represented?
    Dr. Mahla. So what we understand from being on the ground 
is, initially, it was about power, because both of them were 
the same party fighting with Sudan to gain independence. So 
they work together until 2011 or 2012. So it was about power, 
as we understand, but it took an ethnic dimension very quickly, 
because they are from different tribes.
    Senator Merkley. You testified that 84 humanitarian workers 
have been killed since 2013. Are some of these Mercy Corps 
workers?
    Dr. Mahla. Fortunately, as yet, we have not had any Mercy 
Corps staff members killed. We have had examples of harassment, 
my team members being on gunpoint, and some of them even being 
abducted. But many of my peer agencies have suffered.
    Senator Merkley. Has it made it extremely difficult for 
Mercy Corps and other organizations to recruit humanitarian 
workers, because of this record of casualties?
    Dr. Mahla. It is very difficult to recruit as well as very 
difficult to retain, especially recruiting female staff members 
who are willing to come work in South Sudan from other 
countries is extremely difficult.
    Senator Merkley. Were most of these 84 workers from South 
Sudan or were they workers from other countries?
    Dr. Mahla. Over 90 percent are South Sudanese.
    Senator Merkley. In this power struggle that became a 
tribal conflict, is there a way to put the pieces back 
together? And if so, how?
    Dr. Mahla. There are ways to put it together, and it will 
need a huge effort, which has to be a combination of lifesaving 
efforts as of now, because if Mercy Corps and other agencies 
stop today, people are going to die. I believe that there are 
ways in which regional pressure can somehow result in the South 
Sudan leaders taking peace more seriously.
    Senator Merkley. Thank you.
    Mr. Schwartz, you mentioned the need for a special envoy 
for South Sudan. In terms of diplomatic offensive, diplomatic 
surge, if you will, to try to address some of these conditions, 
are there other key posts that need to be filled or other key 
actions?
    You heard me ask the question about the President's team 
attempting to both influence Saudi Arabia and help lead a 
council of nations to respond in a more vigorous manner. What 
role would this special envoy play? And how would it fit into 
the other diplomatic pieces?
    Mr. Schwartz. Let me make a preliminary point, which is 
that deep U.S. involvement never guarantees success in these 
kinds of situations, but U.S. absence has traditionally 
guaranteed failure, and that is my concern here.
    On the specific question you asked, let's take South Sudan. 
We do not have a senior director for African affairs at the 
White House. We do not have an Assistant Secretary of State for 
African Affairs at the State Department. We do not have a 
special envoy for Sudan and South Sudan. We have an IGAD 
arrangement, a negotiation arrangement, which is not really 
going anywhere, based in part on the fact that regional actors 
have very conflicting interests.
    I had a very interesting conversation with Senator Young 
yesterday, and he, understandably, questioned how many special 
envoys we need. My personal view is, if there is a case for a 
special envoy, South Sudan and Sudan is a good one. If you are 
taking the position that the numbers have to be smaller, I 
would say this would rise to the top.
    But I think the more fundamental point is that there is no 
apparent strategy coming from the administration on how to 
address this. There is no indication that this is an important 
political issue for the administration. And as long as that is 
the case, frankly, I think the prospects for a political 
solution are negligible. They are not great even with U.S. 
engagement, but I think they are negligible without it.
    Now let me make a point about Yemen, which I think was sort 
of obvious, but I think it is important for us to state, which 
is there is no indication that the administration has raised 
the issues that Senator Young has talked about. There is no 
indication. In fact, there is indication that the 
administration has not.
    I speak with some degree of confidence. And I think, given 
what is going on in Yemen, no matter what this administration's 
perspective is on human rights policy, it is astonishing to me 
that it does not seem to have been the subject of any 
discussion with the Saudis.
    Perhaps I am wrong. Perhaps the information we have been 
getting on this is inaccurate. But I do not believe it has been 
the subject of any discussion. And that, to me, is baffling.
    Senator Merkley. If you were advising our President's team, 
would you say, ``Look, not only apply pressure to Saudi Arabia, 
but if it is an issue of escorting a ship with the cranes that 
Senator Young has been advocating for, we should do so and get 
those cranes into place''?
    Mr. Schwartz. Of course. Of course. But I think this 
problem could be solved with a phone call between the President 
and the Saudi leadership, or even at a level much lower than 
the President. This is a solvable problem.
    The administration has, I think with some merit, boasted 
about its relationship with the Saudis. The potential influence 
is overwhelming. So I just have to say, again, it is kind of 
baffling to me why--this is an easy win. And it is so morally 
compelled, that I just do not quite understand it.
    Senator Merkley. Security risks often flow with an influx 
of refugees. For example, Jordan has a huge refugee population 
from Syria. Uganda has a very large refugee population, now 
exceeding a million individuals from South Sudan.
    What kinds of stability issues is that creating that may 
cause further challenges?
    Mr. Schwartz. I think the refugee flight--I mean, right 
now, the level of numbers of displaced persons is not simply 
the largest number since World War II. It is the largest number 
in recorded history. And the potential implications for 
instability are significant and substantial.
    Thankfully, governments like Uganda and others have begun 
conversations about making the lives for refugees in these 
places more livable. And there is a very valuable and important 
conversation going on in the international community about 
education for refugees, about access to employment.
    So it is not completely bleak, but if the numbers continue 
at the rate they have, then these problems are going to be 
insurmountable. So efforts to address root causes are 
absolutely critical.
    Senator Merkley. I have a final yes/no question for each of 
you, and then I am going to dash out of here, and I apologize 
about that.
    There is a proposal to move the State Department Bureau of 
Population, Refugees, and Migration to the Department of 
Homeland Security. Good idea, bad idea? Good idea, yes or no? 
Each of you, if you could, with just one sentence or one word.
    Mr. Schwartz?
    Mr. Schwartz. Bad idea.
    Senator Merkley. Dr. Mahla?
    Dr. Mahla. Not suited to the current times.
    Senator Merkley. What was that?
    Dr. Mahla. Not suited to the current times.
    Senator Merkley. Not suited to the current times. Thank 
you.
    Mr. Stillhart?
    Mr. Stillhart. I think it is difficult, today, to separate 
questions of migration and resettlement from the conflicts that 
are taking place, because it is the conflicts that are actually 
creating displacement, migration, and refugees. And, therefore, 
it seems to me that PRM is better left at State.
    Senator Merkley. I appreciate that, in your careers, you 
are all, every day, getting up and working to make the world a 
better place. Thank you for sharing your expertise with us.
    Thank you.
    Senator Young.  Well, blessedly, for some of you, this 
panel, this hearing is coming to a close. Each of you have 
provided constructive, insightful testimony, and, more 
importantly, recommendations regarding steps that this 
committee should take in the future in each of these countries.
    Before we conclude, in addition to the issues in Yemen that 
I have raised, I am interested in hearing from each of you the 
most important suggestion you have for any of the three other 
famine countries where Congress should focus, aside from 
recommendations you might have already made to us here today. 
In Nigeria, Somalia, or South Sudan, can each of you suggest 
one area of focus where you believe congressional attention or 
action can yield the most positive results?
    I will allow any of you to begin.
    Mr. Stillhart?
    Mr. Stillhart. Thank you, Senator.
    I would like to come back to the situation in Nigeria, in 
the northeast of Nigeria. I visited the region several times, 
and it is extremely important not just to think about and push 
for humanitarian access for humanitarian organizations, but it 
is about livelihoods for people and freedom of movement for 
people so that they can rebuild their livelihoods.
    And for now, it is my assessment that the cursor in Nigeria 
between what are legitimate security concerns of the 
government, they are entirely legitimate given what is 
happening in the northeast of this country, the cursor between 
these legitimate security concerns and opportunities to rebuild 
livelihoods for people is not in the right place. And the 
cursor needs to shift further toward providing and creating a 
more conducive environment for livelihoods, because otherwise, 
what is going to happen in the northeast of Nigeria, which has 
regional consequences, we are just going to see a new round of 
exclusion and marginalization of the people in this region, 
which is the very basis for the conflict that has been raging 
in this region for 8 years.
    Senator Young.  Thank you.
    My staff and I will look forward to following up with you 
about this matter.
    It appears Mr. Schwartz is prepared to offer a 
recommendation, based on the eye contact. Is that correct, sir?
    Mr. Schwartz. Yes. The tagline here is human capital.
    The wonkish term is that we have this Comprehensive Refugee 
Response Framework, which the UNHCR in the context of these 
summits last September pulled together on refugees, but what it 
is about is it recognizes the reality that with more than 22 
million refugees outside their countries of origin, many if not 
most of whom are not going back quickly, we have to get out of 
the mindset that these are very, very temporary situations.
    And governments like Uganda have taken seriously the charge 
that they need to think about--and the World Bank is involved 
in this--education, employment, the development of human 
capital for these people who are outside their countries of 
origin.
    And it is a very promising effort, but it is underfunded. 
So Uganda is hosting over a million refugees, nearly a million 
South Sudanese. We are not raising enough money to support that 
effort, so to ask them to be in the lead in this effort to 
develop human capital becomes very challenging.
    So I think an initiative from the Congress to support this 
effort, this Comprehensive Refugee Response Framework, human 
capital, would be extremely valuable.
    Senator Young.  I look forward to working with you to learn 
more about this challenge, and perhaps review the evidence to 
ensure that that investment is really going to improve the 
circumstances of those who need it.
    Dr. Mahla?
    Dr. Mahla. My first of the two recommendations would be 
consistent, safe, secure, and swift humanitarian access, 
because if you talk about South Sudan, Nigeria, and Somalia, 
oftentimes, the case is that the people who are most 
vulnerable, they are the most difficult to access. And when we 
talk about humanitarian access, I also want to bring your 
attention to the ability of people to access the services, not 
only aid workers being able to access them.
    And the second one is on addressing the root causes of 
violence and conflict, as discussed earlier this afternoon. The 
only reason for which people resort to arms or join armed 
groups is not poverty always, studies and experience have 
shown. One study done recently by Mercy Corps also says it is a 
sense of being treated unjustly.
    So if we invest early on and work on community-level social 
cohesion and livelihoods, in addition to humanitarian and 
lifesaving services, rather than waiting for emergency or 
catastrophe to be declared, it will save money, it will be 
cost-effective, and probably less people and, let me say, less 
humanitarians will be killed.
    Senator Young.  Thank you, Doctor.
    Thank you again, all, for your compelling and thoughtful 
testimony. My hope is that this hearing will build some 
momentum and result in some tangible, additional steps being 
taken on the backend to alleviate the horrible suffering in 
each of these four countries.
    For the information of members, the record will remain open 
until the close of business on Thursday, including for members 
to submit questions for the record.
    Senator Young.  Thank you again to each of you, and this 
hearing is adjourned.


    [Whereupon, at 4:54 p.m., the hearing was adjourned.]

              Additional Material Submitted for the Record

                              world news / july 18, 2017 / 10:33 am


           Saudi-led coalition blocks U.N. aid staff flight 
                     carrying journalists to Yemen

3 min read


    DUBAI (Reuters)--The Saudi-led coalition fighting in Yemen 
prevented a U.N. flight carrying aid agency staff from traveling to the 
Houthi-controled capital Sanaa on Tuesday because three international 
journalists were also aboard, aviation sources said.
    The coalition, which intervened in the Yemen conflict in 2015 in 
support of the internationally recognized government of President Abd-
Rabbu Mansour Hadi, controls the airspace over Yemen and can prevent 
any flights made without prior permission.
    Aviation sources said the flight was prevented from taking off from 
Djibouti to Sanaa because three BBC journalists were on it.
    A United Nations spokesman confirmed the report.
    ``The coalition claimed that the security of the journalists could 
not be guaranteed in rebel-controlled areas and advised the three 
journalists to travel on commercial flights,'' said Ahmed Ben Lassoued, 
a spokesman for the United Nations Office for the Coordination of 
Humanitarian Affairs (OCHA) in Yemen.
    ``It's unfortunate and partially explains why Yemen, which is one 
of the world's largest humanitarian crises, is not getting enough 
attention in international media,'' he added.
    A source in the coalition said that the Yemeni Government was the 
only party entitled to issue visas for foreigners and that entry must 
be made via commercial flights through Aden airport, which is under its 
control.
    ``The United Nations is not concerned with transporting 
journalists, except those who are coming to cover its own activities,'' 
a source in the coalition said, adding that the U.N. must ensure the 
journalists safety and make sure they do not carry out any other 
activity.
    U.S.-based humanitarian agency CARE International said its 
Secretary-General Wolfgang Jamann was scheduled to fly to Sanaa for a 
first-hand look at a cholera outbreak that has killed nearly 1,800 
people since April.
    ``This is the only way in and out of Sanaa,'' said Wael Ibrahim, 
CARE country director in Yemen said.
    The impoverished Arab country has been devastated by the war, which 
has killed more than 10,000 people and displaced more than 3 million.
    ``The lack of coverage is also hindering humanitarians' effort to 
draw the attention of the international community and donors to the 
humanitarian catastrophe the country is experiencing,'' Ben Lassoued 
said.

Reporting by Sami Aboudi; Editing by Hugh Lawson

         World Food Programme Letter Submitted by Senator Young


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
